la
Appendix A
THE SUPREME COURT OF WASHINGTON
SUSAN CHEN, et al
Petitioners

No. 98866-8

vs.

ORDER

DARREN MIGITA et al.

court of Appeals

Respondents

No. 79685-2-1

Department II of the Court, composed of Chief
Justice Stephens and Justices Madsen, Gonzalez, Yu,
and Whitener (Justice Johnson sat for Justice
Madsen), considered at its January 5, 2021, Motion
Calendar whether review should be granted
pursuant to RAP 13.4(b) and unanimously agreed
that the following order be entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 6th day of
January, 2021.
For the Court
Isl Stephen, J

CHIEF JUSTICE

2a
Appendix B

THE SUPREME COURT OF WASHINGTON
SUSAN CHEN, et al
Plaintiffs,

No. 98866-8

us.

ORDER

DARREN MI GITA et al.

court of Appeals

Defendants

No. 79685-2-1

Department II of the Court, composed of Chief
Justice Gonzalez and Justices Madsen, Stephens, Yu
and Whitener, considered this matter at its April 27,
2021, Motion Calendar and unanimously agreed that
the following order be entered.
IT IS ORDERED:
That the Petitioner’s motion modify Commissioner’s
ruling is denied.
DATED at Olympia, Washington, this 28th day of
April, 2021.
For the Court
/s/ Gonzalez. J
CHIEF JUSTICE

3a
Appendix C

IN THE COURT OF APPEALS OF
THE STAET OF WASHINGTON
SUSAN CHEN

et al ]

Petitioners

)
)
)
)

No. 79685-21
DIVISION ONE

) UNPUBLISHED OPINION

v.

)

DARREN MIGITA et al. )
Respondents

)
)

HAZELRIGG, J - CR 60 (b)(1) authorizes a trial court to
vacate a judgment based on an “irregularity,” which may
occur upon a failure to adhere to a “prescribed rule” or “mode
of proceeding.” However, a motion to vacate under CR 60(b)
is not a substitute for a direct appeal. In this case, the
superior court perceived a legal error as to an aspect of a
prior order granting summary judgment and partially
vacated that order in an attempt to correct the error. This
was an abuse of discretion. For these reasons, we reversed
and remand for reinstatement of the order granting
summary judgment dismissing the claims against the
defendant physicians. We otherwise affirm.
FACTS
Susan Chen and Naixing Lian are the parents of the two
minor children, J.L. and L.L.1 J.L. came to the attention of
the Suspected Child Abuse and Neglect (SCAN) team at
Seattle Children’s Hospital (SCH) in October 2013 when he
1 Chen’s motion to use initials to refer to the minor children is
granted.

4a
Appendix C
was three years old. Several physicians referred him to the
hospital based on a constellation of concerning symptoms,
including low weight, abdominal distention, and lethargy.
After repeated urging, Chen brought J.L. to SCH’s
emergency department on October 20, 2013. The physicians
who examined J.L. described his “gaunt” appearance and
“protuberant belly” as well as his “complex past medical
history and an undetermined reason for his failure to thrive.”
Due to J.L.’s presentation and abnormal lab results, the
physician recommended a coordinated workup to include
endocrinology, gastroenterology, and nephrology. However,
the parents insisted taking J.L. home and the physician
concluded that he “[did] not meet the eminent risk criteria
for [a] medical hold.” The doctor discharged J.L. with his
parents’ agreement to follow up with J.L.’s primary care
physician the following day.
Three days later, on October 23, 2013, Chen took J.L.to
his primary care physician who made a report to Child
Protective Services (CPS), due to her longstanding concern
about J.L.’s symptoms and Chen’s resistance to medical
advice.2 After some negotiation with a CPS social worker,
Chen returned with J.L. to SCH on October 24, 1013. The
emergency room physician observed signs of “gross
malnutrition” and noted that J.L. had been placed in State
custody due to his critical symptoms and Chen’s opposition
to medical evaluation. The doctor admitted J.L. to the
hospital for further evaluation and monitoring by the SCAN
team.

2 J.L.’s primary care physician is not a party to this lawsuit.
The trial court dismissed Chen’s claims against that physician
and this court recently upheld the dismissal in an unpublished
decision. See Chen v. Halamay, No. 76929-4, slip op. (Wash. Ct.
(unpublished)
2020)
Feb.
App.
10,
http://www.courts.wa.gov/opinions/pdf/769294.pdf

5a
Appendix C
Drs. Darren Migita and James Metz were a part of SCH’s
“Child Protection Team” that evaluated J.L. for possible
child abuse and neglect on October 27, 2013. Dr. Metz
reported that J.L. was “severely malnourished” and
concluded that his significantly distended abdomen could be
related to his malnourishment. Dr. Metz noted that Chen’s
behavior appeared to be “erratic” and that, while she sought
care for J.L. from numerous physicians, she did not appear
to follow through with recommendations. Regardless of her
intentions, Dr. Metz concluded there was likely an “element
of neglect given [J.L.’s] current nutritional status.” Dr.
Migita requested a psychiatric consult to evaluate J.L.’s
exposure to trauma and the presence of trauma-related
disorders. Dr. Ian Kodish conducted an evaluation and
observed that J.L. had a “severe speech delay” and exhibited
features of “reactive attachment disorder, which may stem
from a failure of strong nurturing attachment formed with
[L.J.’s] primary caregiver.” He concluded that other
disorders, including Autism Spectrum disorder, could not be
definitively ruled out Following his discharge from the
hospital, the State placed both J.L. and L.L. in foster care.
L.L. was returned to his parents’ care after a few days, but
the State initiated a dependency proceeding as to J.L. and he
remained in foster care for almost a year, until the
dependency was dismissed in September 2014.
In October 2016, representing themselves pro se, Chen
and Lian (collectively, Chen) sued Drs. Metz, Migita, and
Kodish, and SCH.3 Chen filed three separate complaints
under the same cause number. Two of the complaints were
unsigned. The complaints also identified J.L. and L.L. as
plaintiffs. Chen alleged that (1) the physicians misdiagnosed
3 In addition to the individual physicians and SCH, Chen’s
lawsuit included additional defendants, including the City of
Redmond, the State of Washington, and the Department of
Social and Health Services.

6a
Appendix C
J.L.; (2) the medical treatment they provided to him fell
below the standard of care; (3) the physicians reported
inaccurate information to CPS; and (4) failed in their duties
as expert witnesses, which resulted in J.L. being removed
from his home and caused harm to the family. Chen claimed
that the SCH was vicariously liable because the physicians
were acting within the scope of their “employment and
agency.” In fact, none of the defendant physicians were
employed by SCH.
On December 8, 2016, Chen filed a single summons
directed at all three physicians and SCH. On December 13,
2016, she served SCH with a copy of the summons and
complaint. Chen did not, however, personally serve any of
the physicians and none of the physicians authorized SCH to
accept service on their behalf.
The three physicians jointly moved for summary
judgment in February 2017.4 They sought dismissal of
Chen’s claims based on (1) failure to effect service on the
physicians, resulting in a lack of jurisdiction; (2) failure to
file within the statute of limitations as to Drs. Metz and
Kodish, because the complaint filed against them was
unsigned and therefore void; (3) failure of proof under RCW
7.70.040 because the plaintiffs had not retained a qualified
expert who expressed the opinion that the physicians’
conduct fell below the standard of care; and (4) statutory
immunity under RCW 26.44.060 based on the physicians’
good faith reports of alleged child abuse or neglect. The
physicians requested dismissal “with prejudice.”

4 The signature page of the motion for summary judgment is
dated February 2, 2016, but the attached certificate of service
for the motion is dated February 2, 2017. The 2016 date
appears to be a scrivener’s error.

7a
Appendix C
SCH separately joined in the motion, and adopted the
physicians’ arguments. Because the only claim against it was
premised on vicarious liability for the alleged negligent acts
of the physicians, SCH argued that the claims against it
should be dismissed with prejudice for the same reasons that
the claims against the physicians should be dismissed.
Chen did not file an answer to the defendants’ motions.
Instead, she sought a continuance, stating that she “hope[d]
to look for an attorney.”
The parties appeared before King County Superior Court
Judge Hollis Hill on March 3, 2017, for argument on the
motions. Chen appeared with the assistance of an
interpreter. She again requested a continuance, but also
responded to the defendants’ claims regarding the failure to
effect service and the statute of limitations, and maintained
that she would be able to marshal evidence to support the
claims regarding misdiagnosis and negligent treatment.
The court denied the request for a continuance under CR
56(f) because it did not appear that evidence existed that
could justify Chen’s opposition to the motion, especially as to
claims involving “pure issues of law,” such as ineffective
service of process, the statute of limitations, and statutory
immunity for reports to CPS.
The court entered an order granting the physicians’
motion for summary judgment, denying the motion to
continue, and dismissing the claims against SCH. The
court’s order stated that the physicians’ motion was
“GRANTED” and that the “claims against Seattle Children’s
Hospital are dismissed.”
Chen sought reconsideration. Her motion was limited to
the issue of “prejudice regarding re-filing of the minor

8a
Appendix C
Plaintiffs’ claims at some future date.” She asked the court
to clarify that, as to the claims asserted by the minor
plaintiffs, the claims against the physicians were dismissed
without prejudice. Chen also argued that reconsideration
was warranted because the court failed to appoint a
Guardian Ad Litem (GAL) to represent J.L. and L.L.
The physicians opposed reconsideration, arguing there
was no need to clarify the summary judgment order because
the court granted their motion, thereby indicating that
dismissal was warranted on all bases. SCH likewise argued
that the order unambiguously dismissed all claims with
prejudice, even though the order was silent. The court denied
reconsideration. Chen filed a notice of appeal.5
Meanwhile, on March 2, 2018, after Judge Hill retired
and while Chen’s appeal was pending, she filed a motion in
superior court seeking to vacate the summary judgment
order and the order denying reconsideration.6 Chen argued
that she was deprived of a fair hearing, the dismissal was
based on false or misleading information, the orders were
“void,” and again, challenged the failure to appoint a GAL.
Approximately six months later, Chen amended her motion
to vacate to include additional grounds. Among other things,
5 Because the claims against other named defendants were still
pending, this court initially dismissed Chen’s appeal as
premature. After the remaining defendants were voluntarily
dismissed, we allowed the appeal to proceed. This court
eventually dismissed Chen’s appeal in 2019 after she failed to
file briefing following multiple extensions and the Supreme
Court denied her petition for review of that decision. See, Chen,
et al. v. Migita, M.D., et al., No. 77522-7-1 (Wash. Ct. App.);
Chen, et al. v. Migita, M.D., et al., No. 97015-7 (Wash.).
6 Chen also sought to vacate the court’s order striking the reply
brief she filed in support of her motion for reconsideration,
which the court struck because it addressed issues beyond the
scope of the motion for reconsideration.

9a
Appendix C
Chen claimed there was “newly discovered evidence” as to
whether the physicians acted in good faith as required the
immunity statute and that the physicians failed to properly
serve their motion for summary judgment. Chen’s motion to
vacate came before a different judge, King County Superior
Court Judge Ken Schubert. The court entered a show cause
order on the motion. The court also granted Chen’s request
to appoint counsel to represent J.L. under GR 33 (requests
for accommodation by individuals with disabilities) for the
limited purpose of drafting a reply brief, if necessary, and to
appear at the show cause hearing to present argument on
behalf of J.L.
The physicians and SCH jointly opposed the motion to
vacate. J.L., now represented by counsel, filed a reply,
asserting (1) an “irregularity” because the physicians’ motion
for summary judgment was not timely served; (2) the
plaintiffs’ failure to respond to the summary judgment
motion was due to “excusable neglect;” (3) the court could not
have dismissed claims against Drs. Metz and Kodish on the
merits because the complaints against them were unsigned
and therefore, void; and (4) the court should have construed
the motion to continue as a motion to appoint a GAL. J.L.
also claimed he had now identified experts to support the
claims that the physicians violated the standard of care.
Chen submitted a declaration from a physician who
had treated J.L. since 2012. The declaration challenged
only Dr. Migita’s good faith reporting of suspected abuse
or neglect, alleging an inadequate review of J.L.’s
medical records. Chen offered no explanation for the
failure to obtain this declaration at the time the court
considered the motion for summary judgment.
At the December 2018 hearing on the motion to vacate,
the court questioned whether Judge Hill could have

10a
Appendix C
dismissed the claims against the physicians on the merits if
she also agreed that the court lacked jurisdiction. On the
other hand, the court stated that the summary judgment
ruling was “100 percent right” as to SCH. Ultimately, it
concluded that the lack of clarity as to whether the dismissal
was with or without prejudice was not a basis to vacate
under CR 60 because the judge had an opportunity to clarify
her ruling. The court entered an order denying the motion to
vacate.
Shortly after, on January 28, 2019, the superior court
granted Chen’s motion to reconsider and reversed its
decision. In its written decision, the court concluded that the
failure to specify the basis for granting summary judgment
in favor of the physicians warranted vacating the order
because if the court lacked jurisdiction over the physicians
due to the failure to effect service of process, then the court
had “no power to rule on the merits . . . and the dismissal
could not have been with prejudice as a matter of law.” See
State v. Northwest Magnesite Co., 28 Wn.2d 1, 42, 182 P.2d
643 (1947) (dismissal without prejudice is the limit of a
court’s authority when it lacks personal jurisdiction over a
party). The court concluded that the order’s silence as to the
basis for summary judgment created a “question of
regularity of the proceedings that justifies relief.” The court
did not disturb the summary judgment order insofar as it
dismissed the claims against SCH. The court noted that SCH
did not dispute proper service or seek summary judgment on
procedural grounds. Therefore, there was “no ambiguity as
to the legal effect of the dismissal of plaintiffs’ claims”
against SCH.
The physicians appeal and Chen cross appeals.7
7 Chen and Lian filed a brief in response to the physicians’
appeal and a cross appeal. Although J.L. was appointed counsel
below to address his interests with respect to the motion to

11a
Appendix C

ANALYSIS
I. Irregularity under CR 60(b)(1)
The physicians challenge the trial court’s order vacating
the 2017 order that granted their motion for summary
judgment and dismissed all of Chen’s claims against them.
As a threshold matter, Chen argues that the 2019 order
vacating the previous order of summary judgment is
interlocutory and that the physicians’ appeal is premature.
This issue has been resolved. A commissioner of this court
rejected Chen’s motion to dismiss the appeal on this precise
basis and the Washington Supreme Court denied
discretionary review. See Chen, et al. v. Migita, M.D., et al.,
No. 97526-4 (Wash.). A superior court order granting a
motion to vacate a judgment, as entered in this case, is
appealable as a matter of right. RAP 2.2(a)(10).
CR 60(b) authorizes a trial court to relieve a party from
judgment in specified circumstances. Those circumstances
include “[mjistakes, inadvertence, surprise, excusable
neglect or irregularity in obtaining a judgment or order.”8
CR 60(b)(1). CR 60(b) authorizes vacation of judgments only
for reasons “extraneous to the action of the court or for
vacate, he abandoned his appeal of the initial order denying the
motion to vacate and has not filed a brief opposing the
physicians’ appeal or supporting the cross appeal. See J.L., a
minor v. Migita, M.D., et al., No. 79486-8-1 (Wash. Ct. App.).
8 In addition to CR 60(b)(1), Chen cited other subsections of CR
60 as bases to vacate: CR 60(a)(clerical mistake), CR 60(b)(3)
(newly discovered evidence), CR 60(b)(4) (fraud), CR 60(b)(5)
(void judgment), and CR(b)(ll)(any other reason justifying
relief from the operation of the judgment). In granting Chen’s
motion, the superior court relied solely on “irregularity” under
CR 60(b)(1).

12a
Appendix C
matters affecting the regularity of the proceedings.”
Burlingame v. Consol. Mines & Smelting Co., Ltd., 106
Wn.2d 328, 336, 722 P.2d 67 (1986).
Irregularities under CR 60(b)(1) are those relating to a
failure to adhere to some prescribed rule or mode of
proceeding. Lane v. Brown & Haley, 81 Wn. App. 102, 106,
912 P.2d 1040 (1996). Generally, these irregularities involve
procedural defects unrelated to the merits that raise
questions as to the integrity of the proceedings. See In re
Marriage of Tang, 57 Wn. App. 648, 654-55, 789 P.2d 118
(1990). For instance, in In re Marriage of Tang, the court
reversed an order vacating a decree of dissolution because
the failure to include a list of assets and values in the decree
was an “irregularity” that justified relief from the decree. Id.
at 654. In Lane v. Brown & Haley, the court reversed an
order vacating an order of dismissal because the failure to
provide notice of a pending summary judgment motion was
not an irregularity since “[c]lient notice is not a court
requirement.” 81 Wn. App. at 106.
We review a decision granting a motion to vacate under
CR 60(b) for abuse of discretion. Luckett v. Boeing Co., 98 Wn.
App. 307, 309, 989 P.2d 1144 (1999). The trial court abuses
its discretion when its decision is based on untenable
grounds or reasoning. Id. at 309-10. An abuse of discretion
also occurs when the trial court bases its ruling on an
erroneous view of the law. In re Marriage of Shortway, 4 Wn.
App. 2d 409, 418, 423 P.3d 270 (2018).
The failure to specify the basis for granting summary
judgment is not an “irregularity” within the meaning of CR
60(b) because there is no prescribed rule that requires the
trial court to articulate the basis for its ruling. “[T]he
superior court does not need to state its reasoning in an order
granting summary judgment.” Greenhalgh v. Dep’t. of Corr.,

13a
Appendix C
180 Wn. App. 876, 888, 324 P.3d 771 (2014). CR 56 does not
require the court to make findings. CR 52(a)(5)(B) expressly
provides that findings of fact and conclusions of law are not
necessary “[o]n decisions of motions under rules 12 or 56 or
any other motion, except as provided in rules 41(b)(3) and
55(b)(2).” Indeed, because appellate review of summary
judgment is de novo, findings of fact and conclusions of law
are not only unnecessary, they are superfluous and will be
disregarded by the court on appeal. Nelson v. Dep’t of Labor
& Indus., 198 Wn. App. 101, 109, 392 P.3d 1138 (2017),
review denied, 190 Wn.2d 1025, 420 P.3d 707 (2018);
Hemenway v. Miller, 116 Wn.2d 725, 731, 807 P.2d 863
(1991). Chen cites caselaw that pertains to judgments
entered in cases where findings are required and thus has no
applicability here. See Little v. King, 160 Wn.2d 696, 722,161
P.3d 345 (2007) (Madsen, J. concurring/dissenting)
(involving motion to vacate a default judgment). The order
granting summary judgment specified the materials
considered in accordance with CR 56(h) and was thus fully
compliant with CR 56, the applicable prescribed rule.
In any event, contrary to the trial court’s ruling below,
the legal effect of the court’s order granting summary
judgment is not ambiguous when viewed in context of the
record as a whole. Any ambiguity was resolved when the
court specifically rejected Chen’s request on reconsideration
to limit the scope of its ruling by clarifying that the dismissal
was “without prejudice.” The effect of the court’s order was
also made clear by the fact that the court dismissed the
claims against both SCH and the physicians. Since SCH did
not dispute the sufficiency of service of process or seek
summary judgment on any other procedural ground, the
court must have dismissed the claims against the physicians
on the merits because the only claims against SCH were
based on vicarious liability for the alleged wrongful acts of
the physicians.

14a
Appendix C

The superior court’s conclusions that Judge Hill was
required to address the personal jurisdiction issue before the
merits and may have erred with respect to the scope of relief
granted to the defendants are not matters “affecting the
regularity of the proceedings.” See Burlingame, 106 Wn.2d
at 336. We need not resolve the issue of whether Judge Hill,
in fact, first resolved the jurisdictional issue in Chen’s favor.
Even assuming that the superior court’s analysis on that
issue was correct, it is clear that the court vacated summary
judgment because of a perceived a legal error. That a
judgment or order is legally erroneous is a ground for appeal,
but not a basis to set aside the judgment or order.
It is a “long recognized” principle that an error of law will
not support vacating a judgment under CR 60(b). Port of Port
Angeles u. CMC Real Estate Corp., 114 Wn.2d 670, 673, 790
P.2d 145 (1990). Errors of law are not extraordinary
circumstances “correctable through CR 60(b); rather, direct
appeal is the proper means of remedying legal errors.” State
v. Keller, 32 Wn. App. 135, 140, 647 P.2d 35 (1982). Indeed,
the trial court’s power to vacate judgments.
“[I]s not intended to be used as a means for the court to
review or revise its own final judgments, or to correct any
errors of law into which it may have fallen. That a judgment
is erroneous as a matter of law is ground for an appeal, writ
of error, or certiorari, according to the case, but it is no
ground for setting aside the judgment on motion.” Kern v.
Kern, 28 Wn.2d 617, 619, 183 P.2d 811 (1947) (quoting 1
Black on Judgments (2nd ed.) § 329, at 506).
Chen maintains that the superior court’s legal analysis
was correct and consistent with Washington precedent, and
therefore the superior court did not abuse its discretion. But

15a
Appendix C
again, because a motion to vacate is not a mechanism to
correct legal errors, her arguments are unavailing.9
The court abuses its discretion by vacating an order for
reasons other than those specified by CR 60(b). Burlingame,
106 Wn.2d at 336; Tang, 57 Wn. App. at 654-56. Here, the
superior court attempted to correct legal error by vacating
the order. Relying on a legal error to set aside an order
granting summary judgment, the court treated CR 60(b) as
a substitute for direct appeal. This was an abuse of discretion
and accordingly, we reverse.
II. Cross Appeal
Chen contends that additional bases under CR 60
support vacating the order granting summary judgment as
to SCH. And for various reasons, she claims that the order
granting summary judgment is “clearly erroneous.”

9 Chen also raises several procedural arguments. She contends
that the physicians’ briefing fails to comply with RAP 10.3(a)(5)
by providing a fair statement of the facts and procedure
relevant to the legal issues raised. We disagree. The Appellants’
briefing is compliant with the Rules of Appellate Procedure.
The parties simply disagree about the relevance of particular
facts in view of the legal issues before us. And contrary to
Chen’s argument, the Appellants are not required to include in
the record on appeal every document filed below. Their
obligation is to perfect the record so that we have before us all
the evidence necessary to resolve the issue raised on appeal.
See RAP 9.2(b); Bulzomi u. Dep’t of Labor & Indus., 72 Wn. App.
522, 525, 864 P.2d 996 (1994). They have done so. And although
Chen argues that the physicians have filed an unauthorized
overlength reply brief, the brief is within the 50-page limit for
a reply brief filed by an appellant/cross respondent. See RAP
10.4(b). Chen’s procedural motions made in connection with her
response and cross appeal are denied.

16a
Appendix C
The physicians argue that Chen cannot seek review of
the 2019 order granting reconsideration and vacating
summary judgment as to the physicians because she is not
aggrieved by that order. See RAP 3.1 (“Only an aggrieved
party may seek review by the appellate court.”); Randy
Reynolds & AssocsInc. v. Harmon, 193 Wn.2d 143, 150, 437
P.3d 677 (2019) (a party is aggrieved when a decision affects
their pecuniary interests or personal rights or imposes a
burden or obligation on them). However, the effect of the
order granting reconsideration is to vacate summary
judgment as to the physicians, and deny the motion to vacate
summary judgment as to SCH. Because Chen seeks to
reverse the denial of her motion to vacate as it pertains to
SCH, she is aggrieved by that aspect of the order and is not
precluded from seeking review.
Nevertheless, many of Chen s arguments do not address
the standards to vacate under CR 60, but merely challenge
the underlying order granting summary judgment dismissal.
For instance, Chen contends that the court erred by denying
her motion for a continuance to allow her to conduct
discovery, erred in granting summary judgment before the
discovery cutoff date, and that genuine issues of material
fact precluded the entry of summary judgment. See CR 56(c).
But on appeal of a trial court’s decision on a CR 60(b) motion,
we review only the court’s decision on the motion—not the
underlying order. Bjurstrom u. Campbell, 27 Wn. App. 449,
450-51, 618 P.2d 533 (1980). We do not consider Chen’s
arguments that are solely directed at the underlying 2017
summary judgment order because those arguments cannot
be raised in this appeal from the court’s decision on her
motion to vacate.
To the extent Chen contends that the court was required
to vacate the order of summary judgment as to both the
physicians and SCH on other grounds, we disagree. For

17a
Appendix C
instance, Chen relies on the physicians’ failure to comply
with CR 56(c) by less than 28 days’ notice of its motion before
the summary judgment hearing. But she did not oppose
summary judgment on this basis or establish prejudice. Even
if raised in the context of a direct appeal, Chen could not
establish that the court abused its discretion by proceeding
with the hearing in these circumstances. See Hood Canal
Sand & Gravel, LLC v. Goldmark, 195 Wn. App. 284, 295,
381 P.3d 95 (2016) (court does not abuse its discretion by
deviating from CR 56’s timing requirements if there is
adequate notice and time to prepare).
Chen also fails to establish that she was entitled to
vacate summary judgment because SCH withheld “critical
medical evidence.” A judgment may be vacated under CR
60(b)(3) based on new evidence if the moving party presents
evidence that could not have been discovered exercising due
diligence in time to move for a new trial. Wagner Dev., Inc. v.
Fid. & Deposit Co. of M.D., 95 Wn. App. 896, 906, 977 P.2d
639 (1999). The fact that Chen obtained medical records
through discovery in other litigation does not establish that
she could not have obtained them exercising due diligence.
Between the time of J.L.’s evaluation and treatment in 2013
and the physicians’ motion for summary judgment in
February 2017, Chen made no request to SCH for medical
records through discovery or otherwise.
The record does not establish a basis to vacate because
Judge Hill presided over the previously-dismissed
dependency and did not recuse in this matter. Chen did not
flip an affidavit of prejudice or a motion to recuse. Recusal is
not required unless the circumstances are such that the
judge’s “impartiality might reasonably be questioned.” Wash.
Code of Judicial Conduct, 2.11(A). We presume, however,
that judges perform “regularly and properly and without
bias or prejudice.” Kay Corp. v. Anderson, 72 Wn.2d 879, 885,

18a
Appendix C
436 P.2d 459 (1967); Jones v. Halvorson-Berg, 69 Wn. App.
117, 127, 847 P.2d 945 (1993). The dependency proceeding
was separate from Chen’s lawsuit, and there is nothing in
the record to give rise to inference that the judge’s
impartiality “might be questioned.” No authority requires
recusal in these circumstances.
And finally, the summary judgment order is not void for
purposes of CR 60(b)(5) because the court did not appoint a
GAL to represent J.L. and L.L. A parent may initiate a
lawsuit as a guardian on behalf of a minor child. See e.g.
Taylor v. Enumclaw Sch. Dist. No. 216, 132 Wn. App. 688,
694, 133 P.3d 492 (2006) (father authorized to sue as minor
son’s guardian). RCW 4.08.050(1) provides that a trial court
must appoint a GAL for children under 14 years of age “upon
the application of a relative or friend of the infant.” Here,
Chen and her husband initiated the lawsuit on their own
behalf and as parents and natural guardians of J.L. and L.L.
They did not ask the court to appoint a GAL at any time
before the court entered the order granting summary
judgment. No authority required the court to appoint a GAL
on its own initiative.
Because the superior court erred in granting the motion
to vacate the order of summary judgment as to the
physicians, we reverse and remand for the court to reinstate
the order granting summary judgment and dismissing
Chen’s claims against them. In all other respects, we affirm.
Affirmed, reversed in part and remanded.
WE CONCUR:
Leach. J

Dwyer. J

Verellen. J

19a
Appendix D

IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON

SUSAN CHEN, et
al
Plaintiffs,
vs.
DARREN MIGITA
et al.
Defendants

No. 79685-2-1
DIVISION ONE
ORDER
DENYING
FOR
MOTION
RECONSIDERATION
AND DENYING MOTION
TO PUBLISH

The respondent/cross-appellant, Susan Chen,
filed a motion for reconsideration and motion to
publish the court’s opinion filed on June 22, 2020. A
majority of the panel having determined that the
motion should be denied; now, therefore, it is hereby
ORDERED that the motion for reconsideration be,
and the same is, hereby denied. It is further
ORDERED that the motion to publish the opinion
is denied.
FOR THE COURT:
Is/ unidentified signature
Judge

20a
Appendix E

The Court of Appeals
Of the
State of Washington
Richard D Johnson
Court administrator/clerk

DIVISION i
One Union Square
600 University Street
Seattle WA
98101-4170
(206) 464-7750
TDD: (206) 587-5505

February 14, 2018
David M Norman
Bennett Bigelow & Leedom, P.S.
601 Union St Ste 1500
Seattle, WA 98101-1363
dnorman@bbllaw.com
Bruce W Megard, JR
Bennett Bigelow & Leedom PS
601 Union St Ste 1500
Seattle, WA 98101-1363
bmegard@bbllaw.com
Susan (gal) Chen
P.O. Box 134
Redmond, WA 98073
Michelle Suzanne Taft
Johnson, Graffe, Keay, Moniz & wick
925 4h Ave Ste 230
Seattle, WA 98104-1145
michelle@jgkmw. Com
CASE #:77522-7-l
Chen v. Darren Migita et al.

v

21a
Appendix E

Counsel:
The following notation ruling by Richard D. Johnson, Court
Administrator/Clerk of the Court was entered on February
14,2018, regarding appellant's GR 33 request for
accommodation:
"On February 8, 2018 Appellant Susan Chen filed a Request
requesting the
for Accommodation under GR33
appointment of counsel as an accommodation. This ruling
serves as the written decision regarding the request for
accommodation. It appears that appointing counsel in this
case risks fundamentally changing the nature of appellate
court services (see GR33(c)(2)(D)). Therefore, the request for
appointment of counsel as an accommodation is denied.
Sincerely,
/s/ Richard Johnson
Richard D. Johnson
Court administrator/Clerk

22a
Appendix F
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN
et al

CHEN, CASE NO. 16-2-26013-6 SEA

Plaintiffs,
vs.
DARREN
MIGITA et al.
Defendants

DENYING
ORDER
PLAINTIFFS’ MOTION FOR
RECONSIDERATION
OF
GRANTING
ORDER
DEFENDANTS’
MOTION
SUMMARY
FOR
JUDGMENT
OF DISMISSAL

THIS MATTER, having come before the Court on
Plaintiffs’ Motion for Reconsideration of Order
Granting Defendants’ Motion for Summary
Judgment of Dismissal, and the Court having
reviewed the records and files herein, specifically:
1. Plaintiffs’ Motion for Reconsideration of Order
Granting Defendants’ Motion for Summary
Judgment of Dismissal;
2. Defendants Darren Migita, M.D., Ian Kodish, M.D.,
and James Metz, M.D.’s Response to Plaintiffs’
Motion for Reconsideration;

3. Declaration of Bruce W. Megard, Jr. in Support of
Defendants Darren Migita, M.D., Ian Kodish, M.D.,
and James Metz, M.D.’s Response to Plaintiffs’
Motion for Reconsideration, with attached exhibits;

23a
Appendix F
4. Defendant Seattle Children’s Hospital Response to
Plaintiffs Motion for Reconsideration.
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that Plaintiffs’ Motion for
Reconsideration of Order Granting Defendants’
Motion for Summary Judgment of Dismissal is
DENIED.
IT IS ALSO ORDERED: Plaintiffs’ Reply is stricken
by separate order.

DATED THIS 10th of April, 2017.

isl Hollis Hill
The Honorable Hollis R. Hill

Presented by:
BENNETT BIGELOW & LEEDOM, P.S.
BY: BRUCE MEGARP
Bruce W. Megard, Jr., WSBA #27560
Attorney for Defendants Darren Migita, M.D.,
Ian Kodish, M.D., and James Metz, M.D.

24a
Appendix F
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN CHEN, et CASE
SEA
al

NO.

16-2-26013-6

GRANTING
ORDER
DEFENDANTS DARREN
Plaintiffs,
MIGITA,
M.D.,
IAN
us.
M.D.
AND
KODISH,
DARREN MIGITA JAMES METZ, M.D.’S
MOTION FOR SUMMARY
et al.
OF
JUDGMENT
Defendants DISMISSAL

THIS MATTER, having come before the
Court on Defendants Darren Migita, M.D., Ian
Kodish, M.D., and James Metz, M.D.’s Motion for
Summary Judgment of Dismissal, and the Court
having reviewed the records and files herein,
specifically:
1. Defendants Darren Migita, M.D., Ian Kodish, M.D.,
and James Metz, M.D.’s Motion for Summary
Judgment of Dismissal;
2. Declaration of Bruce W. Megard, Jr. in Support of
Defendants Darren Migita, M.D., Ian Kodish, M.D.,
and James Metz, M.D.’s Motion for Summary
Judgment of Dismissal, with attached exhibits;
3. Declaration of Darren Migita, M.D. in Support of
Defendants Darren Migita, M.D., Ian Kodish, M.D.,
and James Metz, M.D.’s Motion for Summary
Judgment of Dismissal;

25a
Appendix F
4. Declaration of James Metz, M.D. in Support of
Defendants Darren Migita, M.D., Ian Kodish, M.D.,
and James Metz, M.D.’s Motion for Summary
Judgment of Dismissal;
5. Declaration of Ian Kodish, M.D. in Support of
Defendants Darren Migita, M.D., Ian Kodish, M.D.,
and James Metz, M.D.’s Motion for Summary
Judgment of Dismissal;
6. Declaration of Bruder Stapleton, M.D. in Support of
Defendants Darren Migita, M.D., Ian Kodish, M.D.,
and James Metz, M.D.’s Motion for Summary
Judgment of Dismissal;
7. Defendant Seattle Children’s Hospital’s Joinder to
Co-Defendants Kodish, Migita, and Metz’s Motion
for Summary Judgment;
8. Declaration of Michelle S. Taft in Support of
Defendant Seattle Children’s Hospital’s Joinder to
Co-Defendants Kodish, Migita, and Metz’s Motion
for Summary Judgment, with attached exhibits;
9. Plaintiffs’Response (if any);
10.Defendants Darren Migita, M.D., Ian Kodish, M.D.,
and James Metz, M.D.’s Reply on Motion for
Summary Judgment of Dismissal;
11. Declaration of Susan Chen;
12. Declaration of Nxing Lian;

26a
Appendix F
13. Plaintiffs Motion for continuance
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that Defendants Darren Migita, M.D.,
Ian Kodish, M.D., and James Metz, M.D.’s Motion for
Summary Judgment of Dismissal is GRANTED.
IT IS ALSO ORDERED: Plaintiffs’ request for
continuance is denied. The claims against Seattle
Children’s Hospital are dismissed.
IT IS SO ORDERED this 3rd day of March, 2017.
Is / Hollis Hill
Honorable Hollis R. Hill

Presented by:
BENNETT BIGELOW & LEEDOM, P.S.
BY: BRUCE MEGARP
Bruce W. Megard, Jr., WSBA #27560
Attorney for Defendants Darren Migita, M.D.
Ian Kodish, M.D., and James Metz, M.D.

JOHNSON GRAFFE KEAY MONIZ & WICK
BY: Michelle S Taft
Rando B. Wick, WSBA #20101
Attorney for Defendant Seattle Children’s Hospital

27a
Appendix G
Honorable Ken Schubert
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN CHEN, et CASE NO. 16-2-26013-6 SEA
al
ORDER CLARIFYING ORDER
GRANTING
PLAINTIFFS’
FOR
MOTION
Plaintiffs,
OF
RECONSIDERATION
us.
DENYING
ORDER
PLAINTIFFS’
MOTION
TO
DARREN MIGITA
VACATE ORDERS ON MARCH
et al.
3 AND APRIL10, 2017
Defendants

On January 28, 2019, this Court entered an
order indicating its intent to grant plaintiffs’ motion
for reconsideration of this Court’s December 14, 2018
Order Denying Plaintiffs’ Motion to Vacate
Summary Judgment Orders from March 3, 2017 and
April 10, 2017 (“January 28, 2019 Order’’) as to
defendants Darren Migita, Ian Kodish and James
Metz (collectively “Defendants”). The January 28,
2019 Order ended by indicating that it was not and
could not be a final order without the permission of
the Court of Appeals: “Should the appellate court so
permit, this Court will enter a formal order vacating
the March 3 and April 10, 2017 orders pursuant to
CR 60 (b) as to Defendants only. This Court must
receive the permission because plaintiffs have
appealed this Court’s March 3 and April 10, 2017
orders and this order will change a decision then

28a
Appendix G
being reviewed by the appellate court. See RAP 7.2
(c).”

To date, none of the parties have informed this
Court that the Court of Appeals has permitted this
Court to enter a formal order vacating the March 3
and April 10, 2017orders pursuant to CR 60 (b) as to
Defendants only. This Court did not intend and does
not believe that its January 28, 2019 Order has any
legal effect without that permission and without
being entered as a final order. See e.g., State ex rel.
Shafer v. Bloomer, 94 Wn. App. 246, 250, 973 P.2d
1062, 1064 (1999) (“The State should have moved
this court for permission to enter the trial court's
dismissal prior to formal entry of the order to dismiss
Mr. Bloomer’s contempt action. As such, the order of
dismissal is vacated.”)
This Court provides this clarification because it
learned today upon receipt of the attached ruling
that Defendants have appealed the January 28, 2019
Order despite it not being a formal one. Whether the
Court of Appeals believes the January 28, 2019
Order is currently subject to appeal is, of course, up
to that court to decide. But the parties could
eliminate that issue by seeking the permission
expressly contemplated by the January 28, 2019
Order - if the Court of Appeals declines to grant it,
this Court will not and cannot enter the January 28,
2019 Order as a final order. If the Court of Appeals
grants that permission, this Court will enter the
January 28, 2019 Order as a final order.
DONE this 29th day of March, 2019.
E-signature on following page

29a
Appendix G

JUDGE KEN SCHUBERT

King County Superior Court
Judicial Electronic Signature Page

Case Number: 16-2-26013-6
Case Title: CHEN ET AL V. MIGITA ET AL
Document Title: ORDER CLARIFYING ORDER
Signed by: Ken Schubert
Date: 3/29/2019 3:31:07 PM
/s/ Ken Schubert
Judge/Commissioner: Ken Schubert

This document is signed in accordance with the
provision in GR 30.
Certificate Hash:20DA9CAD30E9A356B2B0
90778A254A4188865BEC
Certificate effective date: 11/13/2018 11:21:11 AM
Certificate expiry date: 11/13/23 11:21:11 AM
Certificate Issued by: C=US,
E=kcsccfilina@kingcount;v.gov, OU=KCDJA,
0=KCDJA, CN-Ken Schubert:
EPj/VAvS5hGqrSf3AFk6yQ==”

30a
Appendix G
Honorable Ken Schubert

SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN CHEN, et al CASE NO. 16-2-26013-6
SEA
Plaintiffs,
GRANTING
ORDER
vs.
PLAINTIFFS’
MOTION
FOR
RECONSIDERATION
DARREN MIGITA
OF
ORDER
DENYING
et al.
PLAINTIFFS’ MOTION
Defendants

Plaintiffs seek reconsideration of this Court’s
December 14, 2018 Order Denying Plaintiffs’ Motion
to Vacate Summary Judgment Orders from March 3,
2017 and April 10, 2017. At the hearing of their
motion to vacate, this Court observed that
defendants Darren Migita, Ian Kodish and James
Metz (collectively “Defendants”) based their first
argument in support of their motion for summary
judgment on their contention that the court lacked
personal jurisdiction over them. Their motion also
sought dismissal on substantive grounds as well. In
granting Defendants’ motion, the Court’s March 3,
2017 order did not identify the basis for its decision.
In their motion for reconsideration, Plaintiffs raised
the need for clarity as to whether dismissal was with
or without prejudice. The Court entered its April 10,
2017 order denying that motion for reconsideration
without additional comment.
Whether the Court dismissed plaintiffs’
complaint on jurisdictional or substantive grounds is

31a
Appendix G
critical. If the Court did not have personal
jurisdiction over Defendants, then it had no power to
rule on the merits of the claims asserted against
them and the dismiss could not have been with
prejudice as a matter of law. See State v. Nw.
Magnesite Co., 28 Wn. 2d 1, 42, 182 P.2d 643, 664
(1947) (“However, we do not agree with the trial
court that the order dismissing those respondents
should be with prejudice to the state's cause of action
against them. The court having been without
jurisdiction over those parties, by reason of lack of
proper service upon them or of general appearance
by them, it had no power to pass upon the merits of
the state's case as against those parties.”). But if the
Court did have personal jurisdiction over
Defendants, then it could properly reach the merits
of plaintiffs’ claims against them and the dismissal
of those claims would presumably be with prejudice.
The parties (and the appellate court) are entitled
to know the legal effect of this Court’s orders. Was
dismissal due to a lack of personal jurisdiction, and
thus without prejudice? Or was dismissal with
prejudice due to a finding of both personal
jurisdiction over Defendants and a lack of
meritorious claims against them?
The silence of this Court’s orders in that regard
creates a question of regularity of the proceedings
that justifies relief from the operation of those orders.
Accordingly, this Court GRANTS the motion for
reconsideration. Should the appellate court so
permit, this Court will enter a formal order vacating
the March 3 and April 10, 2017 orders pursuant to

32a
Appendix G
CR 60(b) as to Defendants only.1 This Court must
receive that permission because plaintiffs have
appealed this Court’s March 3 and April 10, 2017
orders and this order will change a decision then
being reviewed by the appellate court. See RAP 7.2(e).
This Court denies Defendants’ request for sanctions,
which they requested in their opposition to the
motion for reconsideration.
DONE this 28"’ day of January, 2019.
E-signature on following page

1 This Court does not vacate those orders as they relate to
Seattle Children’s Hospital (SCH). SCH did not move for
dismissal based on lack of personal jurisdiction and thus, there
is no ambiguity as to the legal effect of the dismissal of plaintiffs’
claims against SCH.

33a
Appendix G
King County Superior Court
Judicial Electronic Signature Page
Case Number: 16-2-26013-6
Case Title: CHEN ET AL VS MIGITA ET AL
Document Title: ORDER GRANTING MTN FOR
RECONSIDERATION
Signed by: Ken Schubert
Date: 1/28/2019 10:02:40 AM

Isl Ken Schubert
Judge/Commissioner:
This document is signed in accordance with the
provisions in GR 30.
Certificate Hash: 20DA9CAD30E9A356B2B0907
78A254A4188865BEC
Certificate effective date: 11/13/2018 11:21:11 AM
Certificate expiry date: 11/13/2023 11:21:11 AM
Certificate Issued by: C=US,
E=kcscefiling@kingcounty.gov,
OU=KCDJA, O^KCDJA,
CN-'Ken Schubert:
EPj/VAvS5hGqrSf3AFk6

\

34a
Appendix H
Honorable Ken Schubert
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN CHEN, et CASE
SEA
al

NO.

16-2-26013-6

ON
ORDER
PLAINTIFFS’ MOTION TO
vs.
SMITH
RECUSE
DARREN MIGITA GOODFRIEND, P.S. AND
SMITH
ORDERING
et al.
GOODFRIEND, P.S.
Defendants

Plaintiffs,

Plaintiffs move to recuse Smith Goodfriend,
P.S. as counsel representing defendants Darren
Migita, M.D., Ian Kodish, M.D., and James Metz,
M.D. Plaintiffs filed their motion shortly after Smith
Goodfriend, P.S. filed a Notice of Appearance for
Purposes of Appeal on November 26, 2018. Notably,
Smith Goodfriend, P.S. has not filed a notice to
appear as counsel at the trial court level.
The record does not support a finding that
Smith Goodfriend, P.S.. represents a party at the
trial court level. Notably, Smith Goodfriend, P.S. has
filed a motion before the Court of Appeals to confirm
its ability to serve as appellate counsel. Whether
Smith Goodfriend, P.S. can represent Defendants
Darren Migita, M.D., Ian Kodish, M.D., and James
Metz, M.D. on appeal is for the Court of Appeals to
decide.
Plaintiffs’ motion does present a related issue
that is appropriate for this Court to decide: may

35a
Appendix H
Smith Goodfriend, P.S. share any confidential
information that it obtained from plaintiffs with any
party that has appeared at the trial court level in
this action? The answer to that question turns on
whether plaintiffs shared any such information in
the course of seeking legal advice from one or more
attorneys at Smith Goodfriend, P.S. related to this
dispute. Considering that plaintiffs had no other
reason to share any such information, this Court
finds that plaintiffs did.
Based on that finding, this Court concludes
that RPC 1.9(a) bars Smith Goodfriend, P.S. from
sharing any confidential information obtained from
plaintiffs with any party or that party’s counsel who
have appeared at the trial court level in this action.
Accordingly, this Court orders Smith Goodfriend,
P.S. not to disclose any such information to any party,
including their counsel, who has appeared in this
court in this matter.
DATED this 12th day of December, 2018.
E-signature on following page

Chief Civil Judge Ken Schubert

36a
Appendix H

King County Superior Court
Judicial Electronic Signature Page
Case Number:
Case Title:
Document Title:
Signed by:
Date:
Judge/Commissioner:

This document is signed in accordance with the
provisions in GR 30.
Certificate Hash: 20DA9CAD30E9A356B2B090778
A254A4188865BEC
Certificate effective date: 11/13/2018 11:21:11 AM
Certificate expiry date: 11/13/2023 11:21:11 AM
Certificate Issued by: C=US,
E=kcscefiling@kingcounty. gov,
OU=KCDJA, 0=KCDJA,
CN="Ken Schubert:
EPj/VAvS5hGqrSf3AFk6yQ=="

37a
Appendix I
The Honorable Hollis R. Hill
Hearing Date: March 3, 2017
Hearing Time: 10:00 a.m.
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN
et al

CHEN,

Plaintiffs,
vs.
DARREN
MIGITA et al.
Defendants
I.

NO. 16-2-26013-6 SEA
DEFENDANTS
DARREN MIGITA, M.D.,
IAN KODISH M.D., AND
JAMES METZ, M.D.’S
FOR
MOTION
SUMMARY JUDGMENT
OF DISMISSAL

RELIEF REQUESTED

Defendants, Darren Migita, M.D., Ian
Kodish, . M.D. and James Metz, M.D.
("defendants" or "physicians") respectfully
request an order dismissing Plaintiffs'
Complaints against them with prejudice. First,
this Court lacks personal jurisdiction over Dr.
Migita, Dr. Kodish, and Dr. Metz because
Plaintiffs failed to effect original service of
process of their Complaints with a Summons.
The Fourteenth Amendment requires that
adequate notice be given to parties regarding
the pendency of any action against them, and
due process requires strict compliance with
the statutes and court rules regarding service
of process. Plaintiffs apparently attempted to

38a
Appendix I
serve their Complaints against Dr. Migita, Dr.
Kodish, and Dr. Metz by delivering them to
Seattle Children’s Hospital. The law requires
that each defendant be served personally, or
by leaving a copy of the Summons at their
"usual abode" with someone of suitable age
pursuant to RCW 4.28.080(16) and pursuant
to CR 4(a)(1). As to the defendant physicians,
Plaintiffs failed to accomplish this, and the
law requires dismissal.
Second, plaintiffs failed to commence their
action against Dr. Kodish and Dr. Metz within
Plaintiffs'
the statute of limitations.
Complaints filed against Dr. Kodish and Dr.
Metz October 2016 were unsigned, in violation
of CR 11(a) and the attendant local rule. The
Complaints were thus void ab initio. Voided
complaints have no legal effect and are not
subject to later amendment because there is
nothing to amend. Because Plaintiffs waited
until the eve or near eve of the statute of
limitations running, this is fatal to Plaintiffs'
Complaints because they cannot re-file a
timely action against either Dr. Kodish or Dr.
Metz based on the actions alleged in their
Complaints.
Third, there is no evidence that Plaintiffs
have retained any qualified expert who
believes Dr. Migita, Dr. Kodish or Dr. Metz fell
below the standard of care in any regard as to
the health care rendered to the minor J. L., or
that such actions proximately caused harm.
This requires dismissal as a matter of law.

'1

39a
Appendix I

RCW
26.44.060
provides
Fourth,
immunity for physicians who make a good
faith report pursuant to statute as to alleged
child abuse or neglect. To the extent Plaintiffs'
allegations raise a "false reporting" claim with
regard to their communications with Child
Protective Services (CPS), any claim based on
those allegations must be dismissed. 11
II. STATEMENT OF FACTS
A. J. Lian was treated at the Emergency
Department of Seattle Children's Hospital
and was placed into state custody due to
suspicion for abuse and/or neglect by his
plaintiff parents.
On October 24, 2013, the minor J. Lian
was treated at Seattle Children's Hospital.
See Declaration of Bruce W. Megard in
Support of Defendants Darren Migita, M.D.,
James Metz, M.D., and Ian Kodish, M.D.'s
Motion for Summary Judgment of Dismissal
("Megard Dec."),Ex. 1. He was estimated to be
underweight at 12.2 kg (26 pounds). See id.
The child was noted to have a failure to thrive,
chronic constipation, diarrhea, and a history

1 Defendants incorporate by reference the statement of
facts articulated in the contemporaneous brief filed by
defendant Seattle Children's Hospital, and the
supporting documentation provided therewith.

40a
Appendix I
of elevated Blood Urea Nitrogen (BLTN).2 See
id. The providers stated:
Clinical exam shows gross malnutrition
and muscle wasting. Concern for medical
cause of wasting vs. neglect. Given
mother’s
resistance
to
medical
evaluation in this ill child, he is currently
in state custody.
Id. at 3 (emphasis added). The providers
added that the child would be admitted to the
general medicine service with Suspected
Child Abuse and Neglect (SCAN) consulting to
"continue with medical evaluation and initiate
treatment for malnutrition." The ED
discharge diagnosis was "failure to thrive,"
and he was admitted to the hospital. Id. at 3.
B. Plaintiffs filed a Complaint against Dr.
Migita but failed to effect personal
service of process.
On October 24, 2016, Plaintiffs, as "parents
and natural guardians" of two minors,
including J. Lian, filed a Complaint against
Dr. Migita and Seattle Children's Hospital.
Megard Dec., Ex. 2 ("Dr. Migita Complaint").
In the Complaint against Dr. Migita,
Plaintiffs allege Dr. Migita provided medical
2 A BUN test is done to see how well your kidneys are
working. If your kidneys are not able to remove urea from
the blood normally, your BUN level rises. Heart failure,
dehydration, or a diet high in protein can also make your
BUN level higher. Liver disease or damage can lower your
BUN level.

!>

41a
Appendix I
services to J. Lian on October 24, 2013 in the
emergency department of Seattle Children’s
Hospital. Id. at 2, 8-9. They allege that during
the treatment provided on October 24, and
during a 72-hour hearing allegedly conducted
from October 28 to October 30, 2013, Dr.
Migita "made a misdiagnosis" of J. Lian that
resulted in him being removed out of his home
by Child Protective Services (CPS) for nine
months. Id. at 3, U 10. They further allege that
Dr. Migita fell below the standard of care,
failed to deliver accurate information to CPS,
and failed to "meet the applicable standard in
'good faith’ of I, being expert witness." Id. at
4-5,
12-17.
Dr. Migita is not an employee of Seattle
Children's Hospital and has not authorized
Seattle Children's Hospital to accept legal
service of process on his behalf. See
Declaration of Darren Migita, M.D. ("Migita
Dec.") at 2. See also Declaration of Bruder
Stapleton, M.D. ("Stapleton Dec.") at 2.
C. Plaintiffs filed an unsigned Complaint
against Dr. Metz but failed to effect
service of process.
On October 28, 2016, Plaintiffs filed an
unsigned Complaint against Dr. Metz and
Seattle Children's Hospital under the same
cause number created with the filing of the
Complaint against Dr. Migita. Megard Dec.,
Ex. 3 ("Dr. Metz Complaint"). Plaintiffs allege
that on October 27, 2013, Dr. Metz provided

42a
Appendix I
medical services to J. Lian. Id. at 2. They
allege that Dr. Metz made a "misdiagnosis" for
J. Lian, causing him to be removed from his
parent’s home by Child Protective Services for
nine months. Id. at 3. They allege Dr. Metz fell
below the standard of care, failed to deliver
accurate information to CPS, and caused
mental anguish and stress for Plaintiffs. Id. at
3-4.
Dr. Metz is not an employee of Seattle
Children’s Hospital and has not authorized
Seattle Children’s Hospital to accept legal
service of process on his behalf. See
Declaration of James Metz, M.D. ("Metz Dec.")
at H 2. See also Stapleton Dec. at | 3.
D. Plaintiffs filed an unsigned Complaint
against Dr. Kodish but failed to effect
personal service of process.
On October 28, 2016, Plaintiffs filed an
unsigned Complaint against Dr. Kodish and
Seattle Children's Hospital under the same
cause number created with the filing of the
Complaint against Dr. Migita. Megard Dec.,
Ex. 4 ("Dr. Kodish Complaint"). Plaintiffs
allege that on October 28, 2013, during J. L's
hospitalization at Seattle Children's Hospital,
and during the 72-hour hearing on October 30,
2013, Dr. Kodish made a "misdiagnosis" of J.
L, causing him to be removed by CPS for nine
months. Id. at 2-3. They allege Dr. Kodish fell
below the standard of care, failed to deliver
accurate information to CPS, and caused

43a
Appendix I
mental anguish and stress for Plaintiffs. Id. at
3-4.
Dr. Kodish is not an employee of Seattle
Children's Hospital and has not authorized
Seattle Children's Hospital to accept legal
service of process on his behalf. See
Declaration of Ian Kodish, M.D. ("Kodish
Dec.") at 1) 2. See also Stapleton Dec. at 4.
E. Plaintiffs filed a Summons naming
Seattle Children's Hospital and the three
physicians.
On December 8, 2016, Plaintiffs filed a
Summons under this cause number directed
at Seattle Children's Hospital and Dr. Migita,
Dr. Kodish, and Dr. Metz. See Megard Dec.,
Ex. 5. The Summons was signed by both
Plaintiffs, but it did not include any proof of
service. See id.
"Amended
an
F.
Plaintiffs
filed
Complaint" seeking to add the Redmond
City Police Department and Detective
Natalie D’Amico.
On December 12, 2016, Plaintiffs filed
another Complaint under this cause number,
this time against the Redmond City Police
Department and Detective Natalie D'Amico.
See Megard Dec., Ex. 6.3 The Plaintiffs are
Susan Chen and Naixng Lian, and they allege
3 This Complaint is identified as an "Amended Complaint’ on the
cause docket. See Dkt. #12.

44a
Appendix I
an action under 42 U.S.C. § 1983. They state
that their claim arises from a December 9,
2013 police report that "intentionally and
willfully subjected plaintiff to....false arrest
and false imprisonment." Id. at 2, H 2. They
allege that on October 25, 2013, Detective
D'Amico assisted Child Protective Services to
remove Plaintiffs' older son, "L. L", into state
custody. Id. at 5, H 22.
G. The King County Deputy Sheriff filed
multiple Returns of Service, none of
which reflected personal service on the
physicians.
On December 13, 2016, the King County
Deputy Sheriff filed four Returns of Service.
Megard Dec., Ex. 7. In the three Returns of
Service addressing the Complaints filed
against defendants, the King County Deputy
Sheriff, Alan Kelley, erroneously stated that
he personally served process upon the Dr.
Migita, Dr. Kodish, and Dr. Metz, respectively:
By delivering such true copy, personally
and in person, to Diana Williams, who is
an executive assistant and who stated
that she was authorized to accept
legal service for Children's Hospital
thereof, on the date above specified.
At 4800 Sand Point Way Northeast,
Seattle, WA 98105, King County,
State of Washington.

45a
Appendix I
See id. (emphasis added).
H. Plaintiffs filed an Amended Complaint
and Summons directed at the State of
Washington and Department of Social
&Health Services.
On December 21, 2016, Plaintiffs filed
another Complaint for Damages under this
cause number, alleging claims against the
State of Washington and Department of Social
& Health Services. Megard Dec., Ex. 8. They
allege that the lawsuit arises out of DSHS'
failure to investigate a "wrong CPS referral"
to protect Plaintiffs' son J. Lian from a
foreseeable harm as an "autism child" and
failed to provide him therapy services while
"he was in dire needs for months and caused
his significant regressions while in state
custody." Id., H 7. Plaintiffs' Complaint was
signed only by Susan Chen. See id. at 18.
I. Plaintiffs filed a Complaint against the
City of Redmond.
Also on December 21, 2016, Plaintiffs filed
another Complaint under this cause number
against the City of Redmond. See Megard Dec.,
Ex. 9. They allege that the City of Redmond
committed negligence with regard to
supervising and training its employees to
protect Plaintiffs "to be free from an
unreasonable search and seizure." Id. at 2, T| 1.
III. EVIDENCE RELIED UPON

46a
Appendix I

1. Declaration of Bruce W. Megard, Jr. in
Support of Defendants Darren Migita, M.D.,
Ian Kodish, M.D., and James Metz, M.D.'s
Motion for Summary Judgment of Dismissal,
with attached exhibits;4
2. Declaration of Darren Migita, M.D. in
Support of Defendants Darren Migita, M.D.,
Ian Kodish, M.D., and James Metz, M.D.'s
Motion for Summary Judgment of Dismissal.
3. Declaration of James Metz, M.D. in Support
of Defendants Darren Migita, M.D., Ian
Kodish, M.D., and Ian Metz, M.D.'s Motion for
Summary Judgment of Dismissal.
4. Declaration of Ian Kodish, M.D. in Support
of Defendants Darren Migita, M.D., Ian

4 Because defendants ask this Court to consider materials
outside the pleadings in determining whether to dismiss for
lack of personal jurisdiction, this motion is framed as a
motion for summary judgment as opposed to a CR 12(b)(2)
motion, See Puget Sound Bulb Exchange v. Metal Buildings
Insulation, Inc., 9 Wn. App. 284, 289, 513 P.2d 102 (1973)
("If matters outside the pleadings are presented to the court
on a motion to dismiss for lack of personal jurisdiction
under CR 12(b)(2) the motion is to be treated as a motion
for summary judgment"). However, defendants expressly do
not waive any of the CR 12(b) defenses by bringing this
motion, including lack of personal jurisdiction or improper
service. See Butlerv. Joy, 116 Wn. App. 291, 296,65 Pad 671
(2003) (summary judgment motion is not a CR 12 motion
and bringing summary judgment was not a waiver of CR
12(b) defenses).

47a
Appendix I
Kodish, M.D., and James Metz, M.D.'s Motion
for Summary Judgment of Dismissal;
5. Declaration of Bruder Stapleton, M.D. in
Support of Defendants Darren Migita, M.D.,
Ian Kodish, M.D., and James Metz, M.D.'s
Motion for Summary Judgment of Dismissal;
and
6. The records and pleadings in the Court file.
IV.
LEGAL
ARGUMENT

AUTHORITY

AND

A. This action is ripe for summary
judgment
determination
as
questions
regarding personal jurisdiction and statutes of
limitations present pure issues of law.
The function of summary judgment is to
determine if there is a genuine issue of
material fact which requires a formal trial.
Case v. Daily Record, Inc., 83 Wn.2d 37, 42,
515 P.2d 154 (1973) (quotation omitted).
When there is no genuine issue of any
material fact and the moving party is entitled
to judgment as a matter of law, summary
judgment is properly granted. Mohr v.
Grantham, 172 Wn.2d 844, 859, 262 P.3d 490
(2011) (citations omitted); see also CR 56(c).
A defending party may support its motion
for summary judgment by "merely challenging
the sufficiency of the plaintiffs evidence as to
any material issue." Las v. Yellow FNont

48a
Appendix I
Stores,, 66 Wn. App. 196, 198, 839 P.2d 744
(1992).
Moreover, whether a plaintiff properly
served a defendant is a purely legal issue that
cannot be presented to a jury, and is thus,
appropriately resolved by the trial courts.5 See,
e.g., Jackson v. Sacred Heart Med. Ctr., 153
Wn. App. 498, 500, 225 P.3d 1016 (2009);
Gross v. Sundig, 139 Wn. App. 54, 67,161 P.3d
380 (2007). Whether a trial court was correct
in asserting or not asserting personal
jurisdiction over a party is also a question of
law. See, e.g., Hartley v. Am. Contract Bridge
League, 61 Wn. App. 600, 603, 812 P.2d 109
(1991). When there is a challenge to personal
jurisdiction, "the plaintiff has the initial
burden of making a prima facie showing of
proper service." Tegland, 14 Wash. Prac., Civ.
Proc. § 4:40 (2d. ed. 2013) (citation omitted).
Dismissal is an appropriate remedy for
when the court lacks personal jurisdiction
over a party due to insufficient service of
process. See, e.g., French, 116 Wn.2d at 595;
Crouch v. Friedman, 51 Wn. App. 731, 734-35,
5 Defendants note that their counsel filing a notice of
appearance does not preclude them from challenging
the sufficiency of service of process. See, e.g., Haberman
v. Wash. Pub. Power Supply Sys., 109 Wn.2d 107, 178,
744 P.2d 1032 (1987); Adkinson v. Digby, Inc., 99 Wn.2d
206, 209, 660 P.2d 756 (1983); Sanders v. Sanders, 63
Wn.2d 709, 714, 388 P.2d 942 (1964); Gerean, 108 Wn.
App. at 973. Nor does a delay in filing an answer waive
the defense. See French v. Gabriel, 116 Wn.2d 584, 59394, 806 P.2d 1234 (1991).

49a
Appendix I
754 P.2d 1299 (1988); Walker u. BonneyWatson Co., 64 Wn. App. 27, 36, 823 P.2d 518
(1992).6
Similarly, whether an action was brought
within the applicable statute of limitations is
also an issue that should be resolved as a
matter of law. "The applicable statute of
limitations is an issue of law and is a proper
subject for summary judgment." Imperato v.
Wenatchee Valley College, 160 Wn. App. 353,
358, 247 P.3d 816 (2011). If the record
demonstrates that there is no genuine issue of
material fact as to when a statutory period for
bringing a cause of action commenced,
summary judgment based on a statute of
limitations should be granted.7
B. Pro se parties are held to the same
standards as parties represented by
counsel.
6 Although a defendant technically appears by filing a
motion or an answer challenging personal jurisdiction,
the appearance does not constitute a waiver of the right
to challenge personal jurisdiction and the defendant is
not required to file a "special" or limited" appearance
for purposes of challenging personal jurisdiction.
Tegland, 14 Wash. Prac., Civ. Proc. § 4:37 (2d ed. 2013)
(citations omitted). See also Grange Ins. Assn u. State,
110 Wn.2d 752, 765-66, 757 P.2d 933 (1988) (defendant
does not waive a jurisdictional defense by moving for
dismissal)
7 See, e.g., Cox v. Oasis Phys. Therapy, PLLC, 153 Wn.
App. 176, 186, 222 P.3d 119 (2009); Olson v. Siverling,
52 Wn. App. 221, 224, 758 P.2d 991 (1988); Wood v.
Gibbons, 38 Wn. App. 343, 349, 685 P.2d 619 (1984).

50a
Appendix I

"A trial court must hold pro se parties to
the same standards to which it holds
attorneys." Edwards v. Le Due, 157 Wn. App.
455, 460, 238 P.3d 1187 (2010). It is reversible
error for a trial court to improperly aid or give
inordinate leniency to a pro se party. See, e.g.,
Edwards, 157 Wn. App. at 464-65. Pro se
parties are bound by the same rules of conduct
and procedure as a licensed attorney. See In re
Connick, 144 Wn.2d 442, 455, 28 P.3d 729
(2001). Therefore, the law requires that the
Court treat Plaintiffs Susan Chen and
Naixiang Lian as if they were represented
parties.
C. Dismissal is required because this
Court lacks personal jurisdiction over Dr.
Migita, Dr. Kodish, and Dr. Metz because
Plaintiffs failed to effect personal service
on them.
Dismissal of Plaintiffs' suit is mandated
when this Court lacks personal jurisdiction
over Dr. Migita, Dr. Metz, and Dr. Kodish due
to Plaintiffs’ failure to effect original service of
process. "Under the due process clause, a
Washington court may not assert personal
jurisdiction over a defendant unless (1) the
defendant is given adequate notice and
opportunity to be heard, and (2) the defendant
has the requisite minimum contacts with the
state of Washington." Tegland, 14 Wash. Prac..
Civ. Proc. § 4:1 (2d ed. 2013).

51a
Appendix I
As to the first requirement, the
Fourteenth Amendment requires that any
deprivation of life, liberty, or property by
adjudication must be preceded by notice and
an opportunity to be heard appropriate to the
nature of the case. Mullane v. Central
Hanover Bank &Trust Co., 339 U.S. 306, 313,
70 S.Ct. 652 (1950) (citations omitted).8 Due
process requires adequate notice be given to
interested parties "of the pendency of the
action and afford them an opportunity to
present their objections." Mullane, 339 U.S. at
314. The notice must be "reasonably
calculated, under all the circumstances," to
reach the defendant. Id. at 318. Washington
adopted the "reasonable notice" standard from
Mullane. See, e.g., In re Marriage of McLean,
132 Wn.2d 301, 308-09, 937 P.2d 602 (1997).
Due process requirements cannot be met
without proper service of process, which is the
threshold requirement for the trial court to
assert personal jurisdiction over the party.
"Basic to litigation is jurisdiction, and first to
jurisdiction is service of process." Rodriguez v.
James-Jackson, 127 Wn. App. 139, 143, 111
P.3d 271 (2005) (citations omitted). Further,
"[pjroper service of the Summons and
complaint is a prerequisite to a court
obtaining jurisdiction over a party." Harvey v.
Obermeit, 163 Wn. App. 311, 318, 261 P.3d
671 (2011) (citation omitted). See also Scott v.
8 True and correct copies of all out of state authority are
provided to this Court and Plaintiffs pursuant to LCR
7(b)(5)(B)(v).

52a
Appendix I
Goldman,, 82 Wn. App. 1, 6, 917 P.2d 131
(1996) ("A trial court does not have
jurisdiction over a defendant who is not
properly served"). Also, requirements set forth
by statute." Powell v. Sphere Drake Ins. PLC,
97 Wn. App. 890, 899, 988 P.2d 12 (1999).
"[s]ervice of process is sufficient only if it
satisfies the minimum requirements of due
process and therequirements set forth by
statute." Powell v. Sphere Drake Ins. PLC, 97
Wn. App. 890, 899, 988 P.2d 12 (1999).
Indeed, "beyond due process, statutory
service requirements must be complied with
in order for the court to finally adjudicate that
dispute." Farmer v. Davis, 161 Wn. App. 420,
433, 250 P.3d 138 (2011) (citation omitted).
See also Thayer v. Edmonds, 8 Wn. App. 36,
40,. 503 P.2d 1110 (1972). RCW 4.28.080
delineates these requirements as to a variety
of persons and entities. Personal jurisdiction
over Washington residents "is obtained either
by serving the defendant personally or by
substitute service [under RCW 4.28.080(16)]."
Lepeska v. Farley, 67 Wn. App. 548, 551, 833
P.2d 437 (1992) (emphasis added). Applicable
here, the statute provides that a Summons
shall be served by delivering a copy:
to the defendant personally, or by
leaving a copy of the Summons at the
house of his or her usual abode with
some person of suitable age and
discretion then resident therein.

53a
Appendix I

RCW 4.28.080(16). See also CR 4(d)
(describing allowable methods of service).
A plaintiff must strictly comply with the
statutory requirements for service of process.
See, e.g., Weiss v. Glemp 127 Wn.2d 726, 73234, 903 P.2d 455 (1995) (substantial
compliance with personal service statute not
sufficient). A defendant’s actual knowledge
of the Summons and Complaint,
unaccompanied by the statutorily prescribed
notice, is not sufficient.9 As noted by Tegland:
In other words, the statutory requirements
are jurisdictional, and failure to comply
with the statutory requirements deprives
the court of personal jurisdiction over
the defendant, even if the defendant
received actual notice of the proceeding.
3 Wash. Prac., Rules Practice CR 4 (7th ed.
2013) (citations omitted) (emphasis added).

9 See, e.g., Gerean v. Martin-Joven, 108 Wn. App. 963,
975, 33 P.3d 427 (2001) (dismissal affirmed for lack of
service even when party had actual notice of the action);
In re Marriage of Logg, 74 Wn. App. 781,786, 875 P.2d
647 (1994) (no personal jurisdiction over husband in a
marriage dissolution when Summons and petition were
not properly served); Meaclowdale Neighborhood
Committee v. City ofEdmovrds, 27 Wash. App. 261, 616
P.2d 1257 (1980) (mayor had actual knowledge);
Veradale valley Citizens'Plannzng Committee v. Board
of County Com Vs of Spokane County, 22 Wash. App.
229, 588 P.2d 750 (1978).

54a
Appendix I

Indeed, Tegland also notes that the modern
trend is to "impose more rigorous
requirements of notification." 14 Wash. Prac.,
Civ. Proc. § 4:2 (2d ed. 2013) (citation omitted).
If the trial court has not acquired
jurisdiction over a defendant, that defendant
is entitled to immediate dismissal. See
Bethel v. Sturmer, 3 Wn. App. 862, 865-66, 479
P.2d 131 (1970). The burden is on the plaintiff
to first establish proper service, which may be
made by producing an affidavit of service "that
shows that service was properly carried out."
Witt v. Port of Olympza, 126 Wn. App. 752, 757,
109 P.3d 489 (2005) (citation omitted). 10
Neither Dr. Migita, Dr. Kodish, nor Dr.
Metz were personally served by the terms of
RCW 4.28.080, and this Court lacks personal
jurisdiction over them. RCW 4.28.080(16)
requires personal service be made either (1)
personally on the defendant, or (2) by leaving
copies of the Summons and Complaint at the
defendant's place of abode (place of residence)
with a person of suitable age and discretion
that is a resident in the defendant's abode.
There is no dispute that Plaintiffs have failed
10 See, e.g., Freestone Capital Partners L.P. v. MKA Real
Estate Opportunity Fund I, LLC, 155 Wn. App. 643, 654,
230 P.3d 625 (2010); Coughlin v. Jenkins, 102 Wn. App.
60, 65, 7 P.3d 818 (2001); Woodruff v. Spence, 88 Wn.
App. 565, 571, 945 P.2d 745 (1997); Walker v. BonneyWatson Co., 64 Wn. App. at 36.

55a
Appendix I
to meet these jurisdictional requirements.
Migita Dec. at K 3; Metz Dec. at 3; Kodish Dec.
at f 3. Plaintiffs are apparently under the
misapprehension that leaving a copy of the
Complaints at Seattle Children's Hospital is
sufficient to render original service on the
physicians. See Megard Dec., Ex. 7. It is not.
Neither Dr. Migita, Dr. Kodish, nor Dr.
Metz's workplace is their "abode." See
Streeter- Dybahl v. Nguyet Huynh, 157 Wn.
App. 408, 413, 236 P.3d 986 (2010) (the
defendant's place of abode is the defendant's
"center of domestic activity"). Neither Dr.
Migita, Dr. Kodish nor Dr. Metz has ever
authorized Seattle Children's to accept legal
service on their behalf. Stapleton Dec. at
24; Migita Dec. at H 2; Metz Dec. at 2; Kodish
Dec. at H 2.
Additionally, receipt of a complaint at a
person's workplace in the mail is not service of
process. Finally, even if they had been served
with signed Complaints as contemplated by
the law, none of these defendants were served
with or received a copy of a Summons as
required by CR 4(a)(1) and RCW 4.28.020(16).
These rules are strictly interpreted, and
dismissal is required when this Court lacks
personal jurisdiction over any of these
defendants. See Bethel, 3 Wn. App. at 865-66.
D. Dismissal of Dr. Kodish and Dr. Metz
is required when plaintiffs have not

56a
Appendix I
commenced an action against them
within the statute of limitations.
1. Washington has a strong policy of
enforcing statutes of limitations.
Washington courts have repeatedly
recognized the strong policy behind the strict
enforcement of statutes of limitations: "The
policy behind statutes of limitations is to
ensure essential fairness to defendants and to
bar Plaintiffs who have slept on their rights."
Karl B. Tegland, 16 Wash. Prac., Tort Law
&Practice § 9.1 (3d ed. 2012) (citing multiple
cases); see also Buns v. McClinton, 135 Wn.
App. 285, 292-93, 143 P.3d 630 (2006) ("The
purpose of statutes of limitations is to shield
defendants and the judicial system from stale
claims."); Kittinger v. Boeing Co., 21 Wn. App.
484, 585 P.2d 812 (1978). Consistent with the
above policy, a plaintiff must commence a
claim within the applicable statute of
limitations to avoid a statute of limitations
defense and potential dismissal of his or her
claim.11

11 See, e.g., 1000 Virginia Ltd. P'Ship v. Vertecs Corp.,
158 Wn.2d 586, 574, 146 P.3d 423 (2006) ("A statute of
limitation bars plaintiff from bringing an already
accrued claim after a specific period of time’’): Unisys
Corp. v. Senn, 99 Wn. App. 391, 397-98, 994 P.2d 244
(2000).

57a
Appendix I
2. A party commences an action by
serving a copy of a Summons with a
Complaint or by filing a Complaint.
CR 3 defines how an action is
"commenced." Tegland, 15A Wash. Prac.,
Handbook on Civ. Proc., § 3.1 (2016-17 ed.).
The rule states:
(a) Methods. Except as provided in rule
4.1, a civil action is commenced by
service of a copy of a Summons
together with a copy of a complaint, as
provided in rule 4 or by filing a complaint.
Upon written demand by any other party,
the plaintiff instituting the action shall pay
the filing fee and file the Summons and
complaint within 14 days after service of
the demand or the service shall be void. An
action shall not be deemed commenced for
the purpose of tolling any statute of
limitations except as provided in RCW
4.16.170.
CR 3(a) (emphasis added).
Further, and as referenced within CR 3
controls
4.16.170
RCW
above,
"commencement" within the context of tolling
the applicable statute of limitations. Under
that statute, an action is only deemed
commenced when the Summons and
complaint is filed or served. See, e.g.,
Blankenship v. Kaldor, 114 Wn. App. 312, 57
P.3d 295 (2002); Gerean v. Martin-Joven, 108
Wn. App. 963, 968-69, 33 P.3d 427 (2001). If,

58a
Appendix I
however, the party only serves the Summons
and complaint, but does not file, or vice versa,
the action is considered only "tentatively
commenced" until perfected. See Banzeruk v.
Estate of Howitz ex. rel. Moody, 132 Wn. App.
942, 945-46, 135 P.3d 512 (2006); Kramer v.
J.L Case Mfg. Co., 62 Wn. App. 544, 815 P.2d
798 (1991). If the second step of either filing or
serving the Summons and complaint is not
completed within 90 days, the action is
treated as if it had not been commenced for the
purposes of tolling the statute of limitations.
RCW 4.16.170; see also O'Neill v. Farmers Ins.
Co. of Wash., 124 Wn. App. 516, 523-24, 125
P.3d 134 (2004). These rules are interpreted
strictly, and even technical oversights are
fatal to a claim. See Margetan u. Superior
Chair Craft Co., 92 Wn. App. 240, 246, 963
P.2d 907 (1998).
3. Medical malpractice claims must be
commenced within three years from the
date of the allegedly negligent act.
Chapter 7.70 RCW governs all civil actions
for injuries resulting from health care
provided after June 25, 1976. Wright v. Deckle,
104 Wn. App. 478, 481, 16 P.3d 1268 (2001)
(citing Branom v. State, 94 Wn. App. 964, 96869, 974 P.2d 335 (1999)). The court in Branom
further recognized that "health care" is
construed broadly, noting that it has been
previously interpreted as meaning "the
process in which [a physician is] utilizing the
skills which he had been taught in examining,

59a
Appendix I
diagnosing, treating or caring for the plaintiff
as his patient." 94 Wn. App. at 969-70 (citation
omitted). The statute thus applies to all
actions arising out of health care, "regardless
of how the action is characterized." Id. at 969.
RCW 4.16.350 governs the statute of
limitations for medical malpractice claims and
imposes athree-year statute of limitations for
commencement of such claims. Unruh v.
Cacchiotti, 172 Wn.2d 98, 112, 103 P.3d 631
(2011). RCW 4.16.350(3) states that the three
year period begins to run from "the act or
omission alleged to have caused the injury or
condition." Id.; see also Gunnier v. Yakima
Heart Center, Inc., P.S., 134 Wn.2d 854, 85964, 953 P2d 1162 (1998). The statute also
states: "Any action not commenced in
accordance with this section shall be
barred." RCW 4.16.350 (emphasis added).
4. Plaintiffs failed to timely commence
their actions against Dr. Kodish and Dr.
Metz within the statute of limitations.
Plaintiffs' causes of action against Dr.
Kodish and Dr. Metz were not commenced as
contemplated by CR 3(a) within the three-year
statute of limitation under RCW 4.16.350(3).
Based on Plaintiffs' allegations contained in
the Complaints filed against Dr. Metz,
Plaintiffs needed to have at least initially
commenced their action by October 29, 2016,
three years after the date he allegedly
provided negligent healthcare to Plaintiffs'

60a
Appendix I
minor son. See Megard Dec., Ex. 3 at 3-4,
6-15. Plaintiffs needed to have at least
properly initially commenced their action by
October 28, 2016, three-years after the date he
allegedly provided negligent healthcare. See
Megard Dec., Ex. 4 at 2-3, UK 6-14. While
Plaintiffs filed Complaints against both Dr.
Kodish and Dr. Metz on October 28, 2016,
Plaintiffs failed to properly commence their
action against each. See Megard Dec., Exs. 3.
First, Plaintiffs' Complaints against Dr.
Kodish and Dr. Metz are void and are of no
legal effect because they were not signed and
cannot be remedied by amendment because
they are jurisdictional pleadings. CR 11(a)
requires that all pleadings be signed,
including when the party is not represented:
A party who is not represented by an
attorney shall sign and date the party's
pleading, motion, or legal memorandum and
state the party's address.
CR 11(a). Plaintiffs neither signed their
Complaints nor provided their addresses as
required by law and court and local rule.12 See
Megard Dec., Exs. 3, 4. Under Washington law
if the party fails to comply with CR ll's
requirement, "the court will strike the
document unless the proponent signs it
promptly upon notification of the
12 This also violates KCLR 11(a)(1), applicable to pro se
parties.

61a
Appendix I
omission." Tegland, 15 Wash. Prac., Civ. Pro.
§ 51:4 (2d ed. 2016) (emphasis added). See also
GNiffith u. City of Bellevue, 130 Wn.2d 189,
922 P.2d 83 (1996). ^
In this case, because Plaintiffs' Complaints
against Dr. Kodish and Dr. Metz are unsigned,
this Court lacks jurisdiction over them and no
amendment could remedy the defects.
Plaintiffs waited until the eve or near-eve of
the running of the statute of limitations to file
their Complaints against Dr. Metz and Dr.
Kodish. See Megard Dec., Exs. 3, 4. The
obvious risk of doing so is that any defect in
the filing of those Complaints could be fatal
because Plaintiffs would be unable to file a
complaint that complies with CR 11 within
the statute of limitations. Moreover, Plaintiffs
cannot be afforded leave to "amend" their
Complaints by signing them. If the original
complaint is void, there is nothing to amend.
A re-filed complaint would be an original
complaint, and any original complaint filed
now or at any point in the future would be
untimely as a matter of law as to those
defendants. Even if this Court allowed them
to re-file signed Complaints, it would not save
Plaintiffs' claims against Dr. Kodish or Dr.
13 See, e.g., In re Estate of Fitzgerald, 172 Wn. App. 437,
452, 294 P.3d 720 (2012) (noting that a trial court may
strike the pleading of a corporation that is not signed
by an attorney); Biomed Comm, Inc. v. State Dept, of
Health Bd. ofPharm, 146 Wn. App. 929, 193 P.3d 1093
(2008) (same).

62a
Appendix I
Metz because the statute of limitations
against the physicians ran in October 2016.
Second, out of state authority provides some
helpful guidance on this issue. In the recent
case of BeaNd v. Branson, 2016 WL 1705290
(Tenn. Ct. App. April 26, 2016), the court
denied a petition to rehear and supplement its
original opinion reversing the trial court on
the grounds that the wrongful death claims
were barred by the statute of limitations
because the only complaint filed prior to the
running of the statute of limitations period
was void. The pro se party's complaint was
unsigned, and the court concluded that it was
void ab initio and could not be amended. 2016
WL 1705290 *3. The dipositive issue to the
Beard court was whether the pleading was
jurisdictional. It noted: "if the 'unsigned
paper’ is a jurisdictional notice of appeal or
complaint, then the court does not obtain
jurisdiction over the matter." Id. (emphasis
added). The Beard court quoted a passage
from one of its earlier cases as part of its
reasoning that the court never obtained
jurisdiction:
Something that is "void" has no legal
effect. See Black’s Law Dictionary 1349
(9th ed. 2010). Another legal dictionary
defines "void" as "absolutely null," going
on to describe an order that is "void ab
initio" as "that which is void in the
beginning, [which] cannot be cured
by waiver, acquiescence or lapse of
time." Bryan A. Garner, A Modern Legal

63a
Appendix I
Dictionary 920 (2d ed. 2005). Because
the complaint was void as to Catherine's
claims, it was insufficient to
commence an action on her behalf,
and neither Catherine nor her claims
were properly before the trial court. See
Tenn. R. Civ. P. 3 (providing that every
civil action commences when a complaint
is filed). This is of the utmost significance
because a decree is "void as to any person
shown by the record itself not to have
been before the Court in person, or by
representation." See Gentry v. Gentry,
924 S.W.2d 678, 680 (Tenn.1996); see also
Tate v. Ault, 771 S.W.2d 416, 419
(Tenn.Ct.App.1988) (noting that a
judgment is void if the court rendering it
lacked jurisdiction over the subject
matter or the parties). For the reasons
stated above, neither Catherine nor her
claims were before the trial court;
therefore, the trial court’s judgment is
void to the extent it ruled on the merits
of Catherine's purported claims. See
Gentry, 924 S.W.2d at 680.
Id. (citing Vandergriff v. ParkRidge E. Hosp.,
2015 WL 9943593, at *4 (Tenn. Ct. App. Aug.
21, 2015)) (emphasis added).
The Beard court further rejected the
plaintiffs argument that the unsigned
complaint was merely "voidable", and that CR
11 allowed for the party to promptly correct
the deficiency. It stated:

64a
Appendix I

With the foregoing in mind, we turn our
attention to consider the office of Tenn.
R. Civ. P. 11 in relation to a void
complaint. As is the case with all
Tennessee Rules of Civil Procedure, Rule
11 applies to civil actions. "All civil
actions are commenced by filing a
complaint with the clerk of the court."
Tenn. R. Civ. P. 3. The filing of a void
complaint is a nullity, which has no legal
effect. See Bivins, 910 S.W.2d at 447; see
also Vandergriff, 2015 WL 9943593, at
*6. Therefore, the filing of a void
complaint does not commence a civil
action. Because the ding of a void
complaint does not commence a civil
action, Rule 11 has no office in
relation to a void complaint. For
these reasons, we conclude that Tenn. R.
Civ. P. 11 is not available to cure a void
complaint.
Moreover if Rule 11.01 were applicable,
it would not provide a basis for
relief due to Plaintiff s failure to
promptly correct the deficiency.
Beard, 2016 WL 1705290 *3 (emphasis added).
The court continued by expressly rejecting the
argument that the amended complaint filed
by a licensed attorney after the statute of
limitations had run should relate back to the
original complaint by noting that, in the cases
cited by plaintiff, there was a viable complaint

65a
Appendix I
where a party could be added or substituted.

Id. at *4. It held:
Here, the complaint Plaintiff seeks to
amend does not exist, it is a nullity
because it was void ab initio and
"there can be no 'relation back’ to a
pleading ... that was a nullity from
the start." Because the complaint filed
by Mr. Hartley was a nullity, there was
no complaint to which the amended
complaint could relate back.
Id. (citation omitted) (emphasis added).
The principles articulated in Beard are
consistent with Washington law and with
other jurisdictions as well. 14 Plaintiffs'
14 See, e.g., Black v. Ameritel Inns, Inc., 81 P.3d 416, 419
(Idaho 2003) ("In conclusion, this Court holds the
Appellants violated Rule II by submitting an improper
signature. Their amended complaint may not relate
back in time as a cure to the previous complaint
because the complaint was signed in violation of Idaho
Rule 11"); Housing Authority of the City of Hartford u.
Collins, 449 A.2d 189, 191 (Conn. 1982) ("Since there
was no action properly before the court to which
jurisdiction might attach, it is evident that there was
no complaint properly before the court to which an
amendment might be annexed. This being the case,
there was no abuse of discretion in denying the motion
to amend"); Morris u. Gates, 20 S.E.2d 118, 121 (Va.
1942) (holding that an unverified bill of complaint that
was not signed by complainants or by counsel acting for
complainants, could not be treated as a "pleading" on
which to grant or decline relief in absence of appearance
and waiver); Gonzalez v. Wyatt, 157 F.3d 1016, 1022
(5th Cir. 1998) (holding that pro se prisoner’s§ 1983

66a
Appendix I
Complaints against the defendant physicians
should be dismissed because they were void ab
initio, and therefore, they failed to confer
subject matter jurisdiction upon this Court.
Because the Complaints were void at the time
of filing, there is nothing to amend or relate
back to, and Plaintiffs would instead have to
file new lawsuits if they desired to seek relief
against these defendants. However, under
RCW 4.16.350(3), any such lawsuits) would be
untimely by several months based on the
allegations raised by Plaintiffs.
E. Plaintiffs have no evidence that Dr.
Migita, Dr. Kodish or Dr. Metz fell below
the standard of care or proximately
caused harm to Plaintiffs.
Plaintiffs' claims against the defendant
physicians are controlled by RCW 7.70.040
because they allege that each fell below the
standard of care in multiple regards. See
Megard Dec., Exs. 2, 3, 4. The elements for a
medical negligence claim are: (1) the existence
of a duty owed to the complaining party; (2) a
excessive force claims against corrections officer were
barred by statute of limitations, even though a non­
lawyer inmate mailed complaint to clerk within twoyear limitations period; complaint was unsigned,
prisoner was confined in different unit than inmate,
prisoner did not see complaint until after two-year
period expired, and prisoner did nothing to ratify filing
of complaint or to tender or to adopt it prior to
expiration of two-year period).

67a
Appendix I
breach thereof; (3) a resulting injury; and (4)
a proximate cause between the claimed breach
and resulting injury. Pedroza v. Bryant, 101
Wn.2d 226, 228, 677 P.2d 166 (1984). See also
RCW 4.24.290.15
1. Plaintiffs have no evidence that Dr.
Migita, Dr. Kodish or Dr. Metz fell below
the standard of care in any regard.
A plaintiff must support a medical
negligence claim under RCW 7.70 with expert
testimony demonstrating that the health care
provider failed to act within the applicable
standard of care and that that failure caused
the alleged injuries. See Harris v. Groh, 99
Wn.2d 438, 449, 683 P.2d 113 (1983)
("[Ejxpert testimony will generally be
necessary to establish the standard of care
and most aspects of causation"); Keck v.
Collins, 181 Wn. App. 67, 90, 325 P.3d 306
(2014). See also Tegland, 16A Wash. Prac.,
Tort Law and Prac., § 15.13 (2013-14 ed.) ("It
is the general rule that expert medical
testimony is necessary to establish the
relevant standard of care and causation in a

15 The statute provides that a plaintiff must show that
the defendant health care provider "failed to exercise
that degree of care, skill, and learning expected of a
reasonably prudent health care provider in the
profession or class to which he belongs, in the state of
Washington, acting in the same or similar
circumstances" and that "[s]uch a failure was a
proximate cause of the injury complained of’ RCW
7.70.040(1) and (2).

68a
Appendix I
negligence action against a health care
provider").
The absence of standard of care testimony
is fatal to a plaintiffs medical negligence
claim as a matter of law. "[T]o defeat
summary judgment in most medical
negligence cases, the plaintiff must produce
competent medical expert testimony
establishing that the injury complained of was
proximately caused by a failure to comply with
the applicable standard of care." Davies v.
Holy Family Hosp, 144 Wn. App. 483, 492-93,
183 P.3d 283 (2008) (emphasis added). "If the
plaintiff in a medical negligence suit lacks
competent expert testimony, the defendant
is entitled to summary judgment." Colwell
v. Holy Family Hosp., 104 Wn. App. 606, 611,
15 P.3d 210 (2001); see also Young, 112 Wn.2d
at 227 (plaintiffs expert's affidavit did not
create an issue of fact and summary judgment
was subsequently affirmed for defendants).
Here, it is undisputed that Plaintiffs have
not identified any expert witness, qualified or
not, that will testify to the standard of care of
Dr. Migita, Dr. Kodish or Dr. Metz, or that any
alleged action fell below that standard. These
are not issues that can be determined by a lay
jury. A lay person by default does not have any
specialized
knowledge
regarding
any
treatment issues related to J. Lian. See
Versteeg v. Mowery, 72 Wn.2d 754, 758-59, 435
P.2d 540 (1967) (lay jury in no position to
decide on what is required by physician

69a
Appendix I
standard of care). Any self-serving declaration
from Plaintiffs about how these are "issues of
fact" is insufficient as a matter of law. 16
Because there is no reason to believe Plaintiffs
have a qualified expert that will opine that Dr.
Migita, Dr. Kodish, or Dr. Metz fell below the
standard of care in any regard, summary
judgment of dismissal is mandated. See, e.g.,
Young, 112 Wn.2d at 227; Davies, 144 Wn.
App. at 492-93; Colwell, 104 Wn. App. at 611.
2. Plaintiffs have no evidence that any
allegedly negligent conduct by the
physicians proximately caused any harm.
Expert testimony in support of a plaintiffs
medical negligence claim is also required in
order to show that the health care
professional's negligence proximately caused
the alleged injuries. 17 "Expert testimony from
a medical doctor will generally be necessary to
establish causation in a medical malpractice
case." Hill v. Sacred HeaNt Medical Center,

16 "The whole purpose of summary judgment procedure
would be defeated if a case could be forced to trial by a
mere assertion that an issue exists without any
showing of evidence." Reed v. Streib, 65 Wn.2d 700, 707.
399 P.2d 338 (1965).
17 See, e.g., Reese, 128 Wn.2d 300, 907 P.2d 282 (1995);
McLaughlin v. Cooke, 112 Wn.2d 829, 837, 774 P.2d 1
171 (1989); Harris, 99 Wn.2d at 451; O’Donoghue v.
Riggs, 73 Wn.2d 814, 824, 774 P.2d 1171 (1989); see also
DeWolf &Allen, 16 Wash. Prac., Tort Law and Prac. §
15.32 (3d ed. 2013-14).

\

70a
Appendix I
143 Wn. App. 438, 448, 177 P.3d 1152 (2008).
As stated by the court in Reese:
The requirement of expert testimony to
prove causation is a sound and logical
rule.... [J]urors and courts generally
do not possess sufficient knowledge
and training to determine whether a
physician's or surgeon's actions
actually caused plaintiff s injury.
The medical field is foreign to common
experience. The expert medical witness
domesticates this field for the trier of fact,
and counsel must be aware of this
situation to best serve his client [.]
128 Wn.2d at 308 (citation and quotation
omitted) (emphasis added).
That expert testimony "must demonstrate
that the alleged negligence 'more likely than
not’ caused the later harmful condition
leading to injury; that the defendant's actions
'might have,’ 'could have,' or 'possibly did’
cause
the
subsequent
condition,
is
insufficient." Attwood v. Albertson's Food
Centers, Inc., 92 Wn. App. 326, 331, 966 P.3d
351 (1998) (citation omitted). 18
Mere speculation that the professional's
actions or omissions proximately caused the
18 See, e.g., Shellenbarger v. Brigman, 101 Wn. Ap. 339,
348-49, 3 P.3d 21 1 (2000); Merriman v. Toothaker, 9
Wn. App. 810, 814, 515 P.2d 509 (1973) (citations
omitted).

71a
Appendix I
alleged harm is insufficient for claims to
survive summary judgment dismissal. See,
e.g., Reese, 128 Wn.2d at 309 (citations
omitted); Rounds v. Nellcor Puritan Bennett,
Inc., 147 Wn. App. 155, 162-63, 194 P.3d 274
(2008). Indeed, to be admissible, the expert's
opinion "must be based on a reasonable degree
of medical certainty." Rounds, 147 Wn. App.
at 163.
Plaintiffs have no expert testimony
establishing that any allegedly negligent act
by Dr. Migita, Dr. Kodish, or Dr. Metz
proximately caused any harm to any Plaintiff
on a more— probable-than-not basis. As a
matter of law, this is fatal to plaintiffs' claims
against the defendant physicians. See, e.g.,
Davies, 144 Wn. App. at 496; Pelton v. TriState Memorial Hospital, 66 Wn. App. 350,
354-55, 831 P.2d 1147 (1992).
F. Plaintiffs' claims against Dr. Migita,
Dr. Kodish and Dr. Metz should be
dismissed when they are immune from
suit pursuant to RCW 26.44.060.
If Plaintiffs' claims against the defendant
physicians are interpreted as "false reporting"
claims, the physicians must be dismissed
because they are immune. Under RCW
26.44.060,
Washington
law
provides
immunity for those who participate in the
reporting, investigating and participation in a
judicial process related to suspected child
abuse or neglect, provided it is done in good
faith. Washington encourages the reporting of

72a
Appendix 1
child abuse —even suspected child abuse. See,
e.g., Yuille v. State, 111 Wn. App. 527, 529, 45
P.3d 1107 (2002); Whaley v. State, 90 Wn. App.
658, 668, 956 P.2d 1100 (1998). Indeed, RCW
26.44.030 requires that health care providers
with "reasonable cause to believe that a child
has suffered abuse or neglect" report that
suspected child abuse to law enforcement or
the Department of Social and Health Services
("DSHS"). RCW 26.44.030(l)(a). Physicians
and hospitals who fail to report suspected
abuse may be subject to civil liability. See, e.g.,
Kim v. Lakeside Adult Family Home, 185 Wn.
2d 532, 543, 374 P.3d 121 (2016); Beggs v.
State, Dept of Soc. & Health Servs., 171 Wn.
2d 69, 77, 247 P.3d 421 (2011).
provider
healthcare
Where
a
demonstrates good faith via declaration,
summary
judgment
of dismissal
is
appropriate. In Whaley v. State, Dept of Soc.
&Health Servs., 90 Wn. App. 658, 956 P.2d
1100 (1998), a licensed child care provider,
Darcy Hupf, and her employer were sued by
the parents of a child in her care after she
reported concerns of child abuse to CPS. Ms.
Hupf and her employer moved for summary
judgment dismissal, arguing that they were
immune under RCW 26.44.060. Id. at 668. Ms.
Hupf demonstrated good faith under RCW
26.44.060 via declaration stating that (1) she
had no reason to believe allegations of abuse
were untrue, (2) she did not intend to cause
the separation the parent and child, (3) she
reported allegations out of the concern for the

73a
Appendix I
"health and welfare" of the child, and (4) she
reported the suspected abuse because she
knew she was required by law to do so. Id. The
Division I Court of Appeals found that, as a
matter of law, Ms. Hupfs declaration
sufficiently demonstrated good faith and
granted immunity from the plaintiffs claims
based on her reports of abuse to CPS. Id. The
Court gave no weight to the plaintiffs
argument that immunity should be denied
because the information upon which Ms. Hupf
relied ultimately proved to be false. Id. at 668669.
Through their declarations, Dr. Migita, Dr.
Metz, and Dr. Kodish have provided sufficient
grounds to establish they similarly acted in
"good faith." Migita Dec. at 1| 4; Metz Dec. at
4; Kodish Dec. at U 4. Each physician complied
with CPS's investigation into the suspected
child abuse in this case because they
reasonably believed that abuse had occurred
and were concerned for the health and welfare
of J.L. and L.L. See id. Under Whaley, these
declarations are sufficient to establish good
faith and trigger immunity under RCW
26.44.060.
Summary judgment is warranted. See, e.g.,
Miles v. State, 102 Wn. App. 142, 159, 6 P.3d
112 (2000) (physician immune from liability
even if negligent when he worked with
patient's other health care providers, and
when "no reasonable person" could find the
physician acted without good faith regardless
of whether he was mistaken); Whaley, 90 Wn.

74a
Appendix I
App. at 669 (affirming dismissal of reporting
claim when nothing in the record suggested
the school director was dishonest in her
reporting or acted with any unlawful purpose).
V. CONCLUSION
For
the
aforementioned
reasons,
defendants Darren Migita, M.D. Ian Kodish,
M.D., and James Metz, M.D. request that this
Court dismiss Plaintiffs' Complaints with
prejudice. A proposed order to the same effect
is provided herewith.
DATED this 2"d day of February, 2016.
BENNETT BIGELOW & LEEDOM, P.S.
By /s/ Bruce Mesard
Bruce W. Megard, Jr., WSBA #2 560
Attorney for Defendants Darren Migita,
M.D., Ian Kodish, M.D., and James Metz, M.D.

I certify that this motion, not counting the
caption or the signature block, contains 8265
words, in compliance with LCR 56(c) (3).

75a
Appendix I
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN CHEN, et NO. 16-2-26013-6 SEA
al
OF
DECLARATION
DARREN MIGITA IN
OF
SUPPORT
Plaintiffs,
DEFENDANTS DARREN
vs.
MIGITA,
M.D.,
IAN
M.D.,
AND
DARREN MIGITA KODISH
JAMES
METZ,
M.D.’S
et al.
MOTION FOR SUMMARY
Defendants JUDGMENT

I, Darren Migita, M.D. declare as follows;
1. I am over eighteen age old 18 years, I am
competent to testify, and I have personal
knowledge of the matters stated herein.
2. I am Board-Certified in Pediatrics, and
practice as a pediatric hospitalist at Seattle
Children's Hospital in Seattle, Washington.
Yarn not an employee of Seattle Children's
Hospital. I have not authorized Seattle
Children's Hospital to accept legal service on
my behalf.
3. I have not been personally served with a copy
of the Summons or Complaint filed against me
in the above-captioned matter and have not
had the Summons or Complaint served at my
residence.

76a
Appendix I
4. With regard to my interactions with CPS and
the related investigation regarding the minor
children J. L. and L. L., I had no reason to
believe that the allegations of abuse or neglect
were untrue. I did not intend to cause the
separation of the children from their parents.
I reported the allegations anti participated
in the investigation out of the concerns for the
health and welfare of the children. I reported
the allegations and participated in the
investigation because I believed I was
required by law to do so.
I declare under penalty of perjury under the
lames a~ the state of Washington that the
foregoing is true and correct.
EXECUTED in Seattle, Washington this 1st of
February, 2017.
/s/ Darren Misita
Darren Migita, M.D.

77a
Appendix J
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN CHEN, et NO. 16-2-26013-6 SEA
al
DECLARATION OF IAN
KODISH IN SUPPORT OF
DEFENDANTS DARREN
Plaintiffs,
MIGITA,
M.D.,
IAN
vs.
KODISH
M.D.,
AND
JAMES
METZ,
M.D.’S
DARREN MIGITA
MOTION FOR SUMMARY
et al.
JUDGMENT
Defendants

I, Ian Kodish, M.D. declare as follows;
1. I am over eighteen age old 18 years, I am
competent to testify, and I have personal
knowledge of the matters stated herein.
2. I am Board-Certified in Pediatrics, and
practice as a pediatric hospitalist at Seattle
Children's Hospital in Seattle, Washington.
Yarn not an employee of Seattle Children’s
Hospital. I have not authorized Seattle
Children's Hospital to accept legal service on
my behalf.
3. I have not been personally served with a copy
of the Summons or Complaint filed against me
in the above-captioned matter and have not
had the Summons or Complaint served at my
residence.

78a
Appendix J
4. With regard to my interactions with CPS and
the related investigation regarding the minor
children J. L. and L. L., I had no reason to
believe that the allegations of abuse or neglect
were untrue. I did not intend to cause the
separation of the children from their parents.
I reported the allegations anti participated
in the investigation out of the concerns for the
health and welfare of the children. I reported
the allegations and participated in the
investigation because I believed I was
required by law to do so.
I declare under penalty of perjury under the
laws of the state of Washington that the
foregoing is true and correct.
EXECUTED in Seattle, Washington this 1st of
February, 2017.
/$/ Ian Kodish
Ian Kodish, M.D

79a
Appendix J
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN CHEN, et CASE
SEA
al

NO.

16-2-26013-6

DECLARATION OF JAMES
METZ IN SUPPORT OF
Plaintiffs,
DEFENDANTS
DARREN
vs.
IAN
M.D.
MIGITA,
DARREN MIGITA KODISH M.D., AND JAMES
METZ, M.D.’S MOTION
et al.
SUMMARY
FOR
Defendants JUDGMENT
I, James Metz, M.D. declare as follows;
1. I am over eighteen age old 18 years, I am
competent to testify, and I have personal
knowledge of the matters stated herein.
2. I am Board-Certified in Pediatrics, and
practice as a pediatric hospitalist at Seattle
Children's Hospital in Seattle, Washington.
Yarn not an employee of Seattle Children's
Hospital. I have not authorized Seattle
Children's Hospital to accept legal service on
my behalf.
3. I have not been personally served with a copy
of the Summons or Complaint filed against me
in the above-captioned matter and have not
had the Summons or Complaint served at my
residence.

80a
Appendix J
4. With regard to my interactions with CPS and
the related investigation regarding the minor
children J. L. and L. L., I had no reason to
believe that the allegations of abuse or neglect
were untrue. I did not intend to cause the
separation of the children from their parents.
I reported the allegations anti participated
in the investigation out of the concerns for the
health and welfare of the children. I reported
the allegations and participated in the
investigation because I believed I was
required by law to do so.
I declare under penalty of perjury under the
laws of the state of Washington that the
foregoing is true and correct.
EXECUTED in Christchurch, New Zealand
this 2nd of February, 2017.
/$/ James Metz
James Metz, M.D

81a
Appendix J
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY
SUSAN CHEN,
et al
Plaintiffs,
vs.
DARREN
MIGITA et al.
Defendants

NO. 16-2-26013-6 SEA
PLAINTIFFS’ MOTION
FORRECONSIDERATION
OF ORDER GRANTING
DEFENDANTS’ MOTION
FOR SUMMARY
JUDGMENT OF
DISMISSAL

Comes now, the Plaintiff, Susan Chen, and
moves this court to reconsider and clarify a
portion of its Order of 3/3/17, granting
summary judgment to Defendants Migita,
Kodish, Metz, and Seattle Children’s Hospital.
This motion deals solely as to prejudice
regarding re-filing of the minor Plaintiffs’
claims at some future date.
MOTION
On behalf of all Plaintiffs, Plaintiff Susan
Chen moves this court to re-consider its
written Order of 3/3/17, and include language
to clarify that the dismissal of Defendants
Migita, Kodish, Metz and Seattle Children’s
Hospital is WITHOUT PREDJUDICE, as to
the minor Plaintiffs Leo Lian and Jason Lian
ONLY.
BASIS
Pro-se Plaintiffs filed multiple claims
against multiple defendants for medical

82a
Appendix J
malpractice. Claims were filed on behalf of
two minor children, Leo Lian and Jason Lian.
In its oral ruling, this court found that
Defendants Migita, Kodish, and Metz were
improperly served, that there was no affidavit
presented supporting breach or causation, and
that there was no appointment of a Guardian
ad Litem to prosecute the minors’ claims.
Defendants Migita, Kodish, Metz and Seattle
Children’s Hospital were dismissed as
defendants. The Order is silent as to whether
this dismissal was with or without prejudice.
As to the minors’ claims only, the dismissal
should be without prejudice for re-filing, as
they are still in their minority, and the statute
of limitations is tolled until they reach
majority. RCW 4.16.190. Schroeder v.
Weighall et al. 179 Wn.2d 566; 316 P.3d 482;
2014 Wash., holding RCW 4.16.190 (2), which
excluded medical malpractice claims from
tolling unconstitutional.
Alternatively, due to failure to appoint a
GAL to bring the action, the action on behalf
of the minors was a nullity, and there was no
action on behalf of the minors for judicial
consideration, and therefore no action to
dismiss.
DATED this 10th day of March, 2017.
/s/ Susan Chen
Susan Chen, Pro Se Plaintiff
P.O. Box 134 Redmond, WA 98073

83a
Appendix J
The Honorable Hollis R. Hill
SUPERIOR COURT OF WASHINGTON
FOR KING COUNTY

SUSAN CHEN, et al

CASE NO.
SEA

16-2-26013-6

Plaintiffs,
vs.

PLAINTIFFS’ REPLY ON
FOR
MOTION
RECONSIDERATION

DARREN MIGITA et
al.
Defendants
In these proceedings, Susan Chen and
Naxang Lian filed suit as parents and natural
guardians of their children, J.L. and L.L.,
against three doctors who were practicing at
Seattle Children’s Hospital (SCH) as well as
against SCH. Five other suits are pending,
three in this Court (against Det. D’Amico,
DSHS and the City of Redmond), one before
Judge Ramsdell, also in Superior Court
(against Dr. Halamay/Allegro Pediatrics), and
one before Judge Robart in Federal Court
(against Det. D’Amico). The Halamay case has
been continued to May 12 to allow the parents
to obtain counsel and affidavits.
The facts in the case were fully explored in
civil and criminal cases that covered the
period October 2013 to September 2014. J. L.

84a
Appendix J
was diagnosed as autistic at approximately
age 2. He also had extensive GI and digestive
problems, which are sometimes associated
with autism. He received care for these
conditions from multiple providers, including
specialists in autism and digestive issues.
With a variety of early interventions,
including ABA (applied behavior analysis),
speech and occupational therapy, J.L. made
significant progress - he was responsive and
generally cheerful, he could communicate, and
he could figure out how to solve problems. His
GI problems were addressed through diet,
which caused him to lose weight but reduced
his chronic diarrhea. He was slim but not as
slim as his parents and brother.
On October 24, the three physician
defendants, who operated in conjunction with
the SCAN (suspected child abuse and neglect)
team at SCH, disregarded the diagnoses and
treatment plans of his treating physicians and
alleged that J. L. was not autistic, that he did
not have the GI problems for which he was
being treated (though they prescribed GI
medications at discharge several days later),
and that his conditions were caused by abuse
and/or neglect by his mother. Dr. Migita
refused to consult with J.L.’s parents or his
treating physicians and therapists, and
testified falsely at the shelter care hearing,
misstating the laboratory reports and other
findings. This resulted in the removal of both
children, an eight month foster care stay for
J.L., and the arrest of his mother.

85a
Appendix J
In foster care, J.L. was denied his
prescribed therapy, and his autistic behaviors
and GI problems worsened. Over nine months,
his health, behavior and skills declined
precipitously, to the point where he lost
virtually all skills, and no foster family would
keep him due to biting, screaming and similar
behaviors. His treating physicians and
therapists objected vigorously to the
diagnoses of the SCH doctor defendants and
provided statements and declarations to the
social workers, investigators and courts. J.L.
has not been able to regain the skills that he
lost, and at nearly age 7 is still in diapers,
cannot speak, and screams uncontrollably,
sometimes for hours, at any actual or possible
separation from his parents. The parents have
sought treatment at Harvard, Mary Bridge,
Swedish and in China, to no avail. J.L. had
none of these characteristics before the
misdiagnoses of the SCH doctors and the
disastrous nine month stay in eight different
foster homes, with little therapy and minimal
contact with his parents and brother.1
The family is represented in these
proceedings by the mother, who has no legal
training, speaks Chinese, and filed pro se. The
defendant doctors moved for summary
judgment on the ground that the mother did
not properly serve them (there is no allegation
that they did not receive the complaints, just
1 J.L. was returned to his father in July but it was two
more months (eleven months total) before his mother
was allowed to have unsupervised contact with him.

86a
Appendix J
that they were served by certified mail and
later by the sheriff at their workplace rather
than their homes). Drs. Metz and Kodish also
claimed that the complaints against them
should be dismissed because they were
unsigned. All three doctors claimed that these
technical defects could not be corrected since
the statute of limitations had run shortly after
the filing of the complaints. They also claimed
that they had immunity for their reports
and/or testimony, that the mother had
provided no expert affidavits to support her
claims, and that she should not be permitted
a continuance to obtain an attorney and/or
expert affidavits. SCH joined in these claims.
The Court denied the mother’s request for
a continuance2 and granted the motion for
summary judgment on all claims, but said
that
the
parents
could
move
for
reconsideration.
In
the
motion
for
reconsideration, the mother asked that the
Court clarify that the grant of summary
judgment is without prejudice to the children,
whose statute of limitations will not begin to
run until they reach of the age of majority.
(J.L. is now almost 7; L.L. is 9.) In the
alternative, she asked that the Court find the
action on behalf of the minors to be a nullity
due to the failure to appoint a GAL to bring
2 In the companion case filed by the parents against Dr.
Halamay, a pediatrician, Halamay filed a similar
summary judgment motion in which she claimed
immunity for mandatory reporting and the lack of
expert affidavits. A motion for continuance was granted
to May 12, 2017. Case. No. 16-8-26019-5SEA.

87a
Appendix J
the action. She pointed out that since there
was no action on behalf of the minors for
judicial consideration, there was no action to
dismiss.
In their response, the defendants argue
that the parents have not identified the
specific grounds for reconsideration under CR
59(a)(l)-(9). The applicable sections are CR
59(7) (dismissal with prejudice against the
children is contrary to law since the complaint
has been declared void and their statute of
limitations has not run) and CR 59 (9)
(substantial justice has not been done,
particularly for the children, who have
suffered and continue to suffer irreparable
harm). The defendants again argue that they
are protected by immunity and that the
plaintiffs were properly required to present
opposing expert affidavits at this early stage,
without a continuance, in response to the
defendants’ affidavits, which do not address
the facts but instead state simply that they
acted in good faith.
Childrens’ claims. In their motion for
dismissal, the defendant doctors (joined by
SCH) stated repeatedly that the improper
service and lack of signature on two of the
complaints rendered the complaints void ab
initio. Thus, they stated that:
•

“this Court lacks personal jurisdiction because
Plaintiffs failed to effect original service of
process” (p 1);

88a
Appendix J
•

“Voided complaints have no legal effect and
are not subject to later amendment because
there is nothing to amend” (p 2);

•

if the summons and complaint are not
completed within 90 days, “the action is
treated as if it had not been commenced” (p
13);

•

“If the original complaint is void, there is
nothing to amend (p 15); “Something that is
“void” has no legal effect” (p. 16);

•

“the filing of a void complaint does not
commence a civil action” (p 17);

•

“the complaint Plaintiff seeks to amend does
not exist, it is a nullity because it was void ab
initio and “there can be no 'relation back’ to a
pleading . . . that was a nullity from the start”
(p. 17); and

•

plaintiffs’ complaints should be dismissed
“because they were void ab initio, and
therefore, they failed to confer subject matter
jurisdiction upon this Court” (p 18).
The defendants claim that since the
complaints were void ab initio and the statute
of limitations has now run, the claims must be
dismissed in their entirety. However, this
reasoning applies only to the parents. As SCH
recognized in its response, the statute of
limitations for the children does not begin to
run until the children reach the age of
majority [in Washington, age 18]. SCH

89a
Appendix J
Response p. 6 note 1. It is contrary to law for
the Court to deny the children an opportunity
to present their claims at all, even though
their statute of limitations will not expire
until their twenty-first birthdays. If the
children’s complaints are void, they have not
legally filed any actions, and have many years
left to do so.
Immunity. It is an issue of fact as to
whether the actions of the defendant
physicians were taken “in good faith.”
Although the doctors claim that they merely
referred the case to the SCAN team and
DSHS, this does not explain, among other
things, why Dr. Migita testified falsely on
J.L.’s blood work and/or failed to consult with
his treating doctors before making his
diagnosis and testifying on behalf of DSHS. At
the shelter care hearing, the judge was
outraged that Dr. Migata never tried to review
the child’s medical records, talk with the
child’s main treating physicians, or talk with
the parents; indeed, the judge had to order
him to talk with Dr. Green.
Expert reports. The defendants claim that
they are entitled to summary judgment
because the plaintiffs have not “identified any
expert witness, qualified or not, that will
testify to the standard of care of Dr. Migita,
Dr. Kodish or Dr. Metz, or that any alleged
action fell below that standard.” This claim is
disingenuous. The defendants are well aware
that J.L.’s treating doctors - including those
relied upon by the State - were shocked by Dr.
Migita’s diagnosis, which they found

90a
Appendix J
well below the standard of care. Exhibit 6 to
the defendant doctors’ motion for summary
judgment lists the treating providers who
testified to this effect, including Dr. Green and
Dr. Gbedawo, J.L.’s two main treating
physicians, and Brooke Greiner, J.L.’s
occupational therapist, who provided a
report.3
For eight months, J.L.’s autism specialists
told the State that the diagnosis by the
defendant doctors was flat-out wrong and that
the parents were providing appropriate
treatment. In addition to her report, Ms.
Greiner advised the Assistant Attorney
General via e-mail:
J.L. has autism and is not a subtle
presentation of autism. He needs and
deserves the usual recommended
services and supports for treatment of
autism. I believe this is what his
parents have been providing since
learning J.L. is autistic.
Ex. 1. In addition to his testimony, Dr. Green,
a former emergency room physician who

3 Other experts in the underlying cases who are
expected to testify in these proceedings include Dr.
Chan, psychologist/autism specialist; Dr. Chung, J.L.’s
ABA therapist; Anastasiya Shapovalova, behavioral
analyst; and Dr. Hugeback, Ph.D. in Statistics and
author of paper on autism. In addition, Sally Ongaro,
visitation supervisor, kept a record of J.L.’s continuing
GI problems during foster care.

91a
Appendix J
specializes in treatment for autism and
related GI issues, advised by email:
A detective called me, and I told her what
IVe said otherwise - that you are not
guilty of any harmful behaviors.
Ex. 2 4 After reviewing all medical records and
CPS files, J.L.’s court-ordered pediatrician,
Dr. Julia Bledsoe from the University of
Washington, confirmed that J.L. has severe
autism and GI issues, and strongly supported
J.L. returning to his parents. Even CPS’
witnesses agreed that the defendant doctors
were wrong, as stated in an email from the
mother’s dependency attorney, Ms. Roberts, to
the Attorney-General:
Okay, I just finished up making copies of
Dr. Quinn’s interview where he states
that he did not think the mother was
and she acted
starving J.L.
appropriately given she did get J.L. to
the hospital on the 20th and he was
released. There is a load of excellent
information from him which again shows
that the parents did nothing wrong. He
admits to making a decision without all
the information.
This case needs to be dismissed. Period.
4 In another e-mail, Dr. Green stated “I think it’s
damning that Dr. Migita did not bother to obtain the
previous evaluation records before jumping to his
conclusions about autism and abuse/neglect.” Ex. 2.

92a
Appendix J
The department concerns are based on
incomplete and just plain wrong information.
Thus far, every witness on the State’s list that
I have spoken to is going to be a defense
witness. I am not even remotely kidding about
this. Your main witnesses, Dr Quinn and
Halamay [treating pediatricians] are my
witnesses.
Ex. 3.5 Immediately after receiving this email,
the
Department
dismissed
the
dependency petition without conditions.6 The
criminal charges were also dismissed within
days “due to evidence discovered after the
time of filing.”
It is evident from the records in the
underlying cases, much of which is described
in the materials submitted by the defendants,
that multiple experts are willing to testify in
person or via affidavit that the SCH doctors
fell well below the standard of care by ignoring
J.L.’s medical history and rejecting the
diagnoses and successful treatment plans of
5 The father’s attorney, David Hoekendorf, stated that
the father was in full agreement with unconditional
dismissal of the dependency and that “it appears as if
DCFS intervention was not necessary in this matter.”
Ex. 3.
6 The AAG, David La Raus, had advised earlier that
since he had now “seen the records showing (contrary to
what was reported by the SCAN team report) that mom
did take J.L. in to SCH ER on 10/20, and they did
release J.L. to go home” (emphasis added), the
Department may be amenable to dismissing the case if
the parents agree to provide proper care for J.L. (which
we had always done).

93a
Appendix J
the treating doctors and therapists who were
monitoring his progress carefully, causing
great harm to J.L. and his family. Because the
mother, who speaks Chinese and has no legal
training, was not able to provide affidavits on
demand, or even to understand what they
were or why they were needed, she asked for
a continuance to obtain an attorney, which
was denied. If the Court wishes to revisit this
issue, a continuance should be granted so that
formal affidavits may be obtained.
Interest of justice. It is not in the interest
of justice to dismiss the parents’ claims
against the doctors who set in motion the
events that have caused serious damage to
J.L. and his family. It would, however, be an
even more extreme miscarriage of justice to
dismiss the children’s complaints with
prejudice when they have had no opportunity
to present their claims and their statute of
limitations will not run for more than a
decade. This miscarriage of justice is
particularly great in view of the extreme and
irreparable harm that both children - but
especially J.L. - have suffered and will
continue to suffer in the decades to come.
Respectfully submitted,
/s/ Susan Chen
Susan Chen, Pro Se Plaintiff
P.O. Box 134 Redmond, WA 98073

Date: March 24, 2017.

94a
Appendix K
NO.79685-2

COURT OF APPEALS FOR DIVISION 1
STATE OF WASHINGTON
SUSAN CHEN et al
Plaintiffs /Respondents / Cross-Appellants
v.
DARREN MIGITA, M.D., IAN KODISH, M.D.
JAMES METZ, M.D.,
Defendants/Appellants / Cross-Respondents

SEATTLE CHI’DREN'S HOSPITAL
Defendants / Cross-Respondents

RESPONDENTS/CROSS-APPELLANTS’
RESPONSE AND OPENING BRIEF

Susan Chen pro se appellant
PO BOX 134, Redmond, WA 98073
(323)-902-7038
t a n na nna n@amail.com
ORAL ARGUMENT REQUESTED

95a
Appendix K

TABLE OF CONTENTS
TABLE OF AUTHORITIES

IV

I.INTRODUCTION106
...1
A This appeal is premature because the order
vacating a pre-discovery and pre-trial summary
106
judgment is interlocutory and unappealable
B.This appeal is frivolous in that Appellants ask this
Court to reinstate a decision that they conceded had
110
legal errors
RESPONDENTS/CROSS-APPELLANTS’
II
113
ASSIGNMENTS OF ERROR
A. Assignments of Error

113

B. Statement of Issues...

114

III. RESTATEMENT OF THE CASE

116

A.SCH Physicians failed to provide an accurate
procedural and factual history, as required by RAP
116
10.3 (a) (5)
B.J.L. is a minor with complicated medical history,
including a diagnosis of autism in 2012 and medical
history of distress that was well-documented before
120
he was wrongfully removed in October 2013
C.The Dependency Court found it “outrageous” that
the attending physician, Darren Migita’s below
standard care. Attorney General concluded that
James Metz’s report (main resource of factual
statement in SCH Physicians’ brief) was “contrary”
122
to medical record

96a
Appendix K
D.Judge Hollis Hill denied Chen’s very first request
for continuance to conduct discovery while discovery
cut off is still six months away and instead granted
SCH physicians’ motion for summary judgment. 124
IV. ARGUMENT IN RESPONSE TO OPENING
129
BRIEF
A.The standard of Review is abuse of discretion SCH has waived any challenge that Judge Schubert
abused his discretion in complying supreme Court
129
precedent.
B.Judge Schubert properly exercised his discretion
in finding that the summary judgment order was
ambiguous and constitutes “a question of regularity
130
of the proceedings.”
C.SCH Physicians’ novel argument that a trial
lacking personal jurisdiction has authority to further
adjudicate on the merits, directly conflicts with the
Supreme Court’s holding in Nw Magnesite Co. and is
not supported by their own citations or their
previous position in the underlying summary
133
judgment
D.SCH Physicians fail to perfection a complete
record, Judge Schubert’s finding is required to be
treated as verities that was uncontested by SCH
137
Physicians at the hearing
E.Judge Schubert properly vacated the decision, as
140
was within his sound discretion
F.SCH Physicians improperly ask this Court to
reinstate an order that concededly ambiguous and
144
clearly erroneous
V.
ARGUMENT
APPEAL. 146

SUPPORTING

CROSS­

97a •
Appendix K
A. Judge Hill’s March 3, 2017 Order should be
reviewed de novo, with all allegations in the
146
complaint being treated as factually correct.
B. Judge Hill abused her discretion in failing to grant
a continuance to allow Plaintiffs tol49conduct
149
discovery
1. Judge Hill deprived Plaintiffs of their rights to a
149
full record and an impartial tribunal
2. The primary consideration on grant a continuance
150
is justice
C.Procedural irregularities affected ordinary process
of the proceedings, resulting in an injustice and
151
meriting vacation of the summary judgment.
D. Judge Hill erred in failing to comply with mandate
of guardian ad litem to protect minors’ interest.. 152
E. Judge Hill erred in granting Appellant physicians’
157
motion for summary judgment
1. Appellant SCH physicians bore the initial burden
of showing the absence of an issue of material fact.
157
2. SCH and SCH Physicians had not met their initial
160
burden of showing that there are no
issues of material fact; hence, the grant of summary
160
judgment was improper
3. Procedural irregularities require setting aside
163
summary judgment
4. In light of this Court’s decision in State v. LG, the
164
court was required to treat all the
factual allegations as true if a summary judgment
164
was brought challenging jurisdiction

98a
Appendix K
prior to discovery

164

F. Judge Schubert erred in not vacating summary
judgment as to SCH, which had withheld critical
168
medical evidence from the trial court
VI. CONCLUSION
CERTIFICATE OF SERVICEError!
not defined.

170
Bookmark

99a
Appendix K
TABLE OF AUTHORITIES
Washington Court Cases
Anderson v. Dussault,
181 Wn. 2d 360, 333 P.3d 395 (2014)

.passim

Arkison v. Ethan Allen, Inc.,
160 Wn.3d 535, 538, 160 P.3d 13 (2007)

23

Barr v. MacGugan,
119 Wn. App. 43, 78 P.3d 660 (2003)......

31

Bulzami v. Dep't of Labor & Industries,
72 Wn. App. 522, 525, 864 P, 2d 996 (1994) ...25
CTVC of Haw. Co. u. Shinawatra,
82 Wn. App. 699, 708, 919 P.2d 1243 (1996)

33

Butley v. Joy,
116 Wn. App. 291,199, 65 P.3d 671 (2003)..,

34

Byron Nelson Co. v. Orchard Mgmt. Corp.,
95 Wn. App. 462, 467, 975 P.2d 555 (1999)....... 33
Chaffee v. Keller Rohrback LLP,
200 Wm. App. 66, 76-77, 21, 401 P.3d 418 (2017).3
Clapp v. Olympic View Pub. Co.,
137 Wn. App. 470, 476, 154 P.3d 230 (2007)

47

Coggle v. Snow,
56 Wn. App. 499, 508, 784 P.2d 554 (1990).19, 35
Columbia Asset Recovery Grp., LLC v. Kelly,
177 Wn. App. 475, 483, 312 P.3d 687 (2013) ...32

100a
Appendix K
Curtis v. Lein,
169 Wn.2d 884, 239 P.3d 1078 (2010)

41

Dependency of A.G.,
93 Wn. App. 268, 968 P.2d 424 (1998) ...31, 36
DeYoung v. Providence Medical Center,
136 Wn.2d 136, 141, 960 P.2d 919 (1998)....... 36
Dowler v. Clover Park Sch. Dist. No. 409,
172 Wn.2d 471, 484, 258 P.3d 676 (2011)

9

Farmer v. Davis,
161 Wn. App. 420, 433, 250 P.3d 138 (2011).....23
Freestone Capital Partners LP v. MKA Real Estate
Opportunity Fund I, LLC,
155 Wn. App. 643, 653, 230 P.3d 625 (2010).33, 39
Fox v. Sunmaster Prods., Inc.,
115 Wn.2d 498, 503, 798 P.2d 808(1990) ....3, 11
Hall v. McDowell,
6 Wn. App. 941, 944, 497 P.2d 596 (1972)..... 43
Harbison v. Garden Valley Outfitters, Inc.,
69 Wn. App. 590, 595, 849 P.2d 669 (1993)...... 33
Harbeson v. Park-Davis, Inc.,
98 Wn.2d 460, 468, 656 P.2d 483 (1983)........... 40
Hartley v. State,
103 Wn.2d 768, 774, 698 P.2d 77 (1985).....40,44
Hash v. Childrens Orthopedic Hosp.,

101a
Appendix K
49 Wn. App. 130, 741 P.2d 584 (1987)

40, 43

Hewitt v. Hewitt,
78 Wn. App. 447, 451-52, 896 P.2d 1312 (1995).33
In re Estate of Lint,
135 Wn.2d 518, 531-32, 957 P.2d 755 (1998) ..25
In re Marriage of Yocum,
73 Wn. App. 699, 703, 870 P.2d 1033 (1994) ..33
In re Marriage of Maddix,
41 Wn. App. 248, 251-52, 703 P.2d 1062 (1985)..23
In re Marriage of Robinson,
159 Wn. App. 162,170, 24, 248 P.3d 532 (2010) 22
Keck u. Collins,
181 Wn. App. 67, 87-88, 325 P.3d 306 (2014)... 34
LaPlante v. State,
85 Wn. 2d 154, 158, 531 P.2d 299 (1975).

41

Lewis v. Bours,
119 Wn.2d 667, 670, 835 P.2d 221 (1992)

33

Lindsay Credit Corp. v. Skaperud,
33 Wn. App. 766, 772, 657 P.2d 804 (1983)...2, 11
Little v. King,
160 Wn.2d 696, 161 P.3d 345 (2007).........

19,21

Mackay v. Acorn Custom Cabinetry, Inc.,
127 Wn.2d 302, 311 898 P.2d 284 (1995)
Maybury v. City of Seattle,

29

102a
Appendix K
53 Wash.2d 716,721, 336 P.2d 878 (1959)... 1, 2, 6
MBM Fisheries, Inc. v. Bollinger Mach. Shop &
Shipyard, Inc.,

33

60 Wn. App. 414, 418, 804 P.2d 627 (1991)
Mendoza v. Neudorfer Eng’rs, Inc.,

36

145 Wn. App. 146, 185 P.3d 1204 (2008)...
Mezere v. Flory,

31

26 Wn. 2d 274, 173 P.2d 776 (1946)........
Morgan v. Burks,

17 Wn. App.193, 197, 563 P.2d 1260 (1977)...4, 27
Morris v. Mcnicol,
43

83 Wn.2d 491, 496, 519 P.2d 7 (1974)
Newell v. Ayers,
23 Wn. App. 767, 598 P.2d 3 (1979).....

31, 36

Olpinski v. Clement,
73 Wn.2d 944, 951, 442 P.2d 260 (1968)

48

Parentage of Ruff,
168 Wn. App. 109, 116, 12, 275 P.3d 1175 (2012)22
Pilcher v. Dep't of Revenue,
112 Wn. App. 428, 435, 49 P.3d 947 (2002)..

26

Precision Lab. Plastics, Inc. v. Micro Test, Inc.,
96 Wn. App. 721, 725, 981 P.2d 454 (1999)......... 33
Preston v. Duncan, 56 Wn.2d 678 (1960)......
Putman v. Wenatchee Valley Med. Ctr., P.S.,

42

103a
Appendix K
166 Wn.2d 974, 983, 216 P.3d 374 (2009)30, 34, 41
Raymond v. Robinson,
33

104 Wn. App. 627, 633, 15 P.3d 697 (2001)
Roberson v. Perez,
123 Wn. App. 320, 96 P.3d 420 (2004)

48, 49

Rossiter v. Moore,
59 Wn. 2d 722, 370 P.2d 250 (1962).............

41

Schroeder v. Weighall,
316 P.3d 482, 489 (Wash. 2014).................... 5, 37
SeaHAVN, Ltd. v. Glitnir Bank,
154 Wn. App. 550, 563, 226 P.3d 141 (2010)

33

Shaffer v. McFadden,
125 Wn. App. 364, 370, 104 P.3d 742 (2005)... .33
Stale u. AU Optronics Corp.,
180 Wn. App. 903, 912, 328 P.3d 919 (2014)....33
State v. Douty,
92 Wn. 2d 930 603 P.2d 373 (1979).....

31,38

State v. Hall,
35 Wn. App. 302, 666 P.2d 930 (1983)

31

State v. Kingman,
77 Wn.2d, 551, 463 P.2d 638 (1970)

20

State v. LG Elecs., Inc.,
185 Wn. App. 394, 406, 341 P.3d 346 (2015).32, 45
State u. Merrill,

104a
Appendix K

183 Wn. App. 749, 755, 335 P.3d 444 (2014)

26

State v. Nw. Magnesite Co.,
28 Wn.2d 1,182 P.2d 643 (1947)............. passim
State v. Scott,
92 Wn.2d 209, 212, 595 P.2d 549 (1979)

4

Tank v. State Farm,
105 Wn.2d 381, 385, 715 P.2d 1133 (1986).......47
Turner v. Kohler,
54 Wn. App. 688, 693, 775 P.2d 474 (1989) (CP
485, 506, 534).......................................... 33
Wampler v. Wampler,
25 Wn.2d 258, 170 P.2d 316 (1946)

22

Weyerhaeuser v. Tacoma- Pierce County Health Dept,
123 Wn. App. 59, 65, 96 P. 3d 460 (2004)

25

Whaley v. State,
90 Wn. App. 658, 668, 956, P.2d 1100 (1998)43,46
Young v. Key Pharm., Inc.,
112 Wn. 2d 216, 225, 770 P.2d 182 (1989) review
40
denied, 118 Wn.2d 1023 (1992)....
Federal Cases
Armstrong v. Manzo,
380 U.S. 545, 552, 14 L.Ed. 2f 62, 85 S. Ct. 1187
38
(1965)............................................. ............................
Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306, 313, 70 S.Ct. 652 (1950)...........

38

105a
Appendix K
Walden v. Fiore,
U.S.
2d 12 (2014)

, 134 S. Ct. 1115, 1119 n.2, 188 L. Ed.
32
Other authorities

Philip A. Trautman, Motion for Summary Judgment:
Their Use and Effect in Washington 45 Wash. L. Rev.
42
1, 15 (1970)
Love v. State, #46798-4-11, unpublished opinion
(2016)........................................................................... 45
Statutes
15, 40, 46, 47
RCW 26.44.060 (1) & (4)........
.............. 8, 36
RCW 4.08.050 ..........................
40
RCW 7.70.040............................
41
Doctrine of Res Ipsa Loquitur
Court Rules
CR 5 (b)(2)(A)..
CR 11 (a) (4) ..
CR 12 (b)(2)....
CR 41 (a)(4).....
CR 41 (b) (3)....
CR 52 (a)(1).....
CR 52 (d).........
CR 54 (b).........
CR 56 (c) & (£)..
CR 60................
RAP 2.2 (a).....
RAP 2.2 (d).....
RAP 2.3 (b)......

7,44
..... 4, 7, 8, 15
32, 39, 45, 46
...............8, 29
........8, 20,21
.............. 8, 20
21
2, 11, 17
..passim
. passim
........2,3
..... 2, 11
3

RAP 10.3 (a)(5)

9

Code of Judicial Conduct Rule 2.11 (A)(6)(d).......8, 31

L

106a
Appendix K
INTRODUCTION
I.
A. This appeal is premature because the order
vacating a pre-discovery and pre-trial
summary judgment is interlocutory and
unappealable.
By law in most jurisdictions, an interlocutory
order is generally not accepted for immediate appeal.
In Maybury v. City of Seattle, 53 Wn.2d 716, 721, 336,
P.2d 878 (1959), Washington Supreme Court
declined to grant review of a pre-trial summary
judgment, holding that a pre-trial order is
“interlocutory” and “[o]nly a final judgment may be
appealed.” The Maybury Court explicitly pointed out
that, “Piecemeal appeals of interlocutory orders
must be avoided in the interests of speedy and
economical disposition of judicial business,” because
“[i]t is not the function of an appellate court to inject
itself into the middle of a lawsuit and undertake to
direct the trial judge in the conduct of the case” and
“[the appellate court] is not in a position to evaluate
properly the correctness of the various interlocutory
rulings of the trial judge.” (citation omitted).
Judge Ken Schubert’s January 28, 2019 order is
interlocutory. Darren Migita, James Metz, Ian
Kodish (collectively “SCH physicians”)’s appeal is
premature. By clearing the procedural irregularities
and vacating an ambiguous pre-discovery and pre­
trial summary judgment, Judge Schubert puts the
case back into pre-summary judgment, pre-discovery
and pre-trial mode, leaving all the disputes
unresolved and unaddressed. Judge Schubert writes,
“[t]he parties (and the appellate court) are entitled
to know the legal effect of this Court’s orders...The

107a
Appendix K
silence of this Court’s orders in that regard creates a
question of regularity of the proceedings that
justifies relief from the operation of those orders.
Accordingly, this Court GRANTS the motion for
reconsideration.”. Judge Schubert’s order does not
discontinue the action or put an end to the case, nor
does he dispose any of the claims. SCH Physicians’
rights are not affected: their rights to appeal are not
deprived, they can bring summary judgment again.
At the same time, Ms. Chen are afforded an
opportunity to conduct discovery.
RAP 2.2 (a) (10) does not automatically provides
an appeal right. SCH Physicians’ reasoning that
RAP 2.2 (a) (10) guarantees a right to appeal does not
make any sense. - if the right to appeal can be easily
obtained through an order on motion to vacate,
litigants will be motivated to file frivolous motions to
vacate any trial court decisions, only aiming to
obtain an appeal right, which is at odds with the
Maybury Court’s holding that “[t]he orderly
administration of justice demands that we refrain
from reviewing pretrial orders in advance of trial”.
Indeed, this Court declined to accept for a review on
a series of orders including order on motion to vacate.
See, this Court’s decision in #64832-2-1.
In a case involving multiple parties and multiple
claims, partial decision is not a final decision. RAP
2.2 (d) and CR 54 (b) apply to cases involving
multiple parties and multiple claims. Absent
certification as required by CR 54 (b) and RAP 2.2 (d),
an interlocutory decision not resolving all claims and
all parties is not appealable as a matter of right.
Lindsay Credit Corp. v. Skaperud, 33 Wn. App. 766,
772, 657 P.2d 804 (1983). Consistent with
Washington case laws, this Court has consistently

108a
Appendix K
declined to review an interlocutory decision not
disposing all claims. For example, in No. 73815-1-1,
Commissioner Kanazawa dismissed a premature
appeal after briefing. In 2017, this Court declined to
accept for review of the underlying summary
judgment order “not disposing of all claims as to all
the parties”. See Ruling on #76824-7-1.
There is no dispute that Judge Schubert’s order
is interlocutory because it was “intervening between
the commencement and the end of a suit which
decides some point or matter but is not a final
decision of the whole controversy.” BLACK’S LAW
DICTIONARY 731 (5th ed. 1979). Multiple claims
and disputes remain in this case but Judge
Schubert’s order addresses none of them, except for
clearing
the
procedural
ambiguities
and
irregularities, leaving multiple issues unresolved
and unaddressed moving forward. Judge Schubert’s
order does not end the action, it is thus interlocutory
in nature, which SCH Physicians did not dispute in
their Answer before the supreme court in #97526-4.
Indeed, they conceded in their Answer in #97527-2
that “[an interlocutory order] was not appealable and
the trial court retained authority to ‘revisit
interlocutory orders’ in order ‘to correct any mistakes
prior to entry of final judgment.’ Chaffee v. Keller
Rohrback LLP, 200 Wm. App. 66, 76-77, 21, 401 P.3d
418 (2017). SCH Physicians did not cite even one
single case holding that an interlocutory decision not
disposing of the claims of all parties had ever been
accepted for appeal as of right under RAP 2.2 (a) in
Washington courts.
Although discretionary review may be requested
under RAP 2.3, such piecemeal review is highly
disfavored. Fox v. Sunmaster Prods., Inc., 115 Wn.2d

109a
Appendix K
498, 503, 798 P.2d 808(1990). An interlocutory
decision such as the one presented here will not be
reviewed unless the trial court committed an obvious
error which would render further proceedings
useless, or committed a probable error that
substantially alters the status quo or limits the
freedom of a party to act, or significantly departs
from the accepted and usual course of proceedings.
RAP 2.3 (b).
Judge Schubert did not commit an obvious error
in deferring to the Supreme Court’s decision in State
v. Nw. Magnesite Co., 28 Wn.2d 1,182 P.2d 643
(1947), a controlling precedent. The trial court’s
decision does not render further proceedings useless,
substantially alter the status quo, or substantially
limit he freedom of a party to act within the meaning
of that rule. Instead, under his decision, the
remaining claims proceed to resolution, at which
point either party may appeal from the final
judgment in the ordinary and usual manner.
Appellant physicians’ rights are not affected for
being denied a premature appeal. As Supreme Court
Commissioner Walter Burton pointed out, “As
[Appellant] does not have a right at this point...once
a final judgment is entered... [appellant] may appeal.
That there may be delay om the entry of final
judgment does not alter the fact that there is
currently no appealable final judgment...”. See,
Ruling in #94547-1 (Court of Appeals No. 73815-1-1).
In light of the foregoing, Respondents respectfully
ask this Court to dismiss this premature appeal.

110a
Appendix K
B. This appeal is frivolous in that Appellants ask
this Court to reinstate a decision that they
conceded had legal errors.
This is a frivolous appeal. It has long been the
rule in Washington that motion to vacate and motion
for reconsideration are addressed to the sound
discretion of the trial court, whose judgment will not
be disturbed absent a showing of a clear or manifest
abuse of that discretion. Morgan u. Burks, 17
Wn.App. 193, 197, 563 P.2d 1260 (1977); State v.
Scott, 92 Wn.2d 209, 212, 595 P.2d 549 (1979). The
SCH Physicians explicitly avoid identifying the
Throughout the
appropriate standard for review,
brief, SCH Physicians’ purported arguments relied
solely upon misrepresenting Judge Schubert’s order.
Specifically, Appellant physicians (mistakenly)
alleged Judge Schubert vacated the summary
judgment on grounds of “error of law” but these
words were not at all present in the order. Instead,
Judge Schubert explicitly articulated, “[t]he silence
of this Court’s order in that regard creates a question
of regularity of the proceedings...”. Judge Schubert
properly exercises his discretion on vacating an
procedural
constituting
order
ambiguous
irregularity, which affects “how the court proceed”
(RP 19). SCH Physicians cite no authorities to show
that Judge Hill’s failure is regular, and
unambiguous, nor did they cite any cases to show
that Judge Schubert abuses his discretion in
following a controlling precedent. SCH Physicians
conceded, moreover, that Judge Hill’s order was
erroneous in multiple instances. In just one example,
SCH Physicians admitted Judge Hill committed an
error of law” (RP 49, 52) at failing to strike Chen’s
a CR 11 mandatory
unsigned complaints

111a
Appendix K
requirement. RP 46-48. Judge Schubert pointed out
that, “if the complaint is stricken, then you never
reach the merits” (RP 47), and that CR 11 is
“mandatory” (RP 48). SCH Physicians did not
dispute Judge Schubert’s conclusion, and conceded
“[t]hat’s an error of law.” RP 52.
Appellant SCH Physicians were fully aware that
Judge Hill erred in rendering judgement against
minors absent appointment of guardian ad litem. In
Anderson v. Dussault, 181 Wn. 2d 360, 333 P.3d 395
(2014), a six-year-old minor, Rachel, represented by
SCH Physicians’ present counsel, specifically
articulated,
“Rachel cannot be denied her day in court through
no “fault” of her own but her age. See Schroeder v.
Weighall, 316 P.3d 482, 489 (Wash. 2014) (statute
that eliminate tolling of minors’ medical malpractice
claims was unconstitutional because it “place [d] a
disproportionate burden on the child whose parent
or guardian lacks the knowledge or incentive to
pursue a claim on his or her behalf...It goes without
saying that these groups of children are not
accountable for their status.”).”
The Supreme Court held in Anderson that
absence of guardian ad litem who could receive
notice, minor’s statute of limitation was tolled. Here,
the trial court did not appoint guardian ad litem even
after the issue was brought to its attention (CP 524525, 563, 771). Here, both J.L. and L.L. are under ten.
Should these two minors be denied their court day
through no fault of their own but their age?
What is remarkable in the Appellant SCH
Physicians’ brief is their failure to address
arguments they made before the trial court to obtain

1

112a
Appendix K
summary judgment. These arguments at summary
judgment were than the lack of signature on two of
the complaints rendered the complaints void ab
initio. Thus, they stated that,
•
•
•
•

•
•

“If the original complaint is void, there is nothing
to amend (CP 302).”
“Something that is “void” has no legal effect.” (CP
303).
“the filing of a void complaint does not commence
a civil action.” CP 304.
“the complaint Plaintiff seeks to amend does not
exist, it is a nullity because it was void ab initio
and “there can be no ‘relation back’ to a
pleading... that was a nullity from the start” CP
304.
Plaintiffs’ complaints should be dismissed
“because they were void ab initio, and therefore,
they failed to confer subject matter jurisdiction
upon this Court.” CP 305.

Appellant SCH Physicians claimed that since the
complaints were void ab initio and the statute of
limitations has now run, the claims must be
dismissed in their entirety. However, this reasoning
applies only to the parents. As SCH recognized in its
response (CP 639), the statute of limitations for the
children does not begin to run until the children
reach the age of majority [in Washington, age 18]. CP
639. It is contrary to law for the Court to deny the
children an opportunity to present their claims at all.
If the children’s complaints are void, they have not
legally filed any actions, and have many years left to
do so.
By filing this frivolous appeal, SCH Physicians
apparently placed themselves in an above-the-law

113a
Appendix K
position: Notwithstanding the controlling precedent,
SCH Physicians ask this Court to disregard Judge
Schubert’s decision which is consistent with
controlling precedent NW Magnesite Co., and to
reinstate Judge Hill’s order which they know (and
have admitted) to constitute “error of law”.
This is a case involving multiple parties and
multiple claims. Judge Schubert’s order does not
resolve the claims as to all parties and is
unappealable. In Maybury v. City of Seattle, 53
Wash.2d 716,721, 336 P.2d 878 (1959), the Supreme
Court explicitly announces, “It is not the function of
an appellate court to inject itself into the middle of a
lawsuit and undertake to direct the trial court judge
in the conduct of the case”. Ms. Chen respectfully
asks this Court to dismiss this inappropriate appeal,
or in the alternatively, affirm the decision vacating
summary judgment as to SCH Physicians, and
reverse the summary judgment as to SCH.
II RESPONDENTS/CROSS-APPELLANTS’
ASSIGNMENTS OF ERROR
A. Assignments of Error
1. Judge Schubert abused his discretion for failing to
vacate all irregularities in Judge Hill’s order,
including summary judgment in favor of SCH. CP
889. In particular:
a. The trial court abused its discretion when it
failed to vacate the summary judgment order after
learning (i) that the issue of a lack of a guardian
ad litem had been raised but not addressed; (ii)
the children’s interests were clearly not being
adequately represented.

114a
Appendix K
b. The trial court abused its discretion when it
failed to vacate the summary judgment order after
considering the irregularities associated with the
failure to abide by multiple rules and local rules
governing its procedures such as CR 56 (c) & (f),
CR 5 (b)(2)(A), CR 11 (a)(4).
c. The trial court abused its discretion when it
failed to vacate the summary judgment order
based on Judge Hill’s failure to grant a
continuance of the summary judgment hearing
when Respondent/Chen moved for an extension of
time more than six months before the discovery
cutoff.
d. The trial court abused its discretion when it
failed to vacate the summary judgment order in
whole based on Judge Hill’s failure to recuse
herself from the case based on previously
presiding over the Respondent/Chen’s dependency
case.
2. In addition to the assignment of errors in the
underlying summary judgment order as stated in 1,
Judge Hill also erred in granting SCH and SCH
Physicians’ summary judgment when their initial
burden as moving party had not been met.
B. Statement of Issues
1. Standard of Summary judgment (AOE No. 1 &2)
a. Are Plaintiffs obligated to produce facts to show
the presence of an issue of material fact when
Defendants had not met their initial burden of
showing the absence of an issue of material fact?

115a
Appendix K
b. Did Judge Hill err in granting summary
judgment when the records show that there were
genuine issues of material fact?
c. Did Judge Hill err in denying a continuance for
Plaintiffs to conduct discovery and obtain expert
affidavit in opposition to summary judgment,
when Defendants suffered no prejudice since
discovery cutoff was six months away, deadline for
dispositive motion was seven months away?
2. Due Process Rights, Guardian ad Litem Statute
(RCW 4.08.050) (AOE No. 1 &2)
a. Were the minors parties to the action when they
were not appointed (and represented) by guardian
ad litem who could receive notice of the
proceedings?
b. Were the minors properly before the court
where there was no evidence that minors were
ever personally served?
3 Ambiguous Order and procedural irregularities
(AOE No. 1 &2)
a. Should Judge Hill’s order be interpreted as
“without prejudice” in light of CR 41 (a)(4)?
b. Should Judge Hill’s order be interpreted as
“without prejudice” in light of CR 41 (b) (3) and CR
52 (a)(1) when no entry of findings to support a
dismissal on merits?
c. Should Judge Hill’s order be interpreted as
“without prejudice” in light of supreme court’s
decision in State v. Nw. Magnesite Co., 28 Wn.2d
1, 182 P.2d 643 (1947)?

116a
Appendix K
d. Should the court dismiss with prejudice or
strike the unsigned pleadings in light of CR 11?
4. Code of Judicial Conduct (AOE No. 2)
a. Should Judge Hill have disqualified herself
from the case under Code of Judicial Conduct Rule
2.11 (A)(6)(d) since she “previously presided as a
judge over the matter in another court”?
III. RESTATEMENT OF THE CASE
A. SCH Physicians failed to provide an accurate
procedural and factual history, as required by
RAP 10.3 (a) (5).
RAP 10.3 (a) (5) requires “a fair statement of the
facts and procedure relevant to the issues presented
for review.” SCH Physicians’ statement of facts was
comprised of six pages’ factual background (BR 3-8)
and thirteen pages’ procedural history (BR 9-21).
SCH Physicians’ so-called factual background rely
almost entirely (see, BR 3-7) upon the misstatement
made by James Metz which both Assistant Attorney
General and three King County prosecutors
determined to be contrary to J.L.’s medical record.
CP 264. 786. Indeed, the state and the prosecutors’
dismissal decision were mainly due to the finding
that James Metz significantly misrepresented the
facts. In the March 3, 2017 Orders granting
summary judgment, the trial court provides no
factual background relevant to this case, and
unbelievably, SCH now use information they’ve
known to be false to mislead this Court, in violation
of RPC 3.3 (“Candor towards the tribunal”). Ms.
Chen presents these relevant facts.

117a
Appendix K
Since Ms. Chen and the two minors, J.L. and L.L.
were the nonmoving parties on summary judgment,
the facts must be viewed in the light most favorable
to them. Dowler v. Clover Park Sch. Dist. No. 409,
172 Wn.2d 471, 484, 258 P.3d 676 (2011). But in this
case, this distinction is less important since Ms.
Chen’s account was endorsed by both the state and
the prosecutor’s dismissal of the claims (available as
public record) as well by professional witnesses (see,
e.g., Declaration of John Green, M.D., CP 829-831,
and Twyla Carter, WSBA No. 39405, CP 700-804)
and the declaration of Ms. Chen (review of J.L.’s 600
pages of medical record that had been withheld by
SCH prior to summary judgment, CP 806-827).
As set forth in the complaint and supporting
documents, in 2013, without consulting with J.L.’s
main treating physicians or reviewing his medical
history available in their own institution, i.e., Seattle
Children’s Hospital (“SCH”), the SCH physicians
jumped to several medical conclusions including but
not limited a conclusion that J.L. was abused by his
mother, Ms. Chen who was subsequently arrested
and criminally charged. J.L. and his brother L.L.
were removed out of home, e.g., CP 188. At the initial
hearing, the Dependency Court found it “outrageous”
that SCH Physicians never tried to talk with parents,
and J.L.’s main treating physicians and had to order
Darren Migita talk with Dr. Green. CP 106, 234, 803,
830. Darren Migita misrepresented J.L.’s condition
to the Court by citing an outdated labs number. CP
802, 817. “The Dependency Court relied upon Darren
Migita’s testimony that J.L. was diagnosed as
malnourished and Migita’s misrepresentation about
J.L.’s ability to consume and absorb foods”. CP 803
(Attorney witness/Carter Deck). Dependency and

118a
Appendix K
criminal prosecution were dropped with a conclusion
from the state that SCH Physicians’ statements were
directly contrary to the facts in J.L.’s medical record.
CP 264. 815-816. Also, CP 800 Attorney witness/
Carter Decl. (“It readily apparent that the medical
providers with the most experience with Ms. Chen
and J.L. and the most knowledge with J.L.’s health
and well-being, who were all mandatory reporters,
all strongly supported Ms. Chen and denied that Ms.
Chen was responsible for J.L’s condition. It was also
apparent that the providers (Dr. Halamay and three
defendant physicians from Seattle Children’s
Hospital) connected to the original CPS report and
J.L.’s removal had little to no experience with J.L. or
knowledge of his situation, and rushed to inaccurate
judgment based on inaccurate assumption.”).
Unfortunately, these rightful dismissals came
far too late, after more than a year of the family
having been torn apart and everyone in the family
having suffered tremendous harm. These harms
would not have happened if the SCH physicians had
adequately investigated J.L.’s medical history and
consulted with main treating physicians, or even
reviewed his medical records at their own institution.
Instead, they misstated the facts to the state and
later the court. As a result of their reckless
misdiagnosis - which they failed to correct -J.L. not
only regressed but lost all the abilities he had
previously achieved through appropriate care for his
autism and GI difficulties (below). At age 9, he is still
in diapers, cannot speak, and scream uncontrollably,
sometime for hours, at any actual or possible
separations from his parents. CP 893, also CP 768775. Given the severity of the damages, Chen sued
detective who participated in the proceedings, the

119a
Appendix K
federal court after reviewing the merits of the case,
decided to appoint counsel to assist with the
litigation, Dorsey & Whitney took the representation
in the federal case while Chen pro se sought legal
redress against SCH and SCH Physicians in state
court. In state court, no guardian ad litem was
appointed (CP 524-525), two complaints were
unsigned (CP 209, 221 302, 525), no discovery was
conducted before the trial court judge Hollis Hill
(who also presided Chen’s dependency matter three
years ago) granted SCH Physicians’ pre-discovery
summary judgment relying upon 20 pages’ medical
records. The order was silent in language whether
the order was with or without prejudice, CP 558-560)
and Judge Hill further denied Chen’s motion for
clarification, again silent in the order. This Court did
not accept Chen’s appeal (#76824-7-1) because an
interlocutory decision is not appealable as of right.
RAP 2.2 (d), CR 54 (b). Fox v. Sunmaster Prods., Inc.,
115 Wn.2d 498, 503, 798 P.2d 808 (1990); Lindsay
Credit Corp. v. Skarperud, 33 Wn. App. 766, 772, 657
P.2d 804 (1983). Chen later dismissed the remaining
defendants and appealed for the summary judgment
which was accepted by this Court. While the appeal
was pending, Chen obtained J.l.’s 600 pages’ medical
records through the separate federal action and
moved for a CR 60 motion to vacate before Chief Civil
Judge Ken Schubert who granted Chen’s motion for
reconsideration to vacate March 3, 2017 summary
judgment as to SCH Physicians (Darren Migita,
James Metz, Ian Kodish) on grounds of procedural
irregularities, but not SCH. SCH Physicians now
appeal Judge Schubert’s order vacating partial
summary judgment.

120a
Appendix K
B. J.L. is a minor with complicated medical
history, including a diagnosis of autism in
2012 and medical history of distress that was
well-documented before he was wrongfully
removed in October 2013.
Contrary to their assertion, J.L.’s complicated
medical history preceded October 20, 2013 and was
well-known to SCH. J.L. was diagnosed as autism by
Lakeside Autism Center in September 2012, and
further suffered from the extensive gastrointestinal
(“GI”) and digestive problems which are often
associated with autism. CP 260. Before the unlawful
CPS removal occurred on October 24, 2013, his
history of GI problems was well documented at SCH.
Id. He received care for autism and digestive issues
from multiple providers, including Dr. John Green
and Dr. Gbedawo who specialize in these issues.
With a variety of early interventions, including ABA
(Applied behavior and analysis), speech and
occupational therapy, J.L. made significant progress
- he was responsive and generally cheerful, he could
communicate, and he could figure out how to solve
the problems. CP 254, 892. His GI problems were
addressed through SCD diet, which is endorsed by
Dr.
David
Suskind,
a
leading
pediatric
gastroenterologist at SCH. SCD is a dietary regime
used to limit a certain type of carbohydrates to treat
GI problems. In a 2013 publication in the Journal of
Pediatric Gastroenterology and Nutrition, Dr.
Suskind and his colleagues wrote that in one case
using SCD treating pediatric digestive disease, “all
symptoms were notably resolved at a routine clinic
visit three months after initiating the [SCD] diet.” In
a 2018 publication, the authors (Dr. Suskind as the
first author) concluded, “SCD therapy in IBD

121a
Appendix K
(inflammatory bowel disease) is associated with
clinical and laboratory improvements as well as
concomitant changes in the fecal microbime.”
On October 20, 2013, J.L.’s parents sought
medical care at the SCH ER because he appeared to
be sick. Several hours later J.L. was released by ER
doctor who determined that, “He does not have
hypertensive emergency at this time and does not
meet the eminent risk criteria for medical hold. We
will discharge him to his parents with close followup
with primary care provider.” CP 424. On the morning
of October 23, 2013, J.L. followed up with his
Primary care physician, Dr Gbedawo who reached
the same conclusion as SCH ER doctor that J.L. is
medically stable such that he only needs to follow up
with her in ten days. CP 233. Later that day, J.L.’s
parents took him to follow up with Dr. Kate Halamay
at Pediatric Associates, as advised by SCH ER doctor.
Dr. Halamay was not J.L.’s PCP but was an urgent
care provider who saw J.L. three times and was not
familiar with his conditions. Id. When Ms. Chen
complained Dr. Halamay about her rudeness, Dr.
Halamay filed a CPS referral, alleging (falsely) that
J.L. had “life-threatening” kidney failure and needed
to be urgently removed. She omitted that J.L. was
just released from SCH ER and that this was a
routine follow up in accordance with SCH instruction.
Id. Halamay later admitted to the defense attorney
Ms. Twyla Carter that her CPS referral cannot be
supported by medical facts in J.L’s medical records.
CP 800-801. That night, a CPS social worker (Brian
Davis) was assigned to remove the child from the
family. Davis visited the family and described J.L. as
“sleep peacefully and soundly”. Id At SCH, it was
quickly determined that Halamay’s allegation of

122a
Appendix K
“kidney failure” was baseless since his “creatine” (a
number for kidney function) was 0.5, clinically
normal number for kidney function. This was
consistent with conclusion of SCH ER doctor and Dr.
Gbedawo, J.L.’s regular doctor. Id. Despite these
undisputed findings available to SCH Physicians,
J.L. was removed from his home and placed in foster
care based on the claims of the SCH physicians.
C. The Dependency Court found it “outrageous”
that the attending physician, Darren
Migita’s below standard care. Attorney
General concluded that James Metz’s report
(main resource of factual statement in SCH
Physicians’ brief) was “contrary” to medical
record.
Unknown to the parents, a SCH child abuse
pediatrician, James Metz had pre-arranged a
removal. CP 114.Throughout the CPS removal
action, the three SCH Physicians (Darren Migita,
James Metz and Ian Kodish) operating in
conjunction with the SCAN team at SCH,
disregarded the diagnoses and the treatment plan of
his providers. CP 800. Instead, they alleged that J.L.
was not autistic, that he did not have GI problems
(though Darren Migita prescribed GI medications
during hospitalization as well as at discharge, CP
892), and that his conditions were caused by abuse
and neglect by his mother. Id. CP 769. Appellant and
the attending physician, Darren Migita refused to
consult with J.L.’s parents, treating physicians or
the
misrepresented
repeatedly
therapists,
laboratory results and other findings, and later used
Dr. Russell Migita’s treatment record to obtain a
dismissal in his favor. CP 425), 802 -803, 816.

123a
Appendix K
Appellant James Metz provided a SCAN report full
of falsehood and highly misleading statements that
Attorney General Mr. LaRaus and King County
prosecutors later determined contrary to the medical
records. CP 144-145. 264. Appellant Ian Kodish
submitted a 40-minutes’ mental health evaluation
based upon “largely unknown history” alleging J.L.
has reactive attachment disorder, autism is low on
the differential. CP 147-150. These misdiagnoses
resulted in the removal of both children, almost one
year’s foster home stay for J.L. and the arrest of his
mother, Ms. Chen, e.g., CP 188, 217.
In foster care, J.L. was denied his prescribed
therapy, and his autistic behaviors and GI problems
worsened. Over almost one year, his health, behavior
and skill declined precipitously, to the point where
he lost virtually all skills, and no foster homes would
keep him due to biting, screaming and similar
behaviors. CP 892-3.His treating physicians and
therapists objected vigorously to the diagnoses of the
SCH Physicians and provided testimonies to the
state. Id. J.L. had not been able to regain the skills
that he lost and at age 8 is still in diapers, cannot
speak, and screams uncontrollably, sometimes for
hours, at any actual or possible separation from his
parents. The parents have sought treatment at
Harvard and other medical facilities, at no avail. J.L.
had none of these characteristics before the
misdiagnoses of the SCH Physicians and the
disastrous one year stay at eight different foster
homes, with little therapy and minimal contact with
his parents and brother. Id.
The dependency court found it “outrageous” that
SCH physicians never tried to talk with the minor
patient’s main treating physicians or parents and

124a
Appendix K
ordered Darren Migita to talk with Dr. Green, e.g.,
CP 803, 830. In September 2014, the dependency and
criminal matters were dismissed. The AG, Mr
LaRaus explicitly concluded, “a full review of the
records does indicate (contrary to the SCAN team
report at Children’s) that the mother did not refuse
to admit [J.L.] to the hospital against medical advice
on 10/20/13”. CP 264. The nearly 600 pages of SCH
medical records obtained by Dorsey & Whitney, Ms.
Chen’s assigned counsel by federal court, confirm
that the SCH records alone should have altered the
SCH physicians’ conclusion to J.L.’s conditions and
prevented a misdiagnosis that has left him severely
disabled.
D. Judge Hollis Hill denied Chen’s very first
request for continuance to conduct
discovery while discovery cut off is still six
months away and instead granted SCH
physicians’ motion for summary judgment.
In October 2016, Ms. Chen filed a lawsuit in King
County Superior Court pro se alleging that the three
SCH Physicians misdiagnosed J.L. and their
misrepresentation, below-standard care and false
information led to the adverse out-of-home
placement decision for J.L., causing severe, and
permanent damage to J.L. and his family. CP 185192, 202-209, 215-221. The case Order set discovery
cutoff date on September 5, 2017, deadlines for
disclosure of witnesses on July 3, 2017, trial date on
October 23, 2017. CP 469.
On February 2, 2017, SCH Physicians moved for
summary judgment on grounds that trial court
lacked personal jurisdiction over them due to Chen’s
improper service at their office, rather than their

125a
Appendix K
homes. CP 295-299. Metz and Kodish also claimed
that the unsigned complaints against them should be
dismissed under CR 11. CP 302-305. In a less than
90 words’ affidavit without factual statement
addressing the allegation in the complaint, SCH
Physicians also argued that good faith was
established to trigger immunity under RCW
26.44.060. CP 194-195, 211-212, 223-224, 308-309.
SCH joined in the motion but admitted that SCH
was properly served within 90 days of filing. CP 411.
SCH physicians further unilaterally scheduled the
hearing without checking Ms. Chen’s availability.
Ms. Chen filed a response requesting a
continuance based on grounds: (1) the plaintiffs
were not timely served the documents for motion for
summary judgment and needed more time to review
and prepare for the response; (2) they need time to
conduct discovery; (3) (due to the absence of guardian
ad litem) the parents cannot represent their children;
and (4) they are in the process of obtaining an
attorney. CP 474-480. SCH and SCH Physicians
argued that Ms. Chen, acting pro se, should not be
allowed one continuance.
At the hearing held on March 3, 2017, SCH
Physicians argued that the minors not represented
by guardian ad litem cannot bring an action because
“[minors] are considered incompetent as a matter of
law” CP 524-525. Ms. Chen once again asked a
continuance for discovery under CR 56 (f) and
indicated that if provided a continuance, they would
be able to serve SCH Physicians at their homes,
conduct discovery, and obtain an expert affidavit. CP
547-550. Ms. Chen’s former criminal defense
attorney, Ms. Twyla Carter appeared at the hearing,
identified herself as a witness who was familiar with

126a
Appendix K
the case, and its dismissals, and advocated on the
merits on behalf of access to justice. CP 541-545.
Judge Hill denied Chen’s request for
continuance and entered granted SCH Physicians’
summary judgment against all plaintiffs (Chen and
two minors), silent in language as to whether it is an
order with or without prejudice. CP 558-560. Chen
moved for reconsideration, asking the court to clarify
the order against the minors was “without prejudice”
due to the absence of guardian ad litem. CP 562-564.
In response to SCH Physicians’ argument that the
unsigned complaints and improper service rendered
the complaints void ab initio and the statute of
limitations has now run, the claims must be
dismissed in their entirety (CP 302-305), Chen
pointed out that, “this reasoning applies only to the
parentsCP 772, 895. (emphasis in original). Judge
Hill denied the motion, without no explanation. CP
659-660.
Chen’s first appealed (#76824-7-1) was not
accepted by this Court due to the other pending
defendants, and “absence of finding” required by CR
54. Chen’s second appeal was accepted after
dismissing the remaining defendants.
Chen later obtained J.L.’s 600 pages’ medical
records through a related federal civil action and
moved for a CR 60 motion to vacate March 3, 2017
summary judgment before Chief Civil Judge Ken
Schubert who entered a Show Cause Order. SCH
Physicians objected to the Show Cause Order (an
interim order) arguing that the trial court does not
have authority to hear a CR 60 motion, which was
denied by Judge Schubert. CP 1525-1528. After an
oral argument at the Show Cause Hearing and an

127a
Appendix K
extensive motion practice, on January 28, 2019,
Judge Schubert initially denied but eventually
granted Chen’s motion for reconsideration for order
denying motion to vacate March 3, 2017 summary
judgment as to SCH Physicians (but rwt to SCH) on
grounds of procedural irregularity. SCH Physicians
appealed the January 28, 2019 order. In doing so,
they omitted numerous key points in this case. For
example, they were silent on the following:
•

Darren Migita mispresented to the Dependency
Court that J.L. has no digestive distress, directly
contrary to his own clinical notes, e.g., CP 1255,
1271.

•

SCH Physicians’ medical conclusions were
without consulting with J.L.’s main treating
physicians (whom Appellant SCH Physicians
already knew), and reviewing his medical history.
822.
800,
CP
e.g.,

•

The Dependency Court found it “outrageous” that
Darren Migita’s below-the-standard care and had
to order him to talk with Dr. Green. CP 803, 816,
830.

*

Both Attorney General’s Office and King County
Prosecutor’s office found James Metz’s statement
was “contrary to” the children’s medical records.
CP 264. 815-816.

•

Defendant/Appellant Darren Migita utilized Dr.
Russell Migita’s treatment record to obtain a
summary judgment in his favor while Darren
Migita’s treatment was withheld from the trial

128a
Appendix K
court.

CP

425.

•

The summary judgment was entered in favor of
SCH Physicians prior to any discovery had been
conducted in the context of a medical malpractice
claim. CP 469 (discovery cutoff is 9/5/2017), CP
558-560 (the dismissal order was entered on
3/3/2017). Note: zero discovery had ever been
case.
instant
the
for
conducted

•

The summary judgment was entered in favor of
SCH Physicians absent of appointment of
guardian ad litem, CP 563 (“there was no
appointment of guardian ad litem to prosecute
the minors’ claims” and “due to failure to appoint
a GAL to bring the action, the action on behalf of
the minors was nullity, and there was no action
on behalf of the minors for judicial consideration,
and therefore no action to dismiss.”). CP 563, 894.

•

SCH Physicians and SCH submitted 20 pages’
medical records in total to obtain a summary
judgment in their favor while J.L.’s actual
medical records were 600 pages. CP 807.

•

SCH physicians argued that their less than 90words’ affidavit “are sufficient to establish good
faith and trigger immunity” CP 309.

SCH Physicians also omits significant records
including but not limited to: (1) Ms. Chen’s March 24,
2017 Reply in support of the motion for
reconsideration addressing the merits of the case.
(CP 768-775; CP 891-900); (2) SCH Physicians’
September 17, 2018 motion for reconsideration on
the trial court’s Order to Show Cause, arguing that

129a
Appendix K
the trial court lacks authority to rule on a CR 60
motion (CP 915-927); (3) the October 3, 2018 Order
denying SCH Physicians’ motion for reconsideration
and objection to court’s order to show cause (CP
1525-1528); (4) Ms. Chens submission of J.L.’s 600
page treatment record to Judge Schubert, in support
of her motion to vacate the March 3, 2017 order
grating summary judgment (CP 928-1524). SCH
Physicians did not mention Ms. Chen’s December 10,
2018 Reply in support of Plaintiffs’ motion to vacate
(CP 692-698); and supporting documents and
affidavits at CP 699- 760, including expert testimony
from John Green, M.D. addressing SCH Physicians’
below-the-standard care for failure to investigate
J.L.’s medical history. 1
Simply put, SCH physicians misdiagnosed J.L.,
misrepresented the facts leading to Chen’s false
arrest, and J.L. wrongful removal and permanent
loss. SCH Physicians’ negligence was true, damages
done to Chen and her family were devasting.
IV. ARGUMENT IN RESPONSE TO OPENING
BRIEF
A. The standard of Review is abuse of discretion
- SCH has waived any challenge that Judge
Schubert abused his discretion in complying
supreme Court precedent.
The standard of review for a decision to grant a
motion to vacate and motion for reconsideration is
1 In their brief, SCH Physicians attempted to divert this Court’s
attention that only minors filed a reply, but parents also filed a
reply (CP 692-697), together with supporting documents and
affidavits, e.g., 722-776. Indeed, SCH Physicians reference of
CP 854-55 points to an irrelevant document. Br 19

130a
Appendix K
manifest abuse of discretion. Little v. King, 160
Wn.2d 696, 161 P.3d 345 (2007) (Decision on motion
to vacate “is reviewable only for a manifest abuse of
discretion”); Coggle v. Snow, 56 Wn. App 499, 784
P.2d 554 (1990) (The ruling on the motion for
reconsideration “is within the discretion of the trial
court and is reversible by an appellate court only for
a manifest abuse of discretion”). “Abuse of judicial
discretion is not shown unless the discretion has
been exercised upon grounds, or to an extent, clearly
untenable or manifestly unreasonable.” Id.
B. Judge Schubert properly exercised his
discretion in finding that the summary
judgment order was ambiguous and
constitutes “a question of regularity of the
proceedings.”
Judge Schubert’s finding that the March 3, 2017
order constitutes “a question of regularity of the
proceedings” (CP 888) is supported by extensive
evidence. The summary judgment order at issue does
not specify whether this was a dismissal with or
without prejudice. Washington law clearly states
that if the court does not have personal jurisdiction
over a party, the court cannot rule on the merits of
the claims. State v. Nw. Magnesite Co., 28 Wn.2d 1,
182, P.2d 643 (1947). Judge Schubert properly
vacates summary judgment as to SCH Physicians
and reversed the summary judgment order to
provide that the dismissals were without prejudice.
While the languages in March 3, 2017 order was
silent as to whether it was a dismissal with or
without prejudice, SCH Physicians asserted that it
was a dismissal with prejudice on both jurisdictional
and substantive grounds, at odds with our supreme

131a
Appendix K
court’s holding in State v. Nw Magnesite Co., 28
Wn.2d 1, 182 P.2d 643 (1947) (“However, we do not
agree with the trial court that the order dismissing
those respondents should be with prejudice to the
state’s cause of action against them. The court
having been without jurisdiction over those parties,
by reason of lack of proper service upon them or of
general appearance by them, it had no power to pass
upon the merits of the state’s case as against those
parties.”). SCH Physicians’ assertion that the
dismissal was on the merits were not supported by
direct evidence on the records. CP 545 (At the
summary judgment hearing, Judge Hill articulated:
“THE COURT: No, I don’t...need to hear the merits
of her case”). If the merits of the case had never been
heard bv Judge Hill, how can she decide on the merits,
SCH Physicians’ assertion is further inconsistent
with their own admission at the Show Cause
Hearing that they don’t know whether the court
ruled on the merits. RP 22 (“Mr. Norman (SCH
Physicians’ counsel): But we don’t know whether the
court ruled on the merits”).
SCH Physicians’ argument was also inconsistent
with CR 41 (b) (3) (“If the court renders judgment on
the merits against the plaintiff, the court shall make
findings as provided in rule 52 (a)”). CR 52 (a)(1)
(written findings are required for all disputed facts.),
also, State v. Kingman, 77 Wn.2d, 551, 463 P.2d 638
(1970). CR 52 (d) (“a judgment entered in a case tried
to the court where findings are required, without
findings of fact having been made, is subject to a
motion to vacate...”), (emphasis added). In Little v.
King, 160 Wn.2d 696 (2007), the supreme court held,
“the trial court could have reasonably
concluded that the lack of findings and

132a
Appendix K
conclusions was as “irregularity in obtaining
a judgment” for purpose of CR 60 (b)(1).” “An
irregularity is defined to be the want of
adherence to some prescribed rule or mode of
proceeding; and it consists either in omitting
to do something that is necessary for the due
and orderly conducting of a suit, or doing it
in an unseasonable time or improper
manner.”
In light of Little Court’s decision, Judge Hill’s
dismissal cannot be on the merits. Even if this is a
dismissal on the merits (which was denied), then
Judge Hill’s failure to enter the mandatory findings
required by CR 52 (d) and CR 41 (b)(3) still warrants
CR 60 (b)(1) relief as “procedural irregularity.”
Finally, SCH Physicians do not dispute that Nw
Magnesite Co is a controlling precedent, nor do they
contend the trial court’s reasons for vacating
summary judgment against them are unreasonable,
untenable, or an abuse of its discretion. Instead,
throughout their brief, SCH Physicians explicitly
avoid identifying the appropriate standard.
Specifically, they repeatedly and mistakenly argued
that Judge Schubert “erred” rather than “abused the
discretion”, a deferential review standard applicable
to review on motion to vacate and motion for
reconsideration. See, e.g., Br 1 (“the trial court erred
in vacating a previous judge’s order...); Br 2 (“The
trial court erred in granting Plaintiffs’ motion for
reconsideration...); Br 22 (“The trial court erred in
vacating the order dismissing Plaintiffs’ claims
against physicians...”); Br 23 (“The trial court erred
in vacating the order dismissing plaintiffs’ claims
against physicians...”); Br 26 (“ The trial court also
erred in vacating the order dismissing plaintiffs’

133a
Appendix K
claims against Physicians...”). Because they rely on
an inapplicable (and mistaken) standard of review
for an order on motion to vacate and motion for
reconsideration, SCH Physicians’ arguments fail as
a matter of law.
Judge Schubert does not abuse his discretion
because his decision was in full compliance with the
supreme court’s decision in Nw Magnesite Co., which
is clear and unambiguous. This Court should
therefore affirm his decision.
C. SCH Physicians’ novel argument that a trial
lacking personal jurisdiction has authority
to further adjudicate on the merits, directly
conflicts with the Supreme Court’s holding
in Nw Magnesite Co. and is not supported by
their own citations or their previous
position in the underlying summary
judgment.
Jurisdiction is the prerequisite for the court to
properly exercise its authority. In Wampler v.
Wampler, 25 Wn.2d 258, 170 P.2d 316 (1946), the
Supreme Court articulated that, “only the
court...had power to pass on the merits - had
jurisdiction, that is, to render the judgment.” SCH
Physicians attempt to divert this Court’s attention to
two distinguished cases involving significantly
different facts and legal issues. Parentage of Ruff,
168 Wn. App. 109, 116, 12, 275 P.3d 1175 (2012) is
distinguished. Ruff involves the issues of competing
jurisdictions entering conflicting interstate child
custody orders and discusses subject matter
jurisdiction. In re Marriage of Robinson, 159 Wn.
App. 162, 170-71, 24, 248 P.3d 532 (2010) also

134a
Appendix K
suggests that the subject matter jurisdiction in
dissolution proceedings exists if one of the parties is
a resident of Washington during the proceedings.
These two cases do not support SCH Physicians’
mistaken suggestion that a party does not consent to
personal jurisdiction can make argument on the
merits. Notably, SCH Physicians’ novel argument
was not even supported by the case they cited.
Specifically, the Robinson Court articulates,
“Unlike subject matter jurisdiction, a party
may consent to personal jurisdiction. Here, the
parties consented to personal jurisdiction by
[then] asking for affirmative relief or [further]
making an argument on the merits. See, In re
Marriage of Maddix, 41 Wn. App. 248, 251-52,
703 P.2d 1062 (1985).”
The parties may consent to personal jurisdiction
but undisputedly that SCH Physicians never consent
to the trial court’s personal jurisdiction. While the
SCH Physicians seem to suggest the court’s
jurisdiction over the SCH applies to them, this
argument is without merit: SCH admitted proper
service and consented to the court’s jurisdiction. CP
537 (“the personal defense as to that complaint and
a signature would not apply to Seattle Children’s
Hospital, because it was signed, and we were served
properly with that complaint.”). In contrast, the SCH
Physicians consistently claimed the court lacked
personal jurisdiction over them due to Chen’s
improper service and two unsigned complaints. CP
288, 294-298, 303. Because they did not consent to
trial court’s personal jurisdiction, they were
prohibited from making arguments on the merits.

135a
Appendix K
SCH Physicians’ novel argument was also
inconsistent with their previous position at trial
court. For example, in their Motion for Summary
judgment, SCH Physicians argue, “statutory service
requirements must be complied with in order for the
court to finally adjudicate that dispute.’ Farmer v.
Davis, 161 Wn. App. 420, 433, 250 P.3d 138 (2011).”
(emphasis added). CP 297. This argument is
consistent with the January 28, 2019 order that due
to Chen’s improper service upon SCH Physicians, the
trial court was thus lacking authority to “finally
adjudicate that dispute” or rule on the merits, as
argued by SCH Physicians two years ago for the
underlying summary judgment.
The Appellant SCH Physicians, having made this
argument previously, should be judicially estopped
from arguing to the contrary here. See Arkison v.
Ethan Allen, /nc., 160 Wn.3d 535, 538, 160 P.3d 13
(2007) (“Judicial Estoppel is an equitable doctrine
that precludes a party from asserting one position in
a court proceeding and later seeking an advantage
by taking a clearly inconsistent position.”). 2
At the Show Cause hearing, Judge Schubert
spent an inordinate time to discuss that when the
trial court is deprived of personal jurisdiction due to
improper service, it can never reach the merit of the
case. RP 13. Specifically, Judge Schubert articulated;
“No one to my knowledge provided me with a
case where a party can both defend on
procedural grounds and say, ‘Hey, I am never
served. Your Honor, with all due respect, you
don’t have jurisdiction over me. But, by the way,
go ahead and reach the merits and dismiss
these claims against me with prejudice, even

136a .
Appendix K
though you’ve never had jurisdiction over me.”
To me that doesn’t make sense.
Why would a Court ever reach the merits of a
defense when the party is, as a preliminary
matter, saying, “You don’t even have
jurisdiction over me”? You deal with
jurisdiction first. That’s the way it’s always
been. That’s the way it should have been here.”
Notably, SCH Physician again conceded that
Judge Schubert’s reasoning at the Hearing that a
court lacking personal jurisdiction cannot adjudicate
on merits was “correct”. RP 14.
As stated supra, Nw Magnesite Co. is a
controlling precedent that discusses exactly the same
issue as the instant case, i.e., improper service
deprives trial court’s personal jurisdiction to further
render judgment on the merits which SCH
Physicians do not dispute. Rather than apply the
supreme court’s controlling precedent, SCH
Physicians attempt to suggest this Court to
disregard such authority and apply several
irrelevant sentences from 11th Circuit. Br. 28. This
Court should disregard this effort to circumvent
Washington law.2

2 Throughout the whole litigation, Respondents made multiple
inconsistent arguments, e.g., CP 303 (Respondents argued that
unsigned complaint deprived trial court of jurisdiction); cf. CP 868
(Respondents argued that a plaintiffs failure to sign a complaint
does not strip the Court of jurisdiction”).

137a
Appendix K
D. SCH Physicians fail to perfection a complete
record, Judge Schubert’s finding is required
to be treated as verities that was uncontested
by SCH Physicians at the hearing.
Appellant bears the burden of providing a
sufficient record on appeal from which the reviewing
court can make a ruling that accurately follows the
law. In re Estate of Lint, 135 Wn.2d 518, 531-32, 957
P.2d 755 (1998). While challenging Judge Schubert’s
order vacating summary judgment based on Chen’s
CR 60 motion, SCH Physicians provide an
incomplete submission of Chen’s motion. In
supporting Plaintiffs’ motion to vacate, Chen
submitted J.L.’s 600 pages’ treatment records. CP
928-1524, which was omitted in Appellant SCH
Physicians’ designation of clerks’ papers and later
supplemented by Chen.
SCH Physicians’ only one assignment of error is
to challenge Judge Schubert’s finding that Judge
Hill’s order is ambiguous and “creates a question of
regularity of the proceedings”. Br 1. On review,
evidence is viewed “in the light most favorable to the
prevailing party”, and deference is given to the trial
court's determinations. Weyerhaeuser v. TacomaPierce County Health Dept, 123 Wn. App. 59, 65, 96
P. 3d 460 (2004).When Appellant challenges the trial
court' s findings and there is conflicting evidence
presented at trial in regard to that finding, the
reviewing court need only consider the evidence that
is most favorable to the respondent in support of the
challenged finding. In re Estate of Lint, 135 Wn.2d
518, 531-32, 957 P.2d 755 (1998).
When the Appellants challenging Judge
Schubert’s finding that the prior findings constitute

138a
Appendix K
irregularities, SCH Physicians bear the burden of
perfecting the record so that the reviewing court has
before it all relevant evidence. Bulzami v. Dep’t of
Labor & Industries, 72 Wn. App. 522, 525, 864 P, 2d
996 (1994). Notwithstanding SCH Physicians'
omission of relevant parts of the record form their
designation of the record, the record they have
provided does not support their contentions or rebut
the Judge Schubert's finding of fact and conclusions
of law. The primary theme of SCH Physicians’
assignments of error is that Judge Hill's failure to
provide a clear order is not an irregularity
because “she
denied
Plaintiffs’
motion
for
reconsideration” Br 2. SCH Physicians’ argument
was inconsistent with their previous position at the
Hearing. Judge Schubert properly finds that the
order was ambiguous due to Judge Hill’s failure to
provide clarification, because “you can read that one
of two ways.”Mr. Norman (SCH Physicians’ present
counsel)
agreed
with
Judge
Schubert’s
interpretation. RP 32-33. Specifically,
The Court:

One, [Judge Hill] didn’t feel clarification
was necessary or I guess really just [Judge
Hill] didn’t feel clarification ...[Judge Hill]
didn’t feel clarification was necessary.”

Mr.Norman:
The Court:

Right.
Now, the clarification not being
necessary could be seen one of two
ways.

Mr. Norman:

Yes.

The Court:

That’s what it is.

139a
Appendix K
Mr. Norman: Yes.
“I didn’t need to clarify because it
The Court:
was obviously with prejudice” or “I
didn’t need to clarify because it was
obviously without prejudice.”
There was, in short, no disagreement over the
fact that Judge Hill’s denial of the motion for
reconsideration increased, rather than resolved, the
critical ambiguity that was at the heart of the
summary judgment. “There is a presumption in favor
of the trial court’s findings, and the party claiming
error has the burden of showing that a finding of fact
is not supported by substantial evidence.” State v.
Merrill, 183 Wn. App. 749, 755, 335 P.3d 444 (2014).
Substantial evidence is evidence sufficient to
persuade a fair-minded, rational person of the truth
of the finding. Pilcher v. Dep't of Revenue, 112 Wn.
App. 428, 435, 49 P.3d 947 (2002), review denied, 149
Wn.2d 1004 (2003). A fair-minded and rational
person will agree that a judicial officer’s decision is
bound to the supreme court’s controlling precedent,
here, Nw. Magnesite Co.. A fair-minded person will
further agree that it is reasonable for a judge to
uphold justice and respect minors (J.L. and L.L.)’s
Constitutional rights of access to the Courts which
had been mistakenly and unfairly deprived by the
March 3, 2017 order. In Anderson v. Dussault, 180
Wn.2d 1001, 321 P.3d 1206 (2014), the Supreme
Court announces that the six-year-old minor,
Anderson’s claim was not barred due to the absence
of guardian ad litem who could receive a notice of the
proceedings. Notice is the threshold requirement for
Due Process but both two minors, J.L. and L.L. were

140a
Appendix K
not represented by a guardian ad litem who could
receive a notice on their behalf, their rights of access
to the court had therefore been mistakenly deprived
by Judge Hill when signing her March 3, 2017 order.
Judge Schubert properly exercises his sound
discretion for doing what “a fair-minded person and
a rational person” would have done to uphold justice
and respect minors’ constitutional rights; and
complying with controlling authority as a judicial
officer. Highest deference should be afforded to
Judge Schubert’s reasonable decision.
E. Judge Schubert properly vacated the
decision, as was within his sound discretion.
On appeal, Appellants bear the burden to prove
Judge Schubert has abused his discretion on
entering an order vacating pre-discovery summary
judgment. Morgan v. Burks, 17 Wn. App. 193, 563
P.2d 1260 (1977) (motion to vacate are addressed to
the sound discretion of the trial court, whose
judgment will not be disturbed absent a showing of a
clear or manifest abuse of that discretion). SCH
Physicians fail to do so. Instead, they argued Judge
Schubert committed a legal error, e.g., Br l(“the trial
court erred in vacating...”).
Throughout the brief, Appellant SCH Physicians
misrepresented that Judge Schubert’s decision by
saying “the trial court vacated the dismissal of
respondents’ claims against Physicians not due to
any “irregularity” but because it believed Judge Hill
committed an error of law by failing to specify the
basis of her summary judgment order.” BR 23. They
also claimed that Judge Schubert “erroneously held
that Judge Hill committed an error of law in

141a
Appendix K
dismissing the claims” Br 26. The above
misrepresentation is simply baseless. Indeed, Judge
Schubert states in his January 28, 2019 Order that,
“The silence of this Court’s orders in that regard
creates a question of regularity of the proceedings
that justifies relief from the operation of those
orders.” Taking a closer look at Judge Schubert’s
order, the alleged language of “error of law” and
“legal error” throughout SCH Physicians’ brief was
not at all observd in the challenged order.
On the contrary, SCH Physicians conceded
that Judge Hill’s silence in language is a “failure”
Br. 22. “Failure” is synonym of “neglect”. MerriamWebster online dictionary. A vacation is therefore
justified on grounds of “neglect” under CR 60 (b) (1).
Judge Hill’s order is undisputedly ambiguous, as
conceded by SCH Physicians that they were
unaware of the grounds for Judge Hill’s order and
admission that Judge Hill’s order could be read
from either way. At the Hearing, Judge Schubert’s
suggestion that Judge Hill's order can be
interpreted one of the two ways, i.e., with or
without prejudice had been explicitly supported by
SCH Physicians’ counsel. RP 32-33. Specifically,
The Court: “...Their motion for reconsideration
was based solely on whether it was with
or without prejudice...they asked for
clarification on that. What I think is
interesting is she just denied, she didn’t
provide clarification. Now you could
read that one of two ways.”
Mr. Norman: Yeah.
The Court: “One, she didn’t feel clarification was
necessary or I guess really just she

142a
Appendix K
didn’t feel clarification... she didn’t
think clarification was necessary.”
Mr. Norman: “Right(emphasis added)
The Court: “Now, the clarification not being
necessary could be seen one of the two
ways”.

Mr. Norman: “yes.” (emphasis added)
The Court:

“That’s what, it is.”

Mr. Norman: “Yes.” (emphasis added)
The Court: 7 didn’t need, to clarify because it
was obviously with prejudice” or “I
didn’t need to clarify because it was
obviously
without
prejudice.”
(emphasis added). (RP 32-33)
The Court further explains why the March 3,
2017 may be interpreted as “without prejudice”. RP
33-34. Specifically,
The Court:

The Court:

“The thing is, though, is we have a court
rule...that says that when there is a
dismissal ...under CR 41.” (RP 33)
“...what it says to me is, hey, if the court
doesn’t say, at least in that context,
then it’s presumed to be without
prejudice.” (RP 34)

Mr. Norman: Right.
The Court: “So at least in the context of a voluntary
dismissal, the lack of clarity, the
default means without prejudice in that
scenario. So but where is there ever a
scenario that a lack of clarity means
with prejudice?” (RP 34)

143a
Appendix K
Obviously, Judge Schubert correctly interprets
that Judge Hill’s order is ambiguous because it can
be understood in either way, which SCH Physicians
did not contest. Judge Schubert also provides
reasonable ground for his interpretation that the
order lacking language of “with/without prejudice”
as “without prejudice” and SCH Physician s did not
provide one single case that an order lacking
“with/without prejudice” should be interpreted as
“with prejudice.”
Even if Appellants’ assertion is accepted that
Judge Schubert erred in language specifying the
grounds of vacation (which is denied), the error is
harmless, and will not lead to reversal, because it is
“trivial, or formal, or merely academic, and was not
prejudiced to the substantial rights of the party
assigning it, and in no way affected the final outcome
of the case.” Mackay v. Acorn Custom Cabinetry, Inc.,
127 Wn.2d 302, 311 898 P.2d 284 (1995). Appellant
SCH Physicians were not prejudiced because this
order is not a final outcome of the case (but merely
an interlocutory decision), and they did not claim
prejudice.
As explained by Judge Schubert at the Hearing,
“[the
silence
of language
in
order]
is
procedural...anomaly, of how the court proceeded.”
RP 19. The observed and agreed ambiguity justifies
a vacation. Therefore, Judge Schubert properly and
reasonably exercises his discretion to vacate the
irregularities. This Court should affirm under
differential standard of review.
By cherry picking one isolated sentence from the
transcript, SCH Physicians asserted that Judge

144a
Appendix K
Schubert affirmed Judge Hill’s dismissal as to SCH.
Br 20. SCH Physicians are disingenuous. Judge
Schubert did not affirm dismissal as to SCH but was
persuaded by SCH and SCH Physicians that Judge
Hill’s erroneous decisions as to SCH should be
corrected at appeal. SCH Physicians’ assertion is
highly misleading (and simply false) by simply
ignoring the whole context. RP 19-21. When
discussing whether the trial court has jurisdiction to
dismiss SCH with prejudice, Judge Schubert
believes so because, “SCH did not move for dismissal
based on lack of personal jurisdiction and thus, there
is no ambiguity as to the legal effect of the dismissal
of plaintiffs’ claims against SCH.”. CP 889.
F. SCH Physicians improperly ask this Court
to reinstate an order that concededly
erroneous.
ambiguous
and
clearly
SCH Physicians claim that the March 3, 2017
should be reinstated through arguing that Judge
Hill’s intent was “clear”. Br 34. They fail to
adequately argue that Judge Hill’s order should be
affirmed because it is correct and has complied with
controlling authorities. This Court should exercise
its revisory jurisdiction to correct the mistakes
presented in Judge Hill’s orders which are at odds
with multiple controlling precedents. For example:
•

When the dismissal order was entered, zero
discovery had been conducted while discovery
cutoff is more than 6 months away. Putman v.
Wenatchee Valley Med. Ctr., P.S., 166 Wn.2d 974,
983, 216 P.3d 374 (2009) (Supreme court holding
that requiring medical malpractice plaintiffs to
submit a certificate of merit from a medical

145a
Appendix K
expert prior to discovery violates the plaintiffs’
right of access to the court, which “includes the
right of discovery authorized by the civil rules.”)
•

When the dismissal order was entered against
two minors, no guardian ad litem was ever
appointed even after the absence of GAL has been
brought to its attention, e.g., CP 563. Mezere v.
Flory, 26 Wn. 2d 274, 173 P.2d 776 (1946) (“the
appointment of a guardian ad litem is
mandatory.”). Dependency of A. G., 93 Wn.App.
268, 968 P.2d 424 (1998) (“The [guardian ad litem]
statute is mandatory, and the children’s interests
are paramount.”). Newell v. Ayers, 23 Wn. App.
767, 598 P.2d 3 (1979) (“the rule is that a minor
must be represented by a guardian ad litem, or
the judgment against him may be voidable at his
option.”). Anderson u. Dussault, 181 Wn.2d 360,
333 P.3d 395 (2014) (the supreme court holding
minor’s action “was not statutorily time barred
because the statutory time limitation was tolled
while the plaintiff was a minor without a
guardian ad litem who could receive a notice”).
State v. Douty, 92 Wn.2d 930, 603 P.2d 373 (1979)
(“it should be noted that the child, though named
on the action, was never served. Consequently, he
is not before the court.”).

•

When the dismissal order was entered, the merits
of the case had never been heard and addressed.
CP 545 (“THE COURT: No, I don’t...need to hear
the merits of her case.”). “The law favors
resolution of cases on their merits.” Barr v.
MacGugan, 119 Wn. App. 43, 78 P.3d 660 (2003).
Indeed, Defendant/Appellant Darren Migita’s
treatment was never before Judge Hill before an

146a
Appendix K
order in his favor entered; that was discovered
case.
federal
the
later
in
•

Code of Judicial Conduct (“CJC”) Rule 2.11
(A)(6)(d) mandatorily requires a judge to recuse
from hearing the case when the judge had
“previously presided as a judge over the matter in
another court.” “As a general rule, the word “shall”
possess a mandatory or imperative character”.
State v. Hall, 35 Wn. App. 302, 666 P.2d 930
(1983). As the presiding judge over Chen’s
underlying dependency matter, Judge Hill’s
failure to recuse erred as a matter of law.

The primary function of appellate courts is to
correct trial court errors and uphold justice. To
reinstate an order that is ambiguous, erroneous, and
inconsistent with multiple Washington controlling
precedents would achieve the opposite. SCH
Physicians’ appeal should be dismissed.
V. ARGUMENT SUPPORTING CROSS-APPEAL
A. Judge Hill’s March 3, 2017 Order should be
reviewed de novo, with all allegations in the
complaint being treated as factually correct.
Appellant SCH physicians filed a CR 12 (b)(2)
motion, which was converted to CR 56 when
introducing evidence beyond the motion, CP 288-310.
Appellant SCH Physicians challenged the trial
court’s lack of personal jurisdiction over them due to
Chen’s insufficient service. The introduction of
evidence beyond the pleadings may cause a CR 12 (b)
motion to be converted into a CR 56 motion but
cannot be treated the same as CR 56 if the motion

147a
Appendix K
was brought prior to discovery. State v. LG Elecs.,
Inc., 185 Wn. App. 394, 406, 341 P.3d 346 (2015). The
court is required to treat all the allegations in the
complaints as established for the purpose of
determining personal jurisdiction. Id. In State v. LG
Elecs., Inc., this Court articulated:
“[0]ur case law does not prohibit the
introduction of evidence in support of a motion
brought pursuant to CR 12 (b)(2). However,
when this occurs prior to full discovery, neither
CR 12 (b) itself, nor controlling case law,
provides that the motion be analyzed as if it
were brought pursuant to CR 56. Instead, our
case law sets out the particular requirements
for evaluation of such a CR 12 (b)(2) motion...
‘When the trial court considers matters outside
the pleadings on a motion to dismiss for lack of
personal jurisdiction, we review the trial court's
ruling under the de novo standard of review for
summary judgment.”' Colum bia Asset Recovery
Grp., LLC v. Kelly, 177 Wn. App. 475, 483, 312
P.3d 687 (2013) (quoting Freestone Capital
Partners LP v. MKA Real Estate Opportunity
Fund 1, LLC, 155 Wn. App. 643, 653, 23.0 P.3d
625 (2010)). When reviewing a grant of a
motion to dismiss for lack of personal
jurisdiction, we accept the nonmoving party's
factual allegations as true and review the facts
and all reasonable inferences drawn from the
facts in the light most favorable to the
nonmoving party. Freestone, 155 Wn. App. at
U.S.
653-54; accord Walden v. Fiore,
134 S. Ct. 1115, 1119 n.2, 188 L. Ed. 2d 12
(2014).

148a
Appendix K
Even where the trial court has considered
matters outside the pleadings on a CR 12(b)(2)
motion to dismiss for lack of personal
jurisdiction, “[f]or purposes of determining
jurisdiction, this court treats the allegations in
the complaint as established.” Freestone, 155
Wn. App. at 654; accord. Slate v. AU Optronics
Corp., 180 Wn. App. 903, 912, 328 P.3d 919
(2014); FutureSelect I, 175 Wn. App. at 885-86;
SeaHAVN, Ltd. v. Glitnir Bank, 154 Wn. App.
550, 563, 226 P.3d 141 (2010); Shaffer v.
McFadden, 125 Wn. App. 364, 370, 104 P.3d
742 (2005); CTVC of Haw. Co. v. Shinawatra,
82 Wn. App. 699, 708, 919 P.2d 1243, 932 P.2d
664 (1996); Hewitt v. Hewitt, 78 Wn. App. 447,
451-52, 896 P.2d 1312 (1995); In re Marriage of
Yocum, 73 Wn. App. 699, 703, 870 P.2d 1033
(1994); Harbison v. Garden Valley Outfitters,
Inc., 69 Wn. App. 590, 595, 849 P.2d 669 (1993);
MBM Fisheries, Inc. v. Bollinger Mach. Shop &
Shipyard, Inc., 60 Wn. App. 414, 418, 804 P.2d
627 (1991); see also Raymond v. Robinson, 104
Wn. App. 627, 633, 15 P.3d 697 (2001) (Division
Two); Precision Lab. Plastics, Inc. v. Micro Test,
Inc., 96 Wn. App. 721, 725, 981 P.2d 454 (1999)
(Division Two); Byron Nelson Co. v. Orchard
Mgmt. Corp., 95 Wn. App. 462, 467, 975 P.2d
555 (1999) (Division Three). Our Supreme
Court has recognized this approach and
adopted the same. See FutureSelect II, 180
Wn.2d at 963-64 (standard applies when full
discovery has not been conducted); Lewis v.
Bours, 119 Wn.2d 667, 670, 835 P.2d 221
(1992).”

149a
Appendix K
Since the SCH Physicians’ motion was
brought prior to discovery, all the allegations in
Chen’s complaints are required to be treated as true
and established.
B. Judge Hill abused her discretion in failing
to grant a continuance to allow Plaintiffs to
conduct discovery.
1. Judge Hill deprived Plaintiffs of their rights to a
full record and an impartial tribunal
After unilaterally scheduling the March 3, 2017
hearing without asking Chen’s availability and
without timely serving Chen, SCH Physicians
objected to Chen’s request for a continuance to
conduct discovery under CR 56 (c) by misinterpreting
Turner v. Kohler, 54 Wn. App. 688, 693, 775 P.2d 474
(1989) (CP 485, 506, 534). The current case is
distinguished from Turner. This Court affirmed the
denial, pointing out that (1) Turners lawyer did not
mention CR 56 (f) or explicitly requested a
continuance; and (2) Turner had been granted two
continuance prior to the dismissal. But here, Chen
explicitly articulated a request for continuance
under CR 56 (f) in both the affidavits and at the
hearing. CP 1-5, CP 547 (“I am requesting a
continuance on this summary judgment motion
hearing, pursuant to civil Rule 56 (f) and in the
interest of justice.”). Unlike Turner, this is the very
first request for continuance made by pro se litigant
and it was made six months before the discovery
cutoff (CP 469). Unlike Turner, in the current case,
Plaintiffs were appearing pro se while the Turner

150a
Appendix K
court especially noted that leniency and exception be
afforded to pro se litigants.
Washington’s liberal notice pleading system
allows plaintiffs to “use the discovery process to
uncover the evidence necessary to pursue their
claims,” tempers this aspiration. Putman v.
Wenatchee Valley Med. Ctr., P.S., 166 Wn.2d 974,
983, 216 P.3d 374 (2009). The Putman Court
announced that Plaintiffs’ “right of discovery
authorized by the civil rules” embodies their rights
of access to the court. Here, Judge Hill denied Chen’s
right to a full record and an impartial tribunal,
effectively depriving them of access to the Courts.
2. The primary consideration on grant a continuance
is justice.
Whether the trial court may grant a continuance
for the Plaintiffs, the primary consideration is justice.
Coggle v. Snow, 56 Wn. App. 499, 508, 784 P.2d 554
(1990); Butley v. Joy, 116 Wn. App. 291, 199, 65 P.3d
671 (2003); Keck v. Collins, 181 Wn. App. 67, 87-88,
325 P.3d 306 (2014).
Justice is served by accepting a filing or
granting a continuance in the absence of prejudice to
the opposing party. See, Butler, 116 Wn. App. at 299300; Coggle, 56 Wn. App. at 508. Here, justice
requires continuing the summary judgment hearing
to allow pro se plaintiffs an opportunity to obtain
discovery, and to be represented by counsel. In this
case pro se were hobbled by Appellant SCH
Physicians’ untimely and defective service and,
lacked the time and attention needed to ensure an
adequate response to summary judgment, which was

151a
Appendix K
brought prior to discovery. While discovery cutoff is
six months away, and deadline for dispositive motion
is still seven months away, Appellant SCH
Physicians would have suffered no prejudice if Judge
Hill continued the summary judgment hearing so the
attorney Mr. Keith Douglass can appear and assist
with the litigation, including obtaining affidavits
from experts, including J.L.’s main treating
physicians, who had made their positions clear in the
underlying proceedings. Failure to consider the
primary consideration - the interest of justice and
the lack of prejudice to Appellant SCH Physicians is itself an abuse of discretion because “any
reasonable person” would have made a different
decision. Coggle v. Snow.
C. Procedural irregularities affected ordinary
process of the proceedings, resulting in an
injustice and meriting vacation of the
summary judgment.
This case is riddled with multiple procedural
irregularities, partly due to pro se litigants’ lacking
legal knowledge and partly due to appellant
physicians’ taking full advantage of pro se. To
exacerbate the procedural hurdles, Judge Hill failed
to recuse from the case as mandatorily required by
CJC Rule 2.11 (A)(6)(d) and then entered an
ambiguous order, its silence and lack of clarity
creates a procedural irregularity and affects the
future proceedings. There is no dispute that two
complaints were unsigned, which SCH Physicians
claimed to be “void ab initio” (“that which is void in
the beginning”). CP 303. There is also no dispute that
SCH physicians challenged trial court’s personal
jurisdiction due to the “insufficient service of process”

152a
Appendix K
(CP 295) and “statutory service requirements must
be complied with in order for the court to finally
adjudicate that dispute.” (CP 297). SCH Physicians’
arguments provide support that the dismissal was
on procedural grounds.
Judge Hill entered an order, silent in language
as to whether it was a dismissal with or without
prejudice. Due to the lack of clarity, then “you could
read that one of two ways” (RP 32). Judge Schubert
correctly recognized this mistake is “procedural”
because it affects “how the court proceeded” (RP 19)
in that case and in future cases, and he properly
exercises his discretion “to clarify the record on
appeal”. RP 23. Judge Schubert’s decision is
supported by well-established legal principle that “a
court has authorization to hear and determine a
cause or proceeding only if it has jurisdiction over the
parties and 3 the subject matter.” Mendoza v.
Neudorfer Eng’rs, Inc., 145 Wn. App. 146, 185 P.3d
1204 (2008). Judge Schubert’s decision is consistent
with controlling precedent AW Magnesite Co., .
Judge Schubert did not abuse his discretion, and
Appellant SCH Physicians provided no argument
that a judge’s compliance with controlling
precedents is an abuse of discretion.
D. Judge Hill erred in failing to comply with
mandate of guardian ad litem to protect
minors’ interest.
The failure to comply with mandate of statute is
reviewed under the clearly erroneous standard. In
3 SCH Physicians mistakenly argue that only subject matter
jurisdiction affects a court’s legal authority. Br 27. This
argument is meritless in light of the Medoza holding.

153a
Appendix K
Washington, appointment of a guardian ad litem is
mandatory. RCW 4.08.050. Newell v. Ayers, 23 Wn.
App. 767, 598 P.2d 3 (1979) (“appointment of a
guardian a litem is mandatory...the rule is that a
minor must be represented by a guardian ad litem,
or the judgment against him may be voidable at his
option.”) (emphasis added). In Dependency of A.G.,
93 Wn. App. 268, 968 P.2d 424 (1998), this Court
imposed sanctions upon Department of Social and
Health Services (DSHS) and the trial court because
they “failed to comply with the mandate of the
guardian ad litem statute.”
Under the applicable legal standards, “[a]
person incompetent or disabled to the extent that he
or she is unable to understand the nature of the
proceedings is not similarly situated to those adults
who are competent to assert their rights and assist
in a malpractice action.” DeYoung v. Providence
Medical Center, 136 Wn.2d 136, 141, 960 P.2d 919
(1998). Here, the instant medical malpractice claim
involves two minors, J.L. and L.L. whose rights
cannot be ignored or disregarded by this Court.
While the dismissal as to Chen is proper is still
in dispute, even this argument is accepted, it only
applies to Ms. Chen, the adult plaintiff, but never the
minors who were not represented by a guardian ad
litem. See, Anderson v. Dussault, 180 Wn. 2d 1001,
321 P.3d 1206 (2014) (the Supreme Court holding
that the six-year-old minor, Rachel’s claim was not
barred due to the absence of guardian ad litem who
could receive a notice of the proceedings.). As
conceded by SCH physicians that “Due process
requires adequate notice be given to interested
parties” of the pendency of the actions and afford

154a
Appendix K
them an opportunity to present their objections.” CP
296.
Here, neither J.L. nor L.L. were represented by
guardian ad litem, therefore, they did not receive any
notice, a threshold requirement for due process. In
Anderson, the six-year-old minor, Rachel was
represented by SCH Physicians’ present counsel,
objected to the opposing argument that Rachel’s
claims were judicially estopped. Therefore, they
argued,
“Rachel cannot be denied her day in court
through no "fault" of her own but her age. See
Schroeder v. Weighall, 316 P.3d 482, 489 (Wash.
2014) (statute that eliminated tolling of
minors' medical malpractice claims was
unconstitutional because it "place [d] a
disproportionate burden on the child whose
parent or guardian lacks the knowledge or
incentive to pursue a claim on his or her
behalf.... It goes without saying that these
groups of children are not accountable for their
status.").”
The State privileges and immunities clause,
article I, section 12 of the Washington State
Constitution provides that, “[n]o law shall be passed
granting to any citizen, class of citizens, or
corporation other than municipal, privileges or
immunities which upon the same terms shall not
equally belong to all citizens, or corporations.” While
SCH Physicians’ present counsel believed that sixyear-old Rachel’s court day should not be denied
absent of a guardian ad litem, why in this instant
case, the then six-year-old J.L.’s court day should be
denied by the trial court, further denied by the Court

155a
Appendix K
of Appeals? When Rachel has no “fault” but her age
(as asserted by SCH Physicians’ present counsel),
why J.L. should be penalized for his mother’s
innocent mistake for improper service? Ironically,
SCH Physicians’ positions changed on this very point:
at the first summary judgment hearing, SCH
Physicians explicitly articulated that minors cannot
be involved in litigation without guardian ad litem
because “[minors] are considered incompetent as a
matter of law.” CP 525.
Procedural due process requires that the child be
represented by guardian ad litem because “no
individual should be bound by a judgment affecting
his or her interests where he [or she] has no been
made a party to the action.” State v. Santos, 104
Wn.2d 142 (1985) (internal citation omitted). It is
fundamental that parties whose interests are at
stake must have an opportunity to be heard “at a
meaningful time and in a meaningful manner”.
Olympic Forest Prods., Inc. v. Chaussee Corp., 82
Wn.2d 418, 422, 511 P.2d 1002 (1973) (quoting
Armstrong u. Manzo, 380 U.S. 545, 552, 14 L.Ed. 2f
62, 85 S. Ct. 1187 (1965). Minors are unable to
represent their interests; appointment of guardian
ad litem is necessary to protect their best interests.
Due Process also requires adequate notice be
given to the interested parties “of the pendency of the
action and afford them an opportunity to present
their objections.” Mullane v. Central Hanover Bank
& Trust Co., 339 U.S. 306, 313, 70 S.Ct. 652 (1950).
Also, State v. Douty, 92 Wn. 2d 930 603 P.2d 373
(1979) (this Court holding that “it should be noted
that the child, though named in the action, was
never served. Consequently, he is not before the
court.”).

156a
Appendix K
Throughout the litigation, records before this
Court support an undisputed fact that minors were
never personally served. The following filings, for
example, were never served minors:
•

CP 311 (SCH Physicians’ Motion for Summary
judgment);

•

CP 316 (Declaration of Bruce Megard and supporting
documents for Motion for summary judgment);

•

CP 416 (SCH’s joined to co-defendants’ motion for
summary judgment);

•

CP 579 (SCH Physicians’ Response to Plaintiffs
Motion for Reconsideration);

•

CP 643 (SCH’s Response to Plaintiffs’ motion for
Reconsideration);

•

CP 652 (SCH’s Motion to strike Plaintiffs’ Reply);

•

CP 656 (SCH Physicians’ joinder to SCH’s Motion to
strike Plaintiffs’ Reply).
The trial court’s ambiguous orders, again, were
similarly never served upon minors. For example

•

CP 558-560 (Order Granting Defendants’ Motion for
Summary judgment);

•

CP 659-660 (Order Denying Plaintiffs’ Motion for
Reconsideration);

•

CP 662-663 (Order Granting SCH’s Motion to strike
Plaintiffs’ Reply).

157a
Appendix K

The records before this Court are clear that
minors were not appointed guardian ad litem who
can receive notice on their behalf, and they were
never personally served. They were not personally
provided a copy of any orders issued by Judge Hill. It
does not make sense to deprive minors' rights when
they never receive a notice and/or judgment. In any
event, SCH Physicians cite no authority for their
novel argument that a minor medical malpractice
plaintiff, unrepresented by guardian ad litem 5, has
satisfied the Due Process' threshold requirement, i.e.,
notice.
E. Judge Hill erred in granting Appellant
physicians’ motion for summary judgment.
1. Appellant SCH physicians bore the initial burden
of showing the absence of an issue of material fact.
As stated supra, even where the trial court
considered matters outside the pleadings on a CR 12
(b)(2) motion challenging personal jurisdiction, for
the purpose of determining jurisdiction, the court is
required to treat the allegations as established.
Freestone. Here, Chen alleged that Appellant
physicians, Darren Migita, Ian Kodish and James
Metz (i) “made a misdiagnosis for the plaintiff, J.L.”
CP 187, 204, 217; (ii) “breached his standard of care
by refusing to contact Plaintiff, J.L.’s parent, and
plaintiff, J.L.’s main treating physicians, and
reviewing his full medical records.” CP 187, 204, 217.
Chen also alleged Darren Migita and Ian Kodish
“had failed to deliver an accurate information to CPS
his
intentional
and
court
and
the

158a
Appendix K
CP
188,
218.
Chen
misrepresentation... ”
additionally alleged James Metz “had failed to
deliver an accurate information to CPS, and had
failed to exercise the degree of care and skill
ordinarily exercised by the experts in the field...” CP
205.
The first issue here is whether Darren Migita,
Ian Kodish and James Metz bore their initial burden
of showing the absence of a material fact with respect
to meeting requirements of proper care, and good
faith - or whether it was evident as a matter of law,
such that reasonable minds could not differ, that
Chen did not have any basis for their claims.The
statues relating to CPS involvements are RCW
26.44.060 (1) (good faith reporting) and RCW
26.44.060 (4) (bad faith reporting). The elements of
medical malpractice are set forth in RCW 7.70.040:
(1) The health care provider failed to exercise
that degree of care, skill, and learning
expected of a reasonably prudent health
care provider at that time in the
profession or class to which he belongs, in
the state of Washington, acting in the
same or similar circumstances; (2) Such
failure was a proximate cause of the
injury complained of.
The Supreme Court has interpreted these
elements as particularized expressions of the four
traditional elements of negligence: duty, breach,
proximate cause, and damage or injury. Harbeson v.
Park-Davis, Inc., 98 Wn.2d 460, 468, 656 P.2d 483
(1983). At trial, Chen and two minors, J.L. and L.L.
have the burden of showing each necessary element.

159a
Appendix K
But when SCH Physicians move for summary
judgment before trial, they “bear the initial burden
of showing the absence of an issue of material fact”
requiring trial by uncontroverted facts. CR 56.
Young v. Key Pharm., Inc., 112 Wn. 2d 216, 225, 770
P.2d 182 (1989) review denied, 118 Wn.2d 1023
(1992). Hartley v. State, 103 Wn. 2d 768, 774, 698
P.2d 77 (1985); Hash v. Children’s Orthopedic Hosp.,
49 Wn. App. 130, 741 P.2d 584 (1987); LaPlante v.
State, 85 Wn. 2d 154, 158, 531 P.2d 299 (1975);
Rossiter v. Moore, 59 Wn. 2d 722, 370 P.2d 250 (1962).
SCH physicians further argued that they are
entitled to summary judgment because Chen fail to
provide an expert affidavit to support their claims.
CP 306-307. This is an outrageous argument
indicating that SCH Physicians’ above-the-law
position. First. Washington law does not require
medial malpractice plaintiffs to provide an expert
affidavit prior to discovery. Putman v. Wenatchee
Valley Med. Ctr., P.S., 166 Wn.2d 974, 983, 216 P.3d
374 (2009). Discovery cutoff for the instant case is six
months away when the case was dismissed. CP 469.
Second. SCH Physicians’ negligence is so obvious
(not investigating J.L.’s medical history and
consulting with his main treating physicians) that
both dependency and criminal court dismissed the
cases without expert testimonies. Under such
circumstances, trial court should adopt Doctrine of
Res Ipsa Loquitur (“the thing speaks for itself’).
Supreme Court has enumerated three essential
elements for Res Ipsa Loquitur to apply: A plaintiff
may rely upon Res Ipsa Loquitur s inference of
negligence if (1) the accident or occurrence that
caused the plaintiffs injury would not ordinally
happen in absence of negligence; (2) the

160a
Appendix K
instrumentality or agency that caused the plaintiffs
injury was in the exclusive control of the defendant,
and (3) the plaintiff did not contribute to the accident
or occurrence. Curtis v. Lein, 169 Wn.2d 884, 239
P.3d 1078 (2010). CP 792-794.
As said, SCH Physicians bear the initial burden
of showing of absence of an issue of material fact
requiring trial. If the moving party does not sustain
that burden, summary judgment should not be
entered, irrespective of whether the nonmoving
party has submitted affidavits or other materials.
Preston u. Duncan, 56 Wn.2d 678 (1960). Also,
Trautman, Motion for Summary Judgment: Their
Use and Effect in Washington, 45 Wash. L. Rev. 1, 15
(1970).
2. SCH and SCH Physicians had not met their initial
burden of showing that there are no issues of
material fact: hence, the grant of summary judgment
was lmnroner.
To grant summary judgment, the trial court
was required to make the inquiry: Had SCH
Physicians met their initial burden of showing that
no genuine issues of material facts requiring trial?
Here, Appellant SCH Physicians were required to
provide evidence to prove that the alleged
“misdiagnosis” was wrong; and that the alleged
failure to meet the standard of care for having
consulted with J.L.’s treating physician was false,
and that the alleged “misrepresentation” did not
exist. In their summary judgment, SCH Physicians
did not even attempt to address any of these raised
allegations: they failed to provide any evidence to
show their diagnoses were correct or within the

161a
Appendix K
standard of care (Notably, Darren Migita did not
even provide his treatment record before the trial
court). In light of the dismissal in the dependency
action and AG’s conclusion that James Metz did
provide false information, then, James Metz needed
to address why and how his false information could
support his “good faith” assertion. The Dependency
Court said it was “outrageous” that Darren Migita’s
below the standard care for failing to consult with
the patient’s main treating physician prior to a
medical conclusion (CP 187), but Darren Migita
provided no evidence to rebut the allegation. A
reasonable person would ask, how can a pediatrician
meet the standard of care without investigating the
patient’s medical history? How can a medical
provider establish good faith for providing plainly
false information to CPS?
We find no answers to the above inquiries in
filings submitted by SCH Physicians who merely
claimed immunity in less than 90 words’ affidavit
without any factual evidence to support their “good
faith” assertion. CP 195, 212, 224.The limited
medical records provided by SCH do not, moreover,
support their claims. In their records, James Metz
recommended “obtain[ing] records from Dr. Green...”
CP 429. Had the contact actually happened? and if
not, why he failed to do so? Again, the answer could
not be found in SCH Physicians’ motion and
submission. Notably, when Darren Migita’s
treatment record was never before the trial court, a
summary judgment was entered in his favor.
Simply put, SCH Physicians’ summary
judgment was based upon an incomplete (indeed, a
very small amount) medical record. Even so, SCH
Physicians’ motion for summary judgment and their

162a
Appendix K
several sentences’ affidavits provide no answer in
opposition to these allegations. In Hash. V.
Children’s Orthopedic Hosp., 49 Wn. App. 130, 741
P.2d 584 (1987), this Court held,
“Without that information, a court cannot
conclude that there are no material issues of
fact to be resolved in deciding the issues of
proximate cause and liability. The record is
simply deficit. It does not tell us either by
facts sworn to under oath or by admissible
opinion just how, mechanically, the facture
occurred. The issue of causation is normally
a factual issue. Morris v. Mcnicol, 83 Wn.2d
491, 496, 519 P.2d 7 (1974). Hall v. McDowell,
6 Wn. App. 941, 944, 497 P.2d 596 (1972).
Under these circumstances, a summary
judgment dismissing plaintiffs complaint
should not be granted.”
SCH Physicians’ summary judgment do not
resolve the disputed issues. Their less-than ninety
(90) words’ affidavits without factual evidence do not
resolve the alleged the issue of causation which is a
question of fact. Indoor Billboard/Wash., Inc. v.
Integra Telecom of Wash., Inc., 162 Wn.2d 59 (Wash.
2007). Nor did their several sentences’ statement do
not resolve the claimed “good faith” which is
established through undisputed facts. Whaley v.
State, 90 Wn. App. 658, 668, 956, P.2d 1100 (1998).
SCH and SCH Physicians submitted only 20 pages’
treatment record to argue that they are entitled to
summary judgment while in fact J.L.’s SCH medical
records turn out to be 600 pages, which had been in
SCH’s sole possession. Chen was blindsided and the
Court was misled.

163a
Appendix K
Here, the record before the court does not tell us
either by facts sworn under oath or by admissible
opinions how SCH Physicians have met the standard
of care, requirement of good faith. There is no dispute
that the prosecutors’ office dropped the criminal
charge against Chen, and the state dropped the
dependency case (caused by SCH physicians’ false
allegation). CP 264. Given these undisputed facts, a
proper inquiry for a reasonable person should be, if
SCH Physicians’ allegations are true, then Chen is
undoubtedly a child abuser. Why do both the state
and prosecutors drop the cases against Chen? A
reasonable inference is that SCH Physicians’
allegation about Chen is wrong. At no point do SCH
Physicians’ affidavits provide the Court with a
factual description of what false information had
been included in their CPS involvement, and how
they had been in good faith for making these false
allegations.
A summary judgment motion should be granted
only if the pleadings, affidavits, depositions on file
demonstrate the absence of any genuine issues of
material fact that moving party is entitled to
judgment as a matter of law. Hartley v. State, 103
Wn.2d 768, 774, 698 P.2d 77 (1985). In sum, multiple
disputed issues were present, a grant of summary
judgement is thus improper. This Court should
reverse.
3. Procedural irregularities require setting aside
summary judgment.
SCH
In obtaining summary judgment,
Physicians’ service was defective. They did not
comply with “28 calendar days” service requirement
to summary judgment. CR 56 (c). Chen received the
18 summary judgments on February 17 (14 days

164a
Appendix K
prior to the Hearing unilaterally scheduled by SCH
and SCH Physicians) through email. CP 750-752.
SCH Physicians claimed that they sent the pleadings
on February 2, even this is true, they still fail to
satisfy the CR 56 (c) requirement when they elected
to serve by mail. The service is considered complete
on February 6 because February 5 was Sunday. See,
CR 5 (b) (2) (A) (three days are added for service by
mail, excluding weekend and holidays). SCH
Physicians bear the burden to show that the
documents were indeed served Chen on the
“Plaintiffs’
prescribed
date
by
providing
acknowledged receipt with signature.” Division II’s
unpublished opinion in Love v. State, 46798-4-II
(2016).
4. In light of this Court’s decision m State v, LG, the
court was required to treatall the factual anegations
a summary mdgment was brought
rue
engine luns diction priortoaiscoverv.

w

SCH Physicians brought a CR 12 (b) motion
challenging trial court’s personal jurisdiction. CP
294-299. When deciding matters outside the
submission, the CR 12 (b) is treated as summary
judgment. In State v. LG Elecs., Inc., 185 Wn. App.
394, 341 P.3d 346 (2015), this Court explicitly
articulates,
“However, when this occurs prior to full
discovery, neither CR 12 (b) itself nor
controlling case law provides that the motion
be analyzed as if it were brought pursuant to
CR 56. Instead, our case law sets out the
particular requirements for evaluation of
such a CR 12 (b)(2) motion...When the trial
court considers matters outside the

165a
Appendix K
pleadings on a motion to dismiss for lack of
personal jurisdiction, we review the trial
court’s ruling under the de novo standard of
review for summary judgment... when
reviewing a grant of a motion to dismiss for
lack of personal jurisdiction, we accepted the
nonmoving party’s factual allegations as true
and review the facts and all reasonable
inferences drawn from the facts in the light
most
favorable
to
the
nonmoving
party...Even where the trial court has
considered matters outside the pleadings on
a CR 12 (b)(2) motion to dismiss for lack of
personal jurisdiction, ‘[fjor purposes of
determining jurisdiction, this court treats
the allegations in the complaint as
established.”
Here, Chen alleged SCH Physicians reached
their conclusions without consulting J.L.’s treating
physicians and reviewing his medical history, even
at their own institution. Chen further alleged that
SCH Physicians misdiagnosed J.L., delivered false
information to CPS. CP 187, 204, 217. Since SCH
Physicians’ motion was brought prior to discovery,
all these factual allegations were required to be
treated as true and established when deciding a CR
12 (b) (2) motion. SCH Physicians provided no
factual evidence to rebut these allegations. They did
not deny the allegations in an answer (they actually
did not file an answer), nor did they provide an
innocent explanation for not consulting J.L.’s
treating physicians or reviewing his medical records
before jumping to a medical conclusion that
disrupted his treatment and destroyed his health.

166a
Appendix K
SCH Physicians argue that they were acting in
good faith for pre-arranging this removal, and later
engaging in CPS action, thus immune under RCW
26.44.060. CP 308-309. RCW 26.44.060 (1) provides
immunity for engaging in alleged child abuse in good
faith. It does not, however, provide immunity for
outrageous misconduct and mistreatments. RCW 26.
44. 060 (4). Relying heavily upon Whaley v. State, 90
Wn. App. 658, 668, 956 P.2d 1100 (1998), SCH
Physicians claimed in their summary judgment that
they sufficiently established “good faith” through a
less than 90 words’ statement without any factual
evidence. CP 195, 212, 224. Does this short
declaration not supported by any fact satisfy the
court who readily accepts it as “good faith”?
Given this argument, Chen digs into thousands
of pages of original court in Whaley v. State. What
Chen found was neither the Whaley Court, nor any
other courts, can grant a summary judgment only
based upon a simple declaration containing several
statements without specific factual evidence
asserting good faith. The instant case and Whaley
are distinguished given the completely different
factual background and significantly different
procedural history. Whaley Defendants brought a
pure CR 56 motion while SCH in the current case
brought a CR 12 (b) (2) motion (converted summary
judgment). The Whaley plaintiffs were represented
by counsel and were granted continuance to conduct
discovery and obtain expert affidavits in opposition
to summary judgment, in this case, the plaintiffs
were pro se and were denied a continuance to conduct
discovery or obtain expert affidavits. In Whaley, the
claim was over an eight day separation between
Plaintiff and her son, and the defendant established

167a
Appendix K
good faith by producing extensive (over 50 pages)
documentation in support of her summary judgment
motion, including detailed and direct fact affidavits
from multiple witnesses. This is very different than
the several-sentence declarations without factual
support offered in this case to demonstrate “good
faith”.
The presence or absence of good faith must be
tested under the facts. Although the CPS allegations
in Whaley and in the current case both turned out to
be false, the difference is obvious. In Whaley, the
false CPS allegation were based on statement from
Whaley’s son while defendant six months’
(with
multiple
investigation,
consultation
professionals as well as the child’s mother, Whaley),
and repeated validation (through multiple witnesses
who did and did not have prior knowledge about the
allegation); here they are based on the failure of the
SCH Physicians to conduct a reasonable
investigation before rejecting the diagnoses and
treating plans of J.L.’s treating doctors and instead
diagnosing abuse. The failure to investigate included
the failure to discuss J.L.’s medical issues with his
parents; the failure to consult these issues and
treatment plan with his treating doctors; and the
failure to review J.L.’s medical records in their own
institution. These failures preclude a finding of good
faith. “Good faith is a state of mind indicating
honesty and lawfulness of purpose.” Tank v. State
Farm, 2015 Wn.2d 381, 385, 715 P.2d 1133 (1986). It
is, moreover, evident that the reports of the SCH
physicians were not honest: the AG explicitly found
that James Metz’s written statement was contrary to
the facts, and it is equally well-established that
Darren Migita provided false information on the lab

168a
Appendix K
results and further reported that J.L. had no GI
distress (even though he was prescribing GI
medications for him). Without providing any
evidence to establish good faith and honesty, a good
faith defense fails. RCW 26.44.060 (bad faith CPS
involvement).
Since SCH physicians had failed to establish the
good faith that is necessary to trigger immunity, and
there were no grounds for Judge Hill to grant a
dismissal in SCH Physicians’ favor. Clapp v.
Olympic View Pub. Co., 137 Wn. App. 470, 476, 154
P.3d 230, 234 (2007) (internal citation omitted)
(“Pleadings are written allegations of what is
affirmed on one side, or denied on the other,
disclosing to the court or jury having to try the cause
the real matter in dispute between the parties.”) .
This Court should reverse summary judgment in
light of the clear evidence that the dependency and
criminal actions were dismissed in Chen’s favor
when the state learned the information (provided by
SCH Physicians) on which they had relied was false.
Given this and other genuine disputes, the grant of
summary judgment was based upon untenable
grounds. This Court should reverse.
F. Judge Schubert erred in not vacating
summary judgment as to SCH, which had
withheld critical medical evidence from the
trial court.
The situation in current case was very similar to
the willful withholds in Roberson v. Perez, 123 Wn.
App. 320, 96 P.3d 420 (2004). The Roberson court
held that, “in this case is material, very important
material...that was not given to the plaintiffs...that
would have been very important in preparation of

169a
Appendix K
the case. They were blinded, and they were. I
believed, misled, and I believed the court was misled.”
While Defendants in Robertson argued that
Plaintiffs never asked for Defendant Perez’s medical
file or his Labor and industries file, the court rejected
this argument, and further vacated judgment in
plaintiffs’ favor. Specifically, the court finds that (1)
was willful or deliberate and (2) substantially
prejudiced the opposing party’s ability to prepare for
trial. The reviewing court, Division Three affirmed
Roberson Court’s decision and articulated,
When a trial court grants a new trial on the
ground that substantial justice has not been
done, the favored position and sound
discretion of the trial court is accorded the
greatest deference by a reviewing court,
particularly when the trial court’s decision
assessment
of
an
involving
occurrences...that cannot be made a part of
the record.” Id (quoting Olpinski v. Clement,
73 Wn.2d 944, 951, 442 P.2d 260 (1968).
Here, J.L’s 600 pages’ medical records is
material and the failure to disclose it was severely
prejudiced to Chen - and misleading to the Court since these records showed what the SCH physicians
would have learned had they taken the trouble of
looking up J.L.’s medical records at their own
institution. SCH did not deny that they had
intentionally withheld 571 pages’ evidence from
Chen (Attorney Heather Kirkwood was one of the
witnesses, CP 759) and the court (CP 807) but
argued at the hearing that Chen did not ask. This is
disingenuous. As shown in an email, Chen did ask
for J.L.’s medical records (with professional
witnesses) but was declined by SCH. Had Judge Hill

170a
Appendix K
not granted summary judgment before discovery,
moreover, Chen would have obtained these records
in discovery, just as Dorsey & Whitney obtained from
them in the federal case. Judge Schubert was aware
of SCH’s summary judgment was obtained through
significant withholds but did not vacate the
summary judgment as to SCH under CR 60 (b) (11)
as Roberson Court. Judge Schubert’s failure to
vacate the summary judgment as to SCH should be
reversed.
VI. CONCLUSION
As stated, multiple errors and procedural
irregularities mandate a trial in this case. And that
trial should extend to a trial of whether SCH
physicians acted negligent and in bad faith. These
issues should remain open for resolution in the
present suits or in new suits on behalf of the children.

DATED this 24* of October 2019.
/s/ Susan Chen
Susan Chen
Pro se Respondent/Cross-Appellant
PO BOX 134, Redmond, WA 98073

171a
Appendix L
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
SUSAN CHEN, et
al

No. 79685-2-1
DIVISION ONE

Appellants,
vs.
DARREN MIGITA
et al.
Respondents

STATEMENT OF
ADDITIONAL
AUTHORITIES
(RAP 10.8)

Pursuant to RAP 10.8, Appellants cite the following
additional authorities, with regard to issues in their opening
brief, i.e., (1) whether trial court lacking personal
jurisdiction can reach merits {e.g., Brief at P. 20- 24) and (2)
whether minors had been properly before the court {e.g.,
Brief at P. 31; 39).
Melo v. U.S. 505 F 2d 1026 (8th Cir. 1974) ("Once
jurisdiction is challenged, the court cannot proceed when it
clearly appears that the court lacks jurisdiction, the court
has no authority to reach merits, but rather should dismiss
the action.")
28 U.S. Code § 1654 (“In all courts of the United States
the parties may plead and conduct their own cases
personally or by counsel...”.).
Johns v. County of San Diego, 114 F. 3d 874, 877 (9th
Cir. 1987) (“a nonlawyer ‘has no authority to appear as an
attorney for others than himself’)

172a
Appendix L
Wash. State Bar Assn. v. Great W. Union Fed. Sav. & Loan
Assn., 91 Wn.2d 48, 586 P.2d 870 (1978) (“[o]rdinarily, only
those persons who are licensed to practice law in this
state...[t]he ‘pro se’ exception are quite limited and apply
only if the layperson is acting solely on his own behalf.” )
RCW 2.48.170 (“Only active members may practice law”).

Respectfully submitted this 15th of April, 2020
/s/ Susan Chen
Susan Chen, pro se appellant
PO BOX 134, Redmond, WA 98073

173a
Appendix M
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
SUSAN CHEN, et
al
Appellants,
vs.
DARREN MIGITA
et al.

No. 79685-2-1
DIVISION ONE
MOTION FOR
RECONSIDERATION
AND
NOTION TO PUBLISH

Respondents
INTRODUCTION AND RELIEF REQUESTED
Pursuant to RAP 12.4 and RAP 12.3,
(“Chen”)
Respondents/Cross-Appellants
Chen
request that the Court’s reconsider and publish its
June 22, 2020 Opinion.
Over two months prior to this Court entered an
opinion on the appeal, Chen submitted Statement of
Additional Authorities pursuant to RAP 10.8 about
whether children had been properly before the trial
court and how the trial court lacking jurisdiction can
reach the merits. Specifically, Chen submitted a list
of authorities:
Melo v. U.S. 505 F 2d 1026 (8th Cir. 1974)
(“Once jurisdiction is challenged, the court
cannot proceed when it clearly appears that the
court lacks jurisdiction, the court has no
authority to reach merits, but rather should
dismiss the action.”)

174a
Appendix M
28 U.S. Code § 1654 (“In all courts of the United
States the parties may plead and conduct their
own cases personally or by counsel...”)
John v. County of Sand Diego, 114 F.3d 874,
877 (9th Cir. 1987) (“a nonlawyer ‘has no
authority to appear as an attorney for others
than himself.”)
Wash. State Bar Assn. v. Great W. Union Fed.
Sav. & Loan Assn., 91 Wn.2d 48, 586 P.2d 870
870 (1978) (“[o]rdinarily, only those persons
who are licensed to practice law in this
state...the ‘pro se’ exceptions are quite limited
and apply only if the layperson is acting solely
on his own behalf.”)
RCW 2.48.170 (“Only active members may
practice law”)
This Court did not address any of the above
authorities and did not explain how the court can
reach the merits when it lacks jurisdiction; and how
minors had been before the court absent
representation of licensed attorneys.
In the instant case, minors were not represented
by counsel or even a guardian ad litem, and pro se
parents are legally prohibited from representation.
e.g., Wash. State Bar Assn. v. Great W. Union Fed.
Saw. & Loan Assn., 91 Wn.2d 48, 586 P.2d 870 (1978)
(holding non-licensed lawyers’ legal activities
constitute “unauthorized practice of law” and “[t]he
“pro se” exceptions are quite limited and apply only
if the layperson is acting solely on his own behalf)

1
175a
Appendix M
(emphasis in original). As this Court recently made
clear, “Only legal counsel can advocate for the legal
rights and interests of a child”. In the Matter of the
Dependency of E.M., Julia Morgan Biryukova v.
State of Washington, Department of Child, Youth
and Families (No 78985-6-1) (Division I) (February
24, 2020) (emphasis added). In this case, J.L. - who
deteriorated in state custody to the point that he lost,
seemingly permanently, all speech, toilet training
and responsiveness - was deprived of legal counsel
and his claims dismissed with prejudice more than a
decade before his statute of limitations would have
run. Since Chen’s representation of J.L. and L.L. was
legally prohibited, any judgment against the
children was invalid. At minimum, any dismissal as
to the children should be “without prejudice.”
ARGUMENT
Jurisdiction is the first issue to address. As stated
by the Supreme Court of the United States,
“Jurisdiction is the power to hear and determine the
subject matter in controversy between parties to a
suit, to adjudicate or exercise any judicial power over
them . . . Rhode Island v. Massachusetts, 37 U.S.
657, 718 (1838). This Court stated that the
jurisdictional challenge about Judge Hill is a legal
error but did not address. This Court did not explain
how Judge Hill can render a judgment when facing
jurisdictional challenge.
Further, minors had not been properly before the
courts. “In all courts of the United States the parties
may plead and conduct their own cases personally or

J

176a
Appendix M
by counsel...” See, 28 U.S.C. § 1654. Similarly,
Washington courts have long recognized that only
licensed lawyers can practice law. e.g., Washington
State Ass’n v. Washington Ass’n of Realtors, 41
Wn.2d 697, 699, 251 P.2d 619 (1952). In Wash. State
Bar Assn. v. Great W. Union Fed. Sav. & Loan Assn.,
91 Wn.2d 48, 586 P.2d 870 (1978), the Washington
Supreme Court reiterated that “[o]rdinarily, only
those persons who are licensed to practice law in this
state”. RCW 2.48.010 et seq; APR 5, 7. Having
recognized the “pro se exception”, the Supreme Court
made clear that “[t]he ‘pro se’ exception are quite
limited and apply only if the layperson is acting
solely on his own behalf(emphasis in original). Id.
General Rule (GR) 24 (a) defines the practice of
law as follows, in part:
(a) General Definition: The practice of law is the
application of legal principles and judgment with
regard to the circumstances or objectives of
another entity or person(s) which require the
knowledge and skill of a person trained in the law.
This includes but is not limited to:
(1) Giving advice or counsel to others as to
their legal rights or the legal rights or
responsibilities of others for fees or other
consideration.
(2) Selection, drafting, or completion of legal
documents or agreements which affect the
legal rights of an entity or person(s).

177a
Appendix M
(3) Representation of another entity or
person(s) in a court, or in a formal
administrative adjudicative proceeding or
other formal dispute resolution process or
adjudicative
administrative
in
an
proceeding in which legal pleadings are
filed or a record is established as the basis
for judicial review.
Per GR 24,. any legal activities such as “drafting or
completion of legal documents” or “representation”
are considered the practice of law. Also see Jones v.
Allstate Ins. Co., 146 Wn.2d 291, 302, 45 P.3d 1068
(2002) (quoting State v. Hunt, 75 Wn. App. 795, 802,
880 P.2d 96 (1994) (quoting Wash. State Bar Ass 'n v.
Great W. Union Fed. Sav. & Loan Ass'n, 91 Wn.2d
48, 55, 586 P.2d 870 (1978)).
In order to practice laws in Washington courts,
one is required to be an active member of
Washington State Bar. Prior to admission, one is
required to complete the require legal training, pass
the bar exam, and receive an order from the Supreme
Court of Washington admitting one to practice law.
Chen does not meet any the above requirements and
can therefore only represent herself under “pro se
exception”. The same is true for Lian. Without
authorization to practice law, the parents cannot
represent others, including two minors.
There is no question but that the parties in this
case were pro se.. Even with the knowledge that
Chen was pro se, this Court mistakenly stated, “A
parent may initiate a lawsuit as a guardian on behalf
of a minor child.”. Opinion at 17. In making this

J

178a
Appendix M
conclusion, this Court cited Taylor v. Enumclaw Sch.
Dist. No. 216, 132 Wn. App. 688, 694, 133 P.3d 492
(2006) but Taylor is factually distinguished: parent
in Taylor was not pro se but was represented by
counsel, specifically, by a law firm named Tyler K.
Firkins, of Vansicien Stocks & Firkins.
In making a determination that the pro se
parents could represent their minor children in this
case, the Court improperly granted them privileges
of unauthorized practice of law, which is prohibited
by laws. A search of data base in Washington courts
generates no results that a pro se litigant is
authorized to represent others in Washington courts.
In this case, moreover, the parents were
representing the minor children, including a
severely disabled child, with no regard for whether
there might be conflicts between the parents and the
children, or whether the-parents were capable of
representing the children’s best interests. When a
severely disabled child was without benefit of a
guardian ad litem or counsel, it is a gross
miscarriage of justice. Since the pro se parents were
legally not allowed to represent the parents were
legally not allowed to represent their minor children,
J.L. and L.L. were never before the court, and should
not be bound by the judgment.
CONCLUSION
In light of the foregoing, Chen respectfully asks
the Court to reconsider and publish its opinion. At
minimum, this Court should revise the orders
against the minors J.L. and L.L. to read “without
prejudice.”

179a
Appendix M
DATED this 9th day of July 2020.

Respectfully submitted
/s/ Susan Chen
Susan Chen, pro se
PO BOX 134, Redmond, WA 98073

